<html>
<title> - HARMFUL ALGAL BLOOMS: ACTION PLANS FOR SCIENTIFIC SOLUTIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
      HARMFUL ALGAL BLOOMS: ACTION PLANS FOR SCIENTIFIC SOLUTIONS

=======================================================================



                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND

                              ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JUNE 1, 2011

                               __________

                           Serial No. 112-21

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov






                  U.S. GOVERNMENT PRINTING OFFICE
66-562                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. ANDY HARRIS, Maryland, Chair
DANA ROHRABACHER, California         BRAD MILLER, North Carolina
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
FRANK D. LUCAS, Oklahoma             BEN R. LUJAN, New Mexico
JUDY BIGGERT, Illinois               PAUL D. TONKO, New York
W. TODD AKIN, Missouri               ZOE LOFGREN, California
RANDY NEUGEBAUER, Texas              JERRY McNERNEY, California
PAUL C. BROUN, Georgia                   
CHARLES J. ``CHUCK'' FLEISCHMANN,        
    Tennessee                            
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texasn


                            C O N T E N T S

                            Date of Hearing

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Harris, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Brad Miller, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    11


                               Witnesses:

Dr. Robert Magnien, Director of the Center for Sponsored Coastal 
  Ocean Research, National Oceanic and Atmospheric Administration 
  (NOAA)
    Oral Statement...............................................    13
    Written Statement............................................    14

Dr. Richard Greene, Chief, Ecosystems Dynamics and Effects 
  Branch, Gulf Ecology Division, Office of Research and 
  Development, U.S. Envirionmental Protection Agency (EPA)
    Oral Statement...............................................    24
    Written Statement............................................    26

Dr. Donald Anderson, Senior Scientist and Director of the Coastal 
  Ocean Institute, Woods Hole Oceanographic Institution
    Oral Statement...............................................    30
    Written Statement............................................    32

Dr. Kevin Sellner, Executive Director, Chesapeake Research 
  Consortium
    Oral Statement...............................................    41
    Written Statement............................................    43

Dr. Stephanie Smith, Chief Scientist, Algaeventure Systems
    Oral Statement...............................................    45
    Written Statement............................................    47

Dr. Beth McGee, Senior Water Quality Scientist, Chesapeake Bay 
  Foundation
    Oral Statement...............................................    60
    Written Statement............................................    61



                         HARMFUL ALGAL BLOOMS:



                 ACTION PLANS FOR SCIENTIFIC SOLUTIONS

                              ----------                              


                        WEDNESDAY, JUNE 1, 2011

                  House of Representatives,
                    Subcommittee on Energy and Environment,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy 
Harris [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                     U.S. HOUSE OF REPRESENTATIVES

      Harmful Algal Blooms: Action Plans for Scientific Solutions

                        wednesday, june 1, 2011

                         2:00 p.m. to 4:00 p.m.

                   2318 rayburn house office building

Purpose

    On Wednesday, June 1, 2011, the Subcommittee on Energy and 
Environment of the Committee on Science, Space, and Technology will 
hold a legislative hearing to examine harmful algal blooms (HABs) and 
hypoxia research and response needs to develop and implement action 
plans to monitor, prevent, mitigate and control both marine and fresh 
water bloom and hypoxia events. The Subcommittee will also receive 
testimony on draft legislation entitled ``The Harmful Algal Blooms and 
Hypoxia Research and Control Act of 2011.'' Witnesses have been asked 
to provide comments on, and suggestions to, the bill.

Witnesses

<bullet>  Dr. Robert Magnien, Director of the Center for Sponsored 
Coastal Ocean Research, National Oceanic and Atmospheric Administration 
(NOAA).

<bullet>  Dr. Richard Greene, Chief, Ecosystems Dynamics and Effects 
Branch, Gulf Ecology Division, Office of Research and Development, U.S. 
Environmental Protection Agency (EPA).

<bullet>  Dr. Donald Anderson, Senior Scientist and Director of the 
Coastal Ocean Institute, Woods Hole Oceanographic Institution.

<bullet>  Dr. Kevin Sellner, Executive Director, Chesapeake Research 
Consortium

<bullet>  Dr. Stephanie Smith, Chief Scientist, Algaeventure Systems

<bullet>  Dr. Beth McGee, Senior Water Quality Scientist, Chesapeake 
Bay Foundation

Background

Harmful Algal Blooms and Related Impacts
    A harmful algal bloom (HAB) is a bloom, or rapid overproduction of 
algal cells, that produces toxins which are detrimental to plants and 
animals. These outbreaks are commonly referred to as ``red'' or 
``brown'' tides. Blooms can kill fish and other aquatic life by 
decreasing sunlight available to the water and by depleting the 
available oxygen in the water, causing hypoxia. The produced toxins 
accumulate in shellfish, fish, or through the accumulation of biomass 
that in turn affect other organisms and alter food webs. In recent 
years, many of the nation's coastlines, near shore marine waters, and 
freshwaters have experienced an increase in the number, frequency, 
duration and type of HABs. Blooms can be caused by several factors; for 
example, an increase in nutrients can cause algae growth and 
reproduction to increase dramatically. In other instances, HABs may 
result from naturally occurring environmental changes in water quality, 
temperature, sunlight, or other factors allowing certain algae to out-
compete other microorganisms for nutrients.
    Harmful algal blooms are one of the most scientifically complex and 
economically significant coastal management issues facing the nation. 
In the past, only a few regions of the U.S. were affected by HABs, but 
now almost all U.S. States have reported blooms. In severe cases, these 
phenomena can have serious environmental, economic, and human health 
impacts. Such impacts include human illness and mortality following 
direct consumption or indirect exposure to toxic shellfish or toxins in 
the environment; economic hardship for coastal economies, many of which 
are highly dependent on tourism or harvest of local seafood; as well as 
fish, bird, and mammal mortalities. Broader ecosystem impacts are also 
a concern, wherein environmental damage may reduce the ability of those 
systems to sustain species due to habitat degradation and increase 
susceptibility to disease..
The Harmful Algal Bloom and Hypoxia Research and Control Act
and Current Federal Research
    In 1998, Congress passed the Harmful Algal Bloom and Hypoxia 
Research and Control Act (HABHRCA, Public Law 105-83), which 
established an Interagency Task Force to develop a national HABs 
assessment and authorized funding for existing and new research 
programs on HABs. The Interagency Task Force includes:

        <bullet>  Department of Commerce

        <bullet>  Environmental Protection Agency

        <bullet>  Department of Agriculture

        <bullet>  Department of the Interior

        <bullet>  Department of the Navy

        <bullet>  Department of Health and Human Services

        <bullet>  National Science Foundation

        <bullet>  National Aeronautics and Space Administration

        <bullet>  Food and Drug Administration

        <bullet>  Office of Science and Technology Policy

        <bullet>  Council on Environmental Quality

        <bullet>  Other federal agencies as the President considers 
        appropriate

    The funding went to support two multi-year research programs at the 
National Oceanic and Atmospheric Administration (NOAA) that focus on 
HABs- the Ecology and Oceanography of Harmful Algal Blooms (ECOHAB) 
program and the Monitoring and Event Response for Harmful Algal Blooms 
(MERHAB) program. These programs involve federal, state, and academic 
partners and support interdisciplinary extramural research studies to 
address the issues of HABs in an ecosystem context.
    In 2004, HABHRCA was reauthorized by Public Law 108-456, which 
required assessments of HABs in different coastal regions and in the 
Great Lakes and included plans to expand research to address the 
impacts of HABs. The law also authorized research, education, and 
monitoring activities related to the prevention, reduction, and control 
of harmful algal blooms and hypoxia and reconstituted the Interagency 
Task Force on HABs and Hypoxia. The reauthorization expired in 2008, 
however, the Consolidated Appropriations Act of 2008 (P.L. 110-161) 
provided authorizations through 2010.
    The 2004 reauthorization also directed NOAA to produce several 
reports and assessments, which have since been completed:

        <bullet>  The Prediction and Response Report (September 2007) 
        addresses both the state of research and methods for HAB 
        prediction and response, especially at the federal level.

        <bullet>  The 2008 National Scientific Research, Development, 
        Demonstration, and Technology Transfer Plan for Reducing 
        Impacts from Harmful Algal Blooms (RDDTT Plan) establishes 
        research priorities to develop and demonstrate prevention, 
        control and mitigation methods to advance current prediction 
        and response capabilities.

        <bullet>  The Scientific Assessment of Marine Harmful Algal 
        Blooms (December 2008) described the state of the science with 
        respect to understanding HABs causes and controls and 
        developing predictive models; developing detection methods for 
        cells and toxins; characterizing toxins and impacts; HAB 
        impacts on food webs and fisheries; and, assessing public 
        health, economic and sociocultural impacts.

        <bullet>  The 2008 Scientific Assessment of Freshwater Harmful 
        Algal Blooms released in 2008 that describes the state of the 
        knowledge of HABs in U.S inland and freshwaters and presents a 
        plan to advance research and reduce the impacts on humans and 
        the environment.

        <bullet>  The Scientific Assessment of Hypoxia in U.S. Coastal 
        Waters (September 2010) assesses the prevalence of low-oxygen 
        ``dead-zones'', or hypoxic zones, in U.S. coastal waters and 
        outlines a series of research steps needed to address these 
        occurrences.

    Additionally, the 2004 reauthorization directed NOAA, in 
coordination with the Task Force, to conduct local and regional 
scientific assessments if requested by state, tribal, or local 
governments or for affected areas identified by NOAA. Funding was also 
authorized for ongoing and new programs and activities such as: 
competitive, peer-reviewed research through the ECOHAB program; 
freshwater harmful algal blooms added to the research priorities of 
ECOHAB; a competitive, peer-reviewed research program on management 
measures to prevent, reduce, control, and mitigate harmful algal blooms 
supported by the MERHAB program; and activities related to research and 
monitoring of hypoxia supported by the competitive, peer-reviewed 
Northern Gulf of Mexico program and Coastal Hypoxia Research Program 
administered by NOAAs National Ocean Service.
    The HABHRCA authorized funds to conduct research and reduce HABs 
and hypoxia in U.S. marine waters, estuaries and the Great Lakes. In 
its role as a task force participant, the Environmental Protection 
Agency (EPA) has signed memorandums of understanding to fund 
competitive research in these areas. However, since the completion of 
the freshwater report in 2008, EPA has ceased participation in 
freshwater HAB research and mitigation activities, asserting that its 
obligations regarding implementation of the report recommendations have 
been addressed. As a result, although EPA oversees a wide array of 
programs specifically designed to protect and preserve the coastal and 
marine waters of the United States, including watershed protection 
programs working through partnerships and an array of regulatory 
programs, the agency currently has no research and development effort 
that directly addresses freshwater harmful algal blooms.
Other Interagency Efforts
    EPA and NOAA are co-leads of a Federal Workgroup of thirteen 
federal agencies committed to supporting the Gulf of Mexico Alliance, a 
partnership formed by the five Gulf State Governors. In addition, EPA 
is also the lead agency of the Mississippi River/Gulf of Mexico 
Watershed Nutrient Task Force.

Reauthorization of the Harmful Algal Bloom and Hypoxia Research and

Control Act

    The first national plan to outline a roadmap for the scientific 
community was the National Plan for Marine Biotoxins and Harmful Algae. 
\1\ This plan served as the foundation for the development of national, 
regional, state and local programs and the advancement of scientific 
knowledge on HABs and their impacts. In the years that followed, HABs 
have increased in type, frequency, location, duration and severity, 
while decision-making and management systems did not change. Thus, the 
national plan was updated to reflect the current state of the HAB 
problem, needs, priorities and approaches. The revised plan, Harmful 
Algal Research and Response: A National Environmental Science Strategy 
2005-2015 \2\ (HARRNESS) is composed of views from the research and 
management community and outlines a framework for actions over a ten-
year period.
---------------------------------------------------------------------------
    \1\  Anderson, D., Galloway, S.B., Joseph, J.D. A National Plan for 
Marine Biotoxins and Harmful Algae. 1993. http://hdl.handle.net/1912/
614; https://darchive.mblwholibrary.org/bitstream/1912/614/1/WHOI-93-
02.pdf.
    \2\  HARNESS, Harmful Algal Research and Response: A National 
Environmental Science Strategy 2005-2015. National Plan for Algal 
Toxins and Harmful Algal Blooms. http://www.esa.org/HARNESS/.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Discussion Draft: the Harmful Algal Blooms and Hypoxia Research

and Control Amendments Act of 2011

Section-by-Section Analysis

    Purpose: To establish a National Harmful Algal Bloom and Hypoxia 
Program, to develop and coordinate a comprehensive strategy to address 
harmful algal blooms and hypoxia, and to provide for the development 
and implementation of comprehensive regional action plans to reduce 
harmful algal blooms and hypoxia.

Section 1: Short Title
    The Harmful Algal Blooms and Hypoxia Research and Control 
Amendments Act of 2011

Section 2: Amendment of Harmful Algal Bloom and Hypoxia Research and 
Control Act of 1998

    Section 2 explains that the text the bill modifies is the Harmful 
Algal Bloom and Hypoxia Research and Control Act of 1998, unless 
otherwise expressly stated.

Section 3: Definitions

    Section 3 provides definitions for the Act, including: 
Administrator of the Environmental Protection Agency; the National 
Harmful Algal Bloom and Hypoxia Program; State; and the Under Secretary 
of Commerce for Oceans and Atmosphere.

Section 4: National Harmful Algal Bloom and Hypoxia Program
    Section 4 directs the Under Secretary of Commerce for Oceans and 
Atmosphere, through the Interagency Task Force, to maintain a National 
Harmful Algal Bloom and Hypoxia Program. The bill outlines tasks for 
the Under Secretary to ensure through the Program: 1) to develop a 
national strategy to address both marine and freshwater HABs and 
hypoxia; 2) to ensure the coordination of all Federal programs related 
to HABs and hypoxia; 3) to work with regional, State, tribal, and local 
government agencies; 4) to identify additional research needs and 
priorities; 5) to ensure the development and implementation of methods 
and technologies to protect ecosystems damaged by HABs; 6) to 
coordinate education programs; 7) to facilitate regional, State, 
tribal, and local efforts to implement response plans, strategies, and 
tools; 8) to provide resources for training of regional, State, tribal 
and local coastal and water resource managers; 9) to oversee the 
updating of the Regional Research and Action Plans; and 10) to 
administer peer-reviewed, merit-based competitive grant funding.
    In addition, Section 4 directs the Under Secretary to work 
cooperatively with other offices, centers, and programs within NOAA, as 
well as, with States, tribes, nongovernmental organizations, and other 
agencies represented on the Task Force to avoid duplication.
    This bill also requires the Under Secretary to maintain an existing 
competitive grant program at NOAA; conduct marine and freshwater HAB 
and hypoxia event response activities; and facilitate and coordinate 
among Federal agencies and increase the availability of analytical 
facilities and technologies, operational forecasts, and reference and 
research materials.
    Section 4 requires that all monitoring and observation data 
collected shall conform to standards and protocols developed pursuant 
to the National Integrated Coastal and Ocean Observation System Act of 
2009.
    The bill requires the Under Secretary to transmit to Congress an 
action strategy that outlines the specific activities to be carried out 
by the Program, a timeline for such activities, and the programmatic 
roles of each federal agency in the Task Force. The action strategy 
shall be published in the Federal Register and be periodically revised 
by the Under Secretary. Section 4 also requires the Under Secretary to 
prepare a report to Congress describing the budget, activities, 
progress of the Program, and the need to revise or terminate activities 
under the Program.

Section 5: Regional Research and Action Plans

    Section 5 directs the Under Secretary, through the Task Force, to 
oversee the development of Regional Research and Action Plans by 
identifying the appropriate regions and sub-regions to be addressed by 
each Plan. It directs the Under Secretary, through the Task Force, to 
oversee the implementation of the Regional Research and Action Plans 
only at the request of the State. The bill outlines some contents the 
Plans should identify: 1) regional priorities for ecological, economic, 
and social research related to the impacts of HABs and hypoxia; 2) 
research, development, and demonstration activities to advance 
technologies to address the impacts of HABs and hypoxia; 3) ways to 
reduce the duration and intensity of HABs events; 4) research and 
methods to address the impacts of HABs on human health; 5) mechanisms 
to protect vulnerable ecosystems that could be or have been affected by 
HABs; 6) mechanisms by which data is transferred between the Program 
and State, tribal, and local governments and relevant research 
entities; 7) communication and dissemination methods used to educate 
and inform the public; and 8) the roles that Federal agencies can play 
to assist implementation of the Plan.
    Section 5 directs the utilization of existing research, 
assessments, and reports in the development of the Plans. Section 5 
also provides a list of individuals and entities that the Under 
Secretary may work with to develop the Plans. The bill also requires 
that the Plans be completed within 24 months of the date of enactment 
and updated once every five years.

Section 6: Northern Gulf of Mexico Hypoxia

    Section 6 directs the Mississippi River/Gulf of Mexico Watershed 
Nutrient Task Force to transmit a report to Congress and the President 
on the progress made toward attainment of the coastal goals of the 2008 
Gulf Hypoxia Action Plan. The initial report is required no later than 
two years after the date of enactment and every two years thereafter. 
The reports are required to assess progress made toward nutrient load 
reductions, the response of the hypoxia zone and water quality 
throughout the Mississippi/Atchafalaya River Basin and the economic and 
social effects. The reports shall include an evaluation of current 
policies and programs and lessons learned. In addition, Section 6 
requires the reports to recommend appropriate actions to continue to 
implement or, if necessary, revise the strategy set forth in the 2008 
Gulf Hypoxia Action Plan.

Section 7: Authorization of Appropriations

    The discussion draft does not propose specific funding levels for 
the program. However, the bill specifies that the Under Secretary shall 
ensure a substantial portion of appropriated funds go toward extramural 
research activities.

Section 8: Unfunded Mandates

    The draft states that the neither the Act nor the amendments made 
by the Act shall constitute a financial burden to State, tribal, or 
local governments.
    Chairman Harris. The Subcommittee on Energy and Environment 
will come to order. Good afternoon, everyone. Before we start, 
we are going to be taking votes, probably in the next half-
hour, 20 minutes or half-an-hour, so we will have to have a 
break and come back and continue. But we are going to go ahead 
and get started.
    Welcome to today's hearing entitled ``Harmful Algal Blooms: 
Action Plans for Scientific Solutions''. In front of you are 
packets containing the written testimony, biographies and 
truth-in-testimony disclosures for today's witness panel.
    I now recognize myself for five minutes for an opening 
statement.
    Good afternoon. Harmful algal blooms, or HABs, and hypoxia, 
are issues that this Committee is very familiar with, as this 
is the third hearing on this topic in three years. HABs are an 
abundance of freshwater or marine algae that can produce toxins 
or are produced in large enough numbers to harm the surrounding 
environment.
    Virtually every state has been affected by HABs, making 
this a national problem. However, the different types of algae, 
the causes of their explosive growth, and the effect they have 
on the ecosystem varies so greatly that there is no single, 
national solution to deal with HABs.
    While this is an important environmental issue, HABs and 
hypoxia can also have a direct detrimental effect on human 
society. The bodies of water that are affected by HABs are the 
same as the ones we use for drinking water, for recreational 
purposes and as the source of livelihoods such as commercial 
fishing.
    Like all Marylanders, my family and I cherish a clean and 
healthy Chesapeake Bay. We are privileged to live so close to 
this remarkable resource and share a commitment to caring for 
it and its wildlife. Harmful algal blooms cause oxygen depleted 
dead zones that can kill fish and other marine life in the Bay, 
and the collaborative efforts reauthorized in legislation I 
will introduce help harness the ingenuity and resources 
available from the private sector, academia, local governments 
and non-profits, as well as the Federal Government.
    In today's hearing, we will be discussing not only the 
current state of research in HABs and hypoxia, we will be 
discussing draft legislation to reauthorize the Harmful Algal 
Bloom and Hypoxia Research and Control Act. This statute was 
first authorized in 1998 and again in 2004. As of the current 
fiscal year, the programs authorized under this law have now 
expired. The reports required under the law have provided us 
with a great deal of information on the research needed to not 
only try to prevent HABs and hypoxia, but to control, mitigate, 
protect and respond to these events. Although there is a great 
need for it, the technology to address HABs and hypoxia does 
not seem to be advancing as quickly as the rest of the research 
areas.
    Now, in a utopian world, we would prevent these incidents 
from occurring entirely. However, in the world we live in, some 
of these events are naturally occurring and therefore could not 
be prevented, and other events are exacerbated by human 
activities. We need to make sure that the research in 
prevention does not hinder or eclipse the parallel research 
path of control and mitigation through technology solutions.
    Given the importance of these issues to human health, 
economic prosperity and the environment, I think it is 
important for us to ensure that these research programs 
continue and work on providing multiple ways of addressing HABs 
and hypoxia in the future. The legislation I have asked all our 
witnesses to comment on is in draft form in order to provide 
structure for our discussion today. I look forward to hearing 
from our witnesses on their thoughts on how we might improve 
the language and I look forward to working with the minority as 
we move along this process.
    [The prepared statement of Mr. Harris follows:]
               Prepared Statement of Chairman Andy Harris
    Good afternoon. The title of today's hearing is Harmful Algal 
Blooms: Action Plans for Scientific Solutions. Harmful algal blooms, or 
HABs, and hypoxia, are issues that this Committee is very familiar 
with, as this is the third hearing on this topic in three years. HABs 
are an abundance of freshwater or marine algae that can produce toxins 
or are produced in large enough numbers to harm the surrounding 
environment. Virtually every State has been affected by HABs, making 
this a national problem. However, the different types of algae, the 
causes of their explosive growth, and the effect they have on the 
ecosystem varies so greatly that there is no single, national solution 
to deal with HABs.
    While this is an important environmental issue, HABs and hypoxia 
can also have a direct detrimental effect on human society. The bodies 
of water that are affected by HABs are the same as the ones we use for 
drinking water, for recreational purposes, and as the source of 
livelihoods such as commercial fishing.
    Like all Marylanders, my family and I cherish a clean and healthy 
Chesapeake Bay. We are privileged to live so close to this remarkable 
resource and share a commitment to caring for it and its wildlife. 
Harmful algal blooms cause oxygen depleted dead zones that can kill 
fish and other marine life in the Bay. The collaborative efforts 
reauthorized in legislation I will introduce help harness the ingenuity 
and resources available from the private sector, academia, local 
governments and non-profits, as well as the federal government.
    In today's hearing, we will be discussing not only the current 
state of research in HABs and hypoxia, we will be discussing draft 
legislation to reauthorize the Harmful Algal Bloom and Hypoxia Research 
and Control Act. This statute was first authorized in 1998 and again in 
2004. As of the current fiscal year, the programs authorized under this 
law have now expired. The reports required under the law have provided 
us a great deal of information on the research needed to not only to 
try to prevent HABs and hypoxia, but to control, mitigate, predict, and 
respond to these events. Although there is a great need for it, the 
technology to address HABs and hypoxia does not seem to be advancing as 
quickly as the rest of the research areas.
    In a utopian world, we would prevent these incidents from occurring 
entirely. However, in the world we do live in, some of these events are 
naturally occurring and therefore could not be prevented, and other 
events are exacerbated by human activities. We need to make sure that 
the research in prevention does not hinder or eclipse the parallel 
research path of control and mitigation through technology solutions.
    Given the importance of these issues to human health, economic 
prosperity and the environment, I think it is important for us to 
ensure that these research programs continue and work on providing 
multiple ways of addressing HABs and hypoxia in the future. The 
legislation I have asked all our witnesses to comment on is in draft 
form in order to provide structure for our discussion today. I look 
forward to hearing from our witnesses on their thoughts on how we might 
improve the language and I look forward to working with the minority as 
we move along this process.

    Chairman Harris. The Chair now recognizes Mr. Miller for an 
opening statement.
    Mr. Miller. Thank you, Chairman Harris. I also want to 
welcome the witnesses to today's hearing. Harmful algal blooms 
and their hypoxic effects may not be something that most of us 
think about every day, the exception obviously being the 
witnesses for today's hearing, but it is an important issue 
that affects most of our districts, in fact, all of our 
districts.
    For the past two years, this Subcommittee and the Full 
Committee have discussed the effects of harmful algal blooms 
and the resulting hypoxia on our coastlines and in fresh water. 
HABs pose a serious threat because of toxins they can produce 
and because they reduce oxygen and sunlight in the water. Those 
threats alter the ocean's food web, affect human health, and 
create economic losses for communities and commercial 
fisheries.
    In addition to hearing about the effects of HABs, we will 
also discuss the draft legislation for the reauthorization of 
the Harmful Algal Bloom and Hypoxia Research and Control Act. 
Because of the 1998 Harmful Algal Bloom and Hypoxia Research 
and Control Act--we really need to shorten that--and the 2004 
reauthorization, we have made significant advances in our 
research findings and have taken important steps to solve some 
of the problems associated with HABs. However, numerous reports 
and assessments required by the law have revealed an increase 
in the number, frequency, and type of blooms in recent years. 
We need to continue this valuable research and implement 
strategic national and regional plans. The 2010 Harmful Algal 
Bloom and Hypoxia Research and Control Act authorization 
expired--you know, if we turn the military loose on that, they 
can come up with an acronym for that act. We passed a 
reauthorization in the House in 2010, and I want to commend 
Brian Baird, a former Member of this Committee, for his good 
work on that legislation, but the Senate did not act on it as 
was true with many other issues. It appears that there remains 
some interest in ensuring that HAB research continues with the 
draft legislation we are discussing today, which does appear 
very similar in many respects to the legislation that Brian 
Baird worked on in the last Congress. But I am a little 
disappointed that we are holding a legislative hearing on this 
new draft HABs reauthorization without the witnesses having had 
sufficient time to review and to comment on the draft. I 
understand the witnesses did not receive the discussion draft 
until last Tuesday night, and especially for those witnesses 
speaking on behalf of government agencies, it is very hard to 
turn around written testimony in that period of time. But I 
hope that the two agency witnesses whose written testimony did 
not include official comments may be able to comment in their 
testimony today, at least in response to our questions.
    Witness testimony was invaluable in developing the 2010 
version of the bill, and I understand that the draft is almost 
the same as the previous legislation but contains a number of 
word changes and in its current form does not include the 
freshwater HABs and authorization level section. While I 
understand you intend to add, Mr. Chairman, those sections 
later in the process, it would be very helpful if our witnesses 
could review that and provide comments so we can create the 
best bill possible. The excluded sections could affect the 
results and success of the program, and while there may be an 
opportunity for technical comments later from these witnesses 
and from those with whom they consult, a primary purpose of 
legislative hearings like this one is to discuss technical 
questions. It is to get into the weeds.
    I hope as we move forward that we can work together and 
with more consideration for everyone's time. Reducing HABs can 
and should be a bipartisan effort. It was in the last Congress, 
it should be again, and I hope that will be the case this time. 
We must continue to invest in a way that will move this 
research forward and advance our understanding of these blooms 
and their hypoxic effects. We need to monitor, mitigate, and 
control these occurrences better and to prevent them, if 
possible.
    We have a very distinguished panel of witnesses here today 
who do think about harmful algal blooms every day of their 
lives, and I hope they will offer us their best testimony 
possible that we can move forward in responding to the problem.
    Again, I want to thank all the witnesses for being here 
today, and thank you, Mr. Chairman. I yield back 15 seconds of 
time.
    [The prepared statement of Mr. Miller follows:]
            Prepared Statement of Ranking Member Brad Miller
    Thank you Chairman Harris. I want to also welcome the witnesses to 
today's hearing. Harmful algal blooms (HAB) and their hypoxic effects 
may not be something that most of us think about every day, but it is 
an important issue that affects many of our districts.
    For the past two years this Subcommittee and Committee has 
discussed the effect of harmful algal blooms and the resulting hypoxia 
on our coastlines and in freshwater. HABs pose a serious threat because 
of toxins they can produce and because they reduce oxygen and sunlight 
in the water. These threats alter the ocean's food web, affect human 
health, and create economic losses for communities and commercial 
fisheries.
    In addition to hearing about the effects of Harmful Algal Blooms, 
we will also discuss the draft legislation for the reauthorization of 
the Harmful Algal Bloom and Hypoxia Research and Control Act.
    Because of the 1998 Harmful Algal Bloom and Hypoxia Research and 
Control Act and the 2004 reauthorization, we have made significant 
advances in our research findings and have taken important steps to 
solve some of the problems created by harmful algae blooms. However, 
numerous reports and assessments, required by this law, have revealed 
an increase in the number, frequency, and type of hypoxic events and 
blooms in recent years. We need to continue this valuable research and 
implement strategic national and regional plans.
    In 2010 Harmful Algal Bloom and Hypoxia Research and Control Act 
authorization expired. We passed a reauthorization in the House last 
year but the Senate did not act on it. It appears that there remains 
some interest in ensuring that HAB research continues with the draft 
legislation we are discussing today.
    I am a little disappointed, however, that we are holding a 
legislative hearing on this new draft HABs reauthorization without the 
witnesses having sufficient time to review and comment on the draft. I 
understand that the witnesses did not receive the discussion draft 
until last Tuesday night. Therefore, the two agency witnesses' written 
testimonies do not include official comments on the bill.
    Witness testimony was invaluable in developing the 2010 version of 
this bill. I understand that your draft is almost the same as the 
previous version, but contains a number of word changes, and in its 
current form does not include the freshwater HABs and authorization 
levels sections. While I understand you intend to add these sections 
later in the process, it would be very helpful if our expert witnesses 
could review them and provide comments so that we can create the best 
bill possible. These excluded sections could affect the results and 
success this program has seen in the past. While there will be 
opportunity for technical comments later from these folks, a primary 
purpose of legislative hearings like this one is to discuss technical 
questions. I hope as we move forward with this bill that we can work 
together better and with more consideration for everyone's time. 
Reducing HABs can and should be a bipartisan effort, as it has been in 
the past; and I hope that will be the case this time around.
    We must continue to invest in a way that will move this research 
forward and advance our understanding ofthese blooms and the hypoxic 
events they cause. We need to monitor, mitigate, and control these 
occurrences better and to prevent them, if possible.
    We have a distinguished panel of witnesses here today, and 
considering the circumstances, I hope they will offer us their best 
testimony possible on how we can move forward together in responding to 
this problem.
    Again, I want to thank all of our witnesses for being here today. 
And, thank you, Mr. Chairman. I yield back the balance of my time.

    Chairman Harris. Thank you very much, Mr. Miller, and 
obviously I am new around here, but I think we gave the same 
eight days to the witnesses to see the legislation, that they 
got last year, before last year's legislation. So hopefully we 
are welcome to the comments.
    If there are other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this time I would like to introduce our witness panel. 
Our first witness will be Dr. Robert Magnien, the Director of 
the Center for Sponsored Coastal Ocean Research at NOAA. He 
serves on the Interagency Working Group on Harmful Agal Blooms, 
Hypoxia, and Human Health and is the U.S. representative in 
care of the Intergovernmental Oceanographic Commission Panel on 
HABs. Before joining NOAA, he spent 20 years in the Chesapeake 
Bay Program for the State of Maryland.
    Dr. Richard Greene, our second witness, is the Chief of 
Ecosystem Dynamics and Effects Branch at the Environmental 
Protection Agency's Gulf Breeze Laboratory. He also serves as 
the EPA's representative on the Interagency Mississippi River/
Gulf of Mexico Watershed Nutrients Task Force Coordinating 
Committee.
    Dr. Don Anderson is a Senior Scientist in the Biology 
Department of the Woods Hole Oceanographic Institute. He also 
serves as the Director of the U.S. National Office for Harmful 
Algal Blooms. In addition to active field and lab research, Dr. 
Anderson is very involved in national and international program 
development for research, monitoring, and training on marine 
biotoxins and harmful algal blooms.
    Dr. Kevin Sellner is the Executive Director of the 
Chesapeake Research Consortium, encouraging active research 
programs across six consortium member institutions and their 
extended partners. In addition to being a plankton ecologist 
for the last 30 years, Dr. Sellner also serves as the Executive 
Secretary of the Chesapeake Bay Program's Scientific and 
Technical Advisory Committee, is a member of the USGS 
Chesapeake Bay Science Advisory Team, member of the Maryland 
Harmful Algae Task Force and organizer for the Chesapeake 
Community Modeling Program.
    Dr. Stephanie Smith is the Chief Scientist for the private 
technology firm Algaeventure Systems. Prior to her current 
work, Dr. Smith served as the Senior Scientist in the applied 
biology and aerosol technology product line at Battelle and 
also built an extramural research program at Wright State 
University in Dayton, Ohio.
    Finally, Dr. Beth McGee is the Senior Water Quality 
Scientist at the Chesapeake Bay Foundation, the largest non-
profit organization dedicated to protecting and restoring the 
Chesapeake Bay. Prior to her work at the Foundation, Dr. McGee 
has worked on water quality issues, conducted research, and 
served on several technical Subcommittees and advisory groups. 
Dr. McGee has also worked for a variety of state and federal 
agencies including the U.S. Fish and Wildlife Service, the U.S. 
EPA, and the Maryland Department of the Environment.
    I welcome all our witnesses. As the witnesses should know, 
spoken testimony is limited to five minutes each, after which 
the Members of the Committee will have five minutes each to ask 
questions.
    I now recognize our first witness, Dr. Robert Magnien, 
Director, Center for Sponsored Coastal Ocean Research at NOAA.

          STATEMENT OF DR. ROBERT MAGNIEN, DIRECTOR OF

             THE CENTER FOR SPONSORED COASTAL OCEAN

                 RESEARCH, NATIONAL OCEANIC AND

               ATMOSPHERIC ADMINISTRATION (NOAA)

    Dr. Magnien. Good afternoon, Mr. Chairman, and Members of 
the Subcommittee. As noted, my name is Robert Magnien, and I am 
Director for NOAA's Center for Sponsored Coastal Ocean 
Research. In this capacity, I have managed the only national 
research program focused solely on harmful algal blooms and 
hypoxia. These five programs are authorized under the Harmful 
Algal Bloom and Hypoxia Research and Control Act. We fondly 
refer to it as HABHRCA. That is our short name for it.
    Mr. Miller. Thank you, Dr. Magnien.
    Dr. Magnien. HABs and hypoxia represent significant threats 
to the health of the American public and the U.S. economy. 
Algae are simple microscopic plants that are normally 
beneficial because they provide the primary source of energy to 
sustain aquatic life. However, during harmful blooms which 
occur in all U.S. States, algae threaten human health through 
toxins that can enter seafood or drinking water supplies. 
Harmful blooms also threaten economically and recreationally 
important coastal resources such as fish, shellfish, sea birds, 
and marine mammals.
    Hypoxia, or more commonly known as dead zones, refer to 
critically low levels of light-sustaining oxygen in water 
bodies. These zones occur in over 300 coastal systems, 
including the Great Lakes. There has been a 30-fold increase in 
coastal systems affected by hypoxia since 1960.
    HAB and hypoxia management are particularly challenging 
because of the complex underlying causes as well as the great 
difficulties in detecting and predicting these threats. Giving 
the growing threat of HABs and hypoxia, along with different 
challenges in different regions, there is a compelling need to 
strategically target and coordinate research.
    HABHRCA has required NOAA to lead federal agencies in 
preparing five reports that assess the causes and impacts of 
HABs and hypoxia and plans to improve management and response. 
These reports were submitted to Congress between 2007 and 2010 
and provide guidance for NOAA's HABs and hypoxia programs as 
well as other federal- or state-supported research.
    A major part of NOAA's responsibility is its leadership of 
the Nation's only competitive research programs that focus 
solely on HABs and hypoxia. In addition to the competitive 
programs, NOAA supports a diverse portfolio of internal 
research.
    I will spend the remainder of my time reviewing just a few 
of the important advances we have made in the management and 
mitigation of HABs and hypoxia impacts. From years of focused 
HABHRCA research, we are seeing the expansion of HAB 
forecasting capabilities that are nearing or actually in an 
operational status in the Gulf of Mexico, Lake Erie, New 
England, Chesapeake Bay, and the Pacific Northwest. Similar to 
severe weather forecasts, these early warnings allow coastal 
managers and other resource users to take precautionary and 
proactive measures that minimize risks to human health and 
coastal economies.
    Detection of HABs is a critical first step in protecting 
human health. HABHRCA research has developed new molecular 
technologies for rapid and inexpensive detection of HABs and 
their toxins. These are now being adopted for routine use in a 
number of states.
    In order to manage hypoxia, alternative management options 
must be generated using models that synthesize complex 
ecosystem phenomena that cause this program. HABHRCA authorized 
research has provided this predictive capability for the 
Nation's largest hypoxic zone, the northern Gulf of Mexico, 
providing the scientific foundation for the action plan of the 
Interagency Mississippi River/Gulf of Mexico Watershed Nutrient 
Task Force. Similar prediction tools are nearing completion to 
support management decisions in Narragansett Bay and Lake Erie.
    Our hypoxia research is also yielding important findings of 
widespread chronic reproductive impairments in Gulf of Mexico 
fish. In Chesapeake Bay, innovative modeling tools are being 
developed to more quantitatively document the impacts of 
hypoxia on living resources in order to better tailor our 
management plans.
    So those are just the very few of the accomplishments that 
are bringing practical, science-based solutions to bear on 
these serious problems. This has led to direct and significant 
improvements in HAB and hypoxia management and new capabilities 
in states who are often on the front lines of protecting public 
health and vital economic interests.
    NOAA strongly supports the reauthorization of HABHRCA and 
its specific programs so that we, along with our scientific and 
management partners, can continue to build on this strong 
record of accomplishment.
    Thank you for this opportunity to update you on NOAA's HAB 
and hypoxia programs.
    [The prepared statement of Dr. Magnien follows:]
 Prepared Statement of Dr. Robert Magnien, Director of the Center for 
  Sponsored Coastal Ocean Research, National Oceanic and Atmospheric 
                         Administration (NOAA)

Introduction

    Good morning Mr. Chairman and members of the Subcommittee. My name 
is Robert Magnien and I am the Director of the National Oceanic and 
Atmospheric Administration's (NOAA) Center for Sponsored Coastal Ocean 
Research (CSCOR). CSCOR, as one Center of the National Centers for 
Coastal Ocean Science, provides competitive funding for regional-scale, 
multi-disciplinary research on understanding and predicting the impacts 
of major stressors on coastal ecosystems, communities, and economies in 
order to support informed, ecosystem-based management. In this 
capacity, I administer the five national programs solely focused on 
harmful algal blooms (HAB) and hypoxia that were authorized by the 
Harmful Algal Bloom and Hypoxia Research and Control Act of 1998 
(HABHRCA) and reauthorized in 2004. I serve on the Interagency Working 
Group on Harmful Algal Blooms, Hypoxia, and Human Health of the 
Subcommittee on Ocean Science and Technology to coordinate NOAA's 
programs with other federal agencies. I also serve as NOAA's 
representative to the Coordinating Committee for the Mississippi River/
Gulf of Mexico Watershed Nutrient Task Force, which is addressing the 
Nation's largest hypoxic zone in the northern Gulf of Mexico. 
Additionally, I serve as the U.S. representative and Chair of the 
Intergovernmental Oceanographic Commission panel on HABs to maximize 
international opportunities for exchange of relevant research and 
management information. Though I am the Director of CSCOR, this 
testimony speaks about programs across NOAA, where multiple offices 
work together to achieve mission goals.
    NOAA's mandate includes protecting the lives and livelihoods of 
Americans, and providing products and services that benefit the 
economy, environment, and public safety of the Nation. By improving our 
understanding of, and ability to predict changes in, the Earth's 
environment, and by conserving and managing ocean and coastal 
resources, NOAA generates tremendous value for the Nation. NOAA's role 
is all the more important given the profound economic, environmental, 
and societal challenges currently facing the country. Two of these 
challenges are HABs and hypoxia, which cause significant adverse human 
health and economic impacts.
    HABs, which now occur in all U.S. states, \1\ \2\ are a growing 
problem worldwide. HABs threaten human and ecosystem health, and the 
vitality of fish and shellfish, protected species, and coastal 
economies. Similarly, hypoxia occurs in over 300 U.S. coastal 
ecosystems, \3\ including the Great Lakes. There has been a 30-fold 
increase in hypoxia events since 1960, signaling severe degradation of 
water quality and aquatic habitats nation-wide. HABs and hypoxia are 
two of the most complex phenomena currently challenging management of 
aquatic ecosystems. Given the profound, pervasive, complex and growing 
impacts of HABs and hypoxia, these are important issues NOAA will 
continue to address in the coming years.
---------------------------------------------------------------------------
    \1\  Lopez, C.B., Dortch, Q., Jewett, E.B., Garrison, D. 2008. 
Scientific Assessment of Marine Harmful Algal Blooms. Interagency 
Working Group on Harmful Algal Blooms, Hypoxia, an dHuman Health of the 
Joint Subcommittee on Ocean Science and Technology. Washington, D.C., 
62 pp.
    \2\  Lopez, C.B., Jewett, E.B., Dortch, Q., Walton, B.T., Hudnell, 
H.K. 2008. Scientific Assessment of Freshwater Harmful Algal Blooms. 
Hypoxia, and Human Health of the Harmful Algal Blooms. Interagency 
Working Group on Harmful Algal Blooms, Hypoxia, and Human Health of the 
Joint Subcommittee on Ocean Science and Technology. Washington, D.C., 
65 pp.
    \3\  Committee on Environment and Natural Resources. 2010. 
Scientific Assessment of Hypoxia in U.S. Coastal Waters. Interagency 
Working Group on Harmful Algal Blooms, Hypoxia, and Human Health of the 
Joint Subcommittee on Ocean Science and Technology. Washington, D.C., 
164 pp.
---------------------------------------------------------------------------
    At this very time, with unprecedented amounts of freshwater and 
associated nutrients and other chemicals entering the Gulf of Mexico 
from the Mississippi River Basin, we are witnessing some of these 
complex factors that drive HABs and hypoxia. NOAA's longstanding 
HABHRCA research has demonstrated the relationship between nutrient 
inputs and hypoxia and provided the ability to forecast the size of the 
hypoxic zone both in the short-term and for long-term management 
purposes. In addition, NOAA's spring flood outlook, issued in mid-
February, indicated a ``high risk'' for flooding along the Mississippi. 
Based on the high flows and expected high nutrient loads which will be 
measured by the U.S. Geological Survey, this year's zone will likely be 
one of the largest ever. NOAA will issue its annual forecast for the 
size of the hypoxic zone in June. There is also the potential for toxic 
algal blooms to develop in Lake Pontchartrain as has been the case in 
the past when floodwaters have been diverted into the lake. NOAA is 
moving on a number of fronts to assist in the response to the flooding, 
including adding capabilities onto its existing HABHRCA research, 
monitoring, and response projects in the Gulf region in order to 
provide local, state, and federal officials with the latest and most 
scientifically accurate information on these coastal impacts.
    I appreciate the opportunity to update the Subcommittee on major 
accomplishments in NOAA's HAB and hypoxia programs. I will first 
describe the nature of the problem in more detail, then discuss NOAA's 
role in addressing HABs and hypoxia in our coastal and Great Lakes 
waters, and conclude with some of the significant advances that NOAA 
has made as a result of HABHRCA.

Harmful Algal Blooms in the United States

    Algae are simple plants that, in general, are beneficial because 
they provide the main source of energy that sustains aquatic life. 
However, some algae cause harm to humans, animals, and the environment 
by producing toxins or by growing in excessively large numbers. When 
this occurs they are referred to as ``harmful algal blooms'' or HABs. 
Sometimes, certain algal species accumulate in such high numbers that 
they discolor the water, and are commonly referred to as ``red tides'' 
or ``brown tides.'' Figure 1 lists some of the major HAB-causing 
organisms in the United States.
    Some algae produce potent toxins that cause illness or death in 
humans and other organisms. Fish, seabirds, manatees, sea lions, 
turtles, and dolphins are some of the animals commonly affected by 
harmful algae. Humans and other animals can be exposed to algal toxins 
through the food they eat, the water they drink or swim in, or the air 
they breathe. Other algae species, although nontoxic to humans and 
wildlife, form such large blooms that they degrade habitat quality 
through massive overgrowth, shading, and oxygen depletion (hypoxia), 
which occurs after the bloom ends and the algae decay. These high 
biomass blooms can also be a nuisance to humans when masses of algae 
accumulate along beaches and subsequently decay.
    HABs can have major negative impacts on local economies when, for 
example, shellfish harvesting is restricted to protect human health or 
when tourism declines due to degradation of recreational resources. 
HABs can also result in significant public health costs when humans 
become ill. A recent estimate 1A\4\ suggests that HABs occurring in 
marine waters alone have an average annual impact of $82 million in the 
United States. This is a conservative estimate since comprehensive data 
that includes the various economic impacts of all major blooms is not 
available. In 2005, a single HAB event in New England resulted in a 
loss of $18 million in shellfish sales in Massachusetts alone. \5\ 
Economic impacts can be difficult to calculate as they vary from region 
to region and event to event, but they are a primary concern of coastal 
communities that experience HAB events.
---------------------------------------------------------------------------
    \4\  Hoagland, P., and Scatasta, S. 2006. The Economic Effects of 
Harmful Algal Blooms. In E Graneli and J Turner, eds., Ecology of 
Harmful Algae. Ecology Studies Series. Dordrecht, The Netherlands: 
Springer-Verlag, Chap. 29.
    \5\  Jin, D., Thunberg, E., and Hoagland, P. 2008. Economic Impact 
of the 2005 Red Tide Event on Commercial Shellfish Fisheries in New 
England. Ocean and Coastal Management. 51(5): 420-429.
---------------------------------------------------------------------------
    In addition to impacting public health, ecosystems, and local 
economies, HABs can also have significant social and cultural 
consequences. For example, along the Washington and Oregon coasts, tens 
of thousands of people visit annually to participate in the 
recreational harvest of razor clams. However, a series of beach 
closures in recent years due to high levels of the HAB toxin domoic 
acid prevented access to this recreational fishery. These harvesting 
closures have not only caused economic losses, they have also resulted 
in an erosion of community identity, community recreation, and a 
traditional way of living for native coastal cultures.
    As mentioned above, the geographic distribution of HAB events in 
the United States is broad. All coastal states have experienced HAB 
events in marine waters in the last decade, and freshwater HABs occur 
in the Great Lakes and in many inland waters. Evidence indicates the 
frequency and distribution of HAB events and their associated impacts 
have increased considerably in recent years in the United States and 
globally. \6\
---------------------------------------------------------------------------
    \6\  GEOHAB, 2006. Globabl Ecology and Oceanography of Harmful 
Algal Blooms, Harmful Algagl Blooms in Eutrophic Systems. P. Gilbert 
(ed.). IOC and SCOR, Paris and Baltimore, 74 pp.
---------------------------------------------------------------------------
    Although all coastal states experience HABs, the specific organisms 
responsible for the HABs differ among regions of the country (see 
Figure 1). As a result, the harmful impacts experienced vary in their 
type, scope and severity, which led to the need for specific management 
approaches for each region and species and region-specific scientific 
understanding to support an effective and efficient management 
response. Some species need to be present in very high abundances 
before harmful effects occur, which makes it easier to detect and track 
the HAB. However, other species cause problems at very low 
concentrations, essentially being hidden among other benign algae, 
making them difficult to detect and track. The factors that cause and 
control HABs, from their initiation to their decline vary, not only by 
species, but also by region due to differences in local factors such as 
the shape of the coastline, runoff patterns, oceanography, nutrient 
regime, other organisms present in the water, etc. Consequently, the 
development of HAB management strategies requires a regional approach.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As noted above, the causes of HABs are complex and are controlled 
by a variety of factors. While we know that the underlying causes 
leading to HAB development vary between species and locations, we do 
not have a full understanding of all the factors involved, including 
the interplay of different contributing factors. In general, algal 
species grow best when environmental conditions (such as temperature, 
salinity, and availability of nutrients and light) are optimal for cell 
growth. Other biological and physical processes (such as predation, 
disease, toxins and water currents) determine whether enhanced cell 
growth will result in biomass accumulation (or what we call a ``bloom 
''). The challenge for understanding the causes of HABs stems from the 
complexity and interrelationship of these processes for individual 
species and among different HAB species. The complexity of interactions 
between HABs, the environment, and other plankton further complicates 
the predictions of when and where HAB events will occur. Knowledge of 
how these factors control the initiation, sustainment, and decline of a 
bloom is a critical precursor for advancing HAB management.
    Human activities are thought to contribute to the increased 
frequency of some HABs. For example, increased nutrient pollution has 
been acknowledged as a factor contributing to increased occurrence of 
several high biomass HABs. \7\ Other human-induced environmental 
changes that may foster development of certain HABs include changes in 
the types of nutrients entering coastal waters, alteration of food webs 
by overfishing, introductions of non-indigenous species that change 
food web structure, introduction of HAB cells to new areas via ballast 
water or other mechanisms, and modifications to water flow. It should 
also be noted that climate change will almost certainly influence HAB 
dynamics in some way since many critical processes governing HAB 
dynamics--such as temperature, water column stratification, upwelling 
and ocean circulation patterns, and freshwater and land-derived 
nutrient inputs--are influenced by climate. The interactive role of 
climate change with the other factors driving the frequency and 
severity of HABs is in the early stages of research, but climate change 
is expected to exacerbate the HAB problem in some regions and shift 
species distributions geographically. (http://www.cop.noaa.gov/
stressors/extremeevents/hab/current/CC--habs.aspx).
---------------------------------------------------------------------------
    \7\  Heisler, J., Glibert, P.M., Burkhold3er, J.M., Anderson, D.M., 
Cochlan, W., Dennison, W.C., Dortch, Q., Gobler, C.J., Heil, C.A., 
Humphries, E., Lewitus, A., Magnien, R., Marshall, H.G., Sellner, K., 
Stockwell, D.A., Stoecker, D.K., and Suddleson, M. 2008. Eutrophication 
and Harmful Algal Blooms: A Scientific Consensus. Harmful Algae 8(1): 
3-13.

---------------------------------------------------------------------------
Hypoxia in the U.S.

    Hypoxia means ``low oxygen.'' In aquatic systems, low oxygen 
generally refers to a dissolved oxygen concentration less than 2 to 3 
milligrams of oxygen per liter of water (mg/L), but sensitive organisms 
can be affected at higher thresholds (e.g. 4.5 mg/L). A complete lack 
of oxygen is called anoxia. Hypoxic waters generally do not have enough 
oxygen to support fish and other aquatic animals, and are sometimes 
called dead zones because the only organisms that can live there are 
tolerant microbes.
    The incidence of hypoxia has increased 10-fold globally in the past 
50 years and almost 30-fold in the U.S. since 1960, with over 300 
coastal ecosystems3 now experiencing hypoxia (see Fig. 2). The 
increasing occurrence of hypoxia in coastal waters represents a 
significant threat to the health and economy of our Nation's coasts and 
Great Lakes. This trend is exemplified most dramatically off the coast 
of Louisiana and Texas, where the second largest eutrophication-related 
hypoxic zone in the world is associated with the nutrient pollutant 
load discharged by the Mississippi and Atchafalaya Rivers.
    Although coastal hypoxia can be caused by natural processes, the 
dramatic increase in the incidence of hypoxia in U.S. waters is linked 
to eutrophication due to nutrient (nitrogen and phosphorus) and organic 
matter enrichment, which has been accelerated by human activities. 
Sources of enrichment include point source discharges of wastewater, 
nonpoint source atmospheric deposition, and nonpoint source runoff from 
croplands, lands used for animal agriculture, and urban and suburban 
areas.
    The difficulty of reducing nutrient inputs to coastal waters 
results from the close association between nutrient loading and a broad 
array of human activities in watersheds and explains the growth in the 
number and size of hypoxic zones. While nutrients leaving water 
treatment facilities can often be controlled through improvements in 
technology and facility upgrades, diffuse runoff from nonpoint sources, 
such as agriculture, is more difficult to control. Conservation 
programs, such as those administered by USDA's Natural Resources 
Conservation Service, play an important part in helping to reduce edge 
of field runoff from agricultural operations. Although progress has 
been made in recent years to better optimize nutrient application 
through the development of nutrient management plans and best 
practices, agriculture remains a leading source of nutrient pollution 
in many watersheds due in part to the high demand for nitrogen 
intensive crops. Another exacerbating factor is the short-circuiting of 
water flow due to drainage practices, including tile drainage and 
ditching, that have been used to convert wetlands to croplands. The 
USDA Agricultural Research Service has led recent efforts to design 
drainage control structures to increase retention time and 
denitrification in drainage systems. Wetlands serve as filters and can 
reduce the transport of nitrogen and phosphorus into local waterways 
and ultimately coastal waters. Atmospheric nitrogen deposition from 
fossil fuel combustion remains an important source of diffuse nutrient 
pollution for rivers and coastal waters.
    Unfortunately, hypoxia is not the only stressor impacting coastal 
ecosystems. Overfishing, HABs, toxic contaminants, and physical 
alteration of coastal habitats associated with coastal development are 
several problems that co-occur with hypoxia and interact to decrease 
the ecological health of coastal waters and reduce the ecological 
services they can provide.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


HABHRCA Today

    HABHRCA authorizes NOAA to take action to address the growing 
problem of HABs and hypoxia in the United States. The existing statute:

    1.  Establishes a mechanism for interagency coordination through an 
interagency Task Force;

    2.  Requires reports assessing the causes and impacts of HABs and 
hypoxia and plans to improve management and response; and

    3.  Authorizes funding for HAB and hypoxia research through 
national competitive research programs, and for research and assessment 
within NOAA.

    Since 2005, the Interagency Working Group on HABs, Hypoxia and 
Human Health within the National Ocean Council has been meeting 
regularly to coordinate interagency efforts with regard to HABs and 
hypoxia. A major focus for the group has been developing the five 
reports mandated by the 2004 reauthorization of HABHRCA. The reports 
were submitted to Congress between 2007 and 2010 (http://
www.cop.noaa.gov/stressors/extremeevents/hab/habhrca/Report--
Plans.aspx). These reports provide guidance for NOAA HAB and hypoxia 
programs as well as other federal or state-supported research that may 
address aspects of these topics. Specifically, the HAB Management and 
Response: Assessment and Plan \8\ recommended the formation of the 
Prevention, Control, and Mitigation of HABs Program, which NOAA 
established in 2009. The Plan also highlights the need for an enhanced 
HAB event response program and a new infrastructure program, which were 
incorporated into legislation to reauthorize HABHRCA in the 111th 
Congress.
---------------------------------------------------------------------------
    \8\  Jewett, E.B., Lopez, C.B., Dortch, Q., Etheridge, S.M., 
Backer, L.C. 2008. Harmful Algal Bloom Management and Response: 
Assessment and Plan. Interagency Working Group on Harmful Algal Blooms, 
Hypoxia, an Human Health of the Joint Subcommittee on Ocean Science and 
Technology. Washington, DC., 76 pp.

---------------------------------------------------------------------------
NOAA HAB and Hypoxia Programs

    The goal of NOAA's programs is to prevent or reduce the occurrence 
of HABs and hypoxia and/or to minimize their impacts. Developing useful 
products for HAB and hypoxia management is a multi-step process that 
requires a variety of approaches, and must be based on a strong 
scientific understanding of the causes and impacts of HABs and hypoxia.
    NOAA leads the Nation's three competitive research programs solely 
focused on HABs and authorized by HABHRCA:

    1.  The Ecology and Oceanography of Harmful Algal Blooms (ECOHAB) 
Program is focused on research to determine the causes and impacts of 
HABs. The ECOHAB Program provides information and tools necessary for 
developing technologies for, and approaches to, predicting, preventing, 
monitoring and controlling HABs.

    2.  The Monitoring and Event Response for Harmful Algal Blooms 
(MERHAB) Program focuses on incorporating tools, approaches, and 
technologies from HAB research programs into existing HAB monitoring 
programs. MERHAB also establishes partnerships to enhance existing, and 
initiate new, HAB monitoring capabilities to provide managers with 
timely information needed to mitigate HAB impacts on coastal 
communities.

    3.  The newer Prevention, Control, and Mitigation of HABs (PCM HAB) 
Program, transitions promising prevention, control, and mitigation 
technologies and strategies to end users. The PCM HAB Program also 
assesses the social and economic costs of HAB events, and strategies to 
prevent, control and mitigate those events, which will aid managers in 
devising the most cost-effective management approaches.

    HABHRCA also authorizes research on hypoxia to assess the causes 
and impacts of this serious problem in order to guide scientifically 
sound management programs to reduce hypoxic zones and thereby protect 
valuable marine resources, their habitats and coastal economies. NOAA 
leads the Nation's two competitive research programs solely focused on 
hypoxia and authorized by HABHRCA.

    1.  The Northern Gulf of Mexico Ecosystem and Hypoxia Assessment 
Program (NGOMEX) supports multiyear, interdisciplinary research 
projects to inform management in ecosystems affected by Mississippi/
Atchafalaya River inputs. NGOMEX supports research with a focus on 
understanding the causes and effects of the hypoxic zone over the 
Louisiana-Texas-Mississippi continental shelf and the prediction of 
hypoxia's future extent and impacts.

    2.  The Coastal Hypoxia Research Program (CHRP) supports multiyear, 
interdisciplinary research projects to inform management of hypoxic 
zones in all of the Nation's coastal waters except those covered by 
NGOMEX. The objective of CHRP is to provide research results and 
modeling tools, which will be used by coastal resource managers to 
assess alternative management strategies for preventing or mitigating 
the impacts of hypoxia on coastal ecosystems, and to make informed 
decisions regarding this important environmental stressor.

    HABHRCA authorizes NOAA to carry out research and assessment 
activities, which has led to a world-class intramural research program 
on HABs. Much of this research is conducted by scientists from the 
National Centers for Coastal Ocean Science in collaboration with 
external partners, including academic researchers, state and federal 
resource and public health managers, and private enterprises. Active 
areas of research include HAB and hypoxia forecasting, development of 
new methods of HAB cell and toxin detection, and understanding the 
impacts of HAB toxins on higher levels in the food web, including fish, 
mammals, and humans.
    NOAA's extramural and intramural research is leading to the 
development of a number of operational activities that provide valuable 
products and assistance. For example, NOAA currently provides HAB 
forecasts for Florida and Texas coastal waters (http://
tidesandcurrents.noaa.gov/hab/) and has developed plans for a National 
HAB Forecasting System, which will make routine forecasts in any areas 
where HABs are a major threat. Forecasts in the Great Lakes, the Gulf 
of Maine, and the Pacific Northwest are in various stages of 
development and transition to operations through a combination of 
extra- and intramural research efforts.
    NOAA scientists have been instrumental in developing citizen HAB 
monitoring networks around the country. Additionally, the NOAA 
Analytical Response Team (http://www.chbr.noaa.gov/habar/eroart.aspx) 
and the Wildlife and Algal Toxin Research and Response Network (WARRN-
West, http://www.nwfsc.noaa.gov/warrnwest/) provide state-of-the-art 
toxin analyses during HAB events, especially events that involve 
unusual animal mortality.
    NOAA coordinates and collaborates across the agency on HABHRCA-
authorized HAB and hypoxia programs and related efforts to address high 
priority needs for research, observations, and forecasting. Many of 
NOAA's HAB and hypoxia accomplishments have resulted from these 
coordinated efforts and through external partnerships.

Major Accomplishments

    Since the original HABHRCA legislation in 1998, several significant 
advances have greatly improved management. Many of these 
accomplishments are described in the five HABHRCA reports that were 
submitted to Congress. Rather than list every accomplishment, I will 
focus on recent outstanding achievements.

Harmful Algal Blooms

    In the last few years, HAB prediction and forecasting has been 
extended to new areas and shown great promise in providing early 
warning to public health and resource managers. In most cases, the 
ability to provide HAB forecasts is the outcome of years of research 
efforts focused on the causes of HABs. Examples of regional HAB 
forecasting include:

    <bullet>  In Florida, the operational forecast system has issued 
over 500 forecasts since September 2004. These include the critical 
2005 year, when Karenia brevis blooms (Florida red tide) struck three 
regions of Florida, on both the east and west coast, and produced 
anoxia on the Florida shelf for the first time in over 30 years. This 
forecast was made operational by strong NOAA-wide coordination, 
particularly between the National Ocean Service and National 
Environmental Satellite, Data, and Information Service, which processes 
and analyzes NASA MODIS satellite data through its Coast Watch Program.

    <bullet>  In Texas, an operational forecast began in September 2010 
(following a several year demonstration). This system added new 
modeling capabilities which increase the adaptability of the forecasts. 
Previously, managers could respond only in a bay with a reported 
problem, and had no information as to which other bays were at greatest 
risk. The new forecasts provide this information to better target 
sampling and response. This is particularly important given the 
appearance in 2008 and 2010 of toxic blooms of Dinophysis, which were 
previously unknown in this area.

    <bullet>  In the Gulf of Maine, NOAA-funded researchers have issued 
seasonal advisories every year since 2008. Each spring they predict the 
severity and extent of blooms of Alexandrium fundyense, the New England 
HAB organism that produces a potent neurotoxin, which accumulates in 
shellfish and can cause human illness and death. That prediction 
provides state resource and public health managers time to prepare for 
the intensive monitoring required to protect public health and assists 
shellfish harvesters and processors in making business decisions. 
Weekly forecasts of Alexandrium distributions, based on models and 
weather forecasts, are also provided to state and local shellfish and 
public health managers around the Gulf of Maine via a listserv.

    <bullet>  In western Lake Erie, NOAA scientists have developed a 
Forecast System for cyanobacterial blooms starting in 2008. These 
blooms of the cyanobacterial HAB Microcystis have been recurring each 
summer for over 10 years, with particularly severe blooms in 2003, 
2009, and 2010. The blooms are a significant expense for public water 
suppliers, and a potential human health risk through recreational use. 
In 2010, over 150 resource managers and local decision makers received 
the weekly demonstration forecasts of bloom location and intensity 
based on a sophisticated combination of satellite imagery from the 
European Space Agency (ENVISAT-1), circulation models, water analysis 
and meteorological data. In early October, NOAA determined that the 
bloom had ended, allowing Ohio to safely end sampling and analysis of 
water. (http://www.glerl.noaa.gov/res/Centers/HABS/lake_erie_hab/
lake_erie_hab.html)

    <bullet>  In Chesapeake Bay, a novel forecasting technique using a 
hybrid approach of water quality modeling and statistical techniques to 
predict HABs is nearing operational status. This forecasting tool also 
holds promise for other important applications such as pathogens and 
fish habitat which have been difficult to predict using other 
methodologies.

    <bullet>  Along the Washington coast, a toxic diatom, Pseudo-
nitzschia, sometimes blooms and is transported to beaches where razor 
clams are harvested recreationally and by tribes. When exposed to such 
blooms, the clams accumulate the toxin, which can result in illness and 
death if the clams are eaten by humans. NOAA-funded scientists have 
improved early warning of Pseudo-nitzschia blooms by determining how 
winds move HABs from their source region to coastal beaches. Since 
2008, these scientists have issued an interactive HAB Bulletin that 
managers from the Washington state Departments of Health and Fish and 
Wildlife use to determine, well in advance of openings, whether 
shellfish toxin levels will require closures. Managers can communicate 
this knowledge to harvesters and owners of coastal businesses catering 
to harvesters to minimize impacts.

    Detection is a critical first step in protecting human health, as 
it is not possible to predict and respond to a problem that cannot be 
easily quantified or tracked. Many new methods of detecting HAB cells 
and toxins have been developed, tested, and in some cases put into 
routine use for a variety of purposes.


    <bullet>  State, local, and tribal shellfish and public health 
managers need quick tests that can be used for cheap and rapid 
screening for toxicity in many shellfish samples. NOAA- sponsored 
state, federal, and academic partnerships have demonstrated that new 
quick tests are reliable for screening large numbers of samples to 
rapidly assess the presence of HAB toxins in both shellfish and 
seawater and helped incorporate the new protocols into existing 
shellfish monitoring programs. States that routinely employ advanced 
HAB toxin screening tools include Washington, Oregon California, 
Florida, and Maine, and it is part of the screening method for the 
Shipboard/Dockside Screening Protocol for shellfish harvesting in 
Federal waters of Georges Bank.

    <bullet>  In Chesapeake Bay, new molecular techniques for detection 
of harmful algal species developed through the competitive HABHRCA 
programs are now in routine use by state agencies responsible for 
protecting resources and public health. These programs also allowed the 
state of Maryland to develop a unique and highly successful ``Eyes on 
the Bay'' website to display and communicate the latest information on 
HABs, hypoxia, and other observations in Chesapeake Bay. (http://
mddnr.chesapeakebay.net/eyesonthebay/habs.cfm)

    <bullet>  For the last three years, a new instrument, developed and 
maintained with NOAA funding and located at Port Aransas Pass in Texas, 
has provided early warning of HAB outbreaks, resulting in closures of 
oyster harvesting before there were any human health impacts. One of 
the species detected has never before caused problems in the U.S., 
although it is common in Europe and there was no routine monitoring in 
place for that organism.

    NOAA is addressing gaps in our understanding of the causes of HABs 
and responding to emerging HAB issues.


    <bullet>  Ciguatera fish poisoning (CFP) is the most common HAB-
caused seafood illness in tropical and subtropical areas of the world. 
The incidence is increasing, perhaps linked to anthropogenic causes, 
such as overfishing, eutrophication and global warming. Economic 
impacts in the U.S. due to human illness, which are believed to be 
hugely under-reported, are estimated to be $21M/yr. \9\ The causative 
toxins were thought to come from one HAB species but NOAA scientists 
have determined that the difficulty in predicting CFP outbreaks is 
because there are multiple species of varying toxicity. Studies are 
underway to understand what controls the distribution and toxicity of 
these species in order to allow public health managers to minimize the 
incidence of this illness.
---------------------------------------------------------------------------
    \9\  Anderson, D.M., Hoagland, P., Kaoru, Y., and White, A.W. 2000. 
Estimated Annual Economic Impacts from Harmful Algal Blooms (HABs) in 
the United States. Technical Report WHOI 2000-11. Woods Hole 
Oceanographic Institution, 99pp.

    <bullet>  Fish-killing algae in the Pacific Northwest have been 
shown to have severe economic impacts on mariculture. In addition, 
these algae might be a major factor in controlling the size of some 
wild salmon runs. NOAA scientists and NOAA-funded scientists are trying 
to identify the very ephemeral toxin and determine the causes of the 
blooms in order to develop protocols to minimize impacts on 
---------------------------------------------------------------------------
mariculture.

    NOAA has always funded research on novel HAB mitigation and control 
measures through its existing HAB research programs. However, as our 
understanding of the causes of HABs has improved, more opportunities 
for preventing and controlling HABs have become available. In 2009, 
NOAA announced the establishment of a new Prevention, Control, and 
Mitigation of HABs Program, which is described above. The first 
projects were funded in 2010, and involve a diverse array of approaches 
on which we will be reporting at a later date.

Hypoxia

    Through its HABHRCA-authorized hypoxia programs, NOAA has provided 
the research foundation upon which management of the ``dead zone'' in 
the Gulf of Mexico is based as described in the Mississippi River/Gulf 
of Mexico Watershed Nutrient Task Force Action Plan. \10\ Ongoing 
targeted regional research is furthering our understanding of impacts 
on fisheries and local economies and filling gaps in our understanding 
of the factors driving the size and location of the hypoxic zone, 
including climate change. NOAA also forecasts and tracks the extent of 
hypoxia each year utilizing a number of internal and external programs 
and in concert with other federal agencies. This information is vital 
to support the Task Force's adaptive management approach to addressing 
this major coastal problem.
---------------------------------------------------------------------------
    \10\  Mississippi River/Gulf of Mexico Watershed Nutrient Task 
Force. 2008. Gulf Hypoxia Action Plan 2008 for Reducing, Mitigating, 
and Controlling Hypoxia in the Northern Gulf of Mexico and Improving 
Water Quality in the Mississippi River Basin. Washington, DC.
---------------------------------------------------------------------------
    NOAA has collaborated closely with the U.S. Environmental 
Protection Agency, the U. S. Department of Agriculture, and other 
federal and state agencies in developing science-based management 
strategies to reduce nutrient pollution contributing to the Gulf of 
Mexico hypoxic zone. The Assistant Secretary of Commerce for 
Conservation and Management, Dr. Larry Robinson, sits on the 
interagency Mississippi River/Gulf of Mexico Watershed Nutrient Task 
Force, and NOAA also plays a leading role on the Task Force's 
Coordinating Committee. The Task Force released the 2008 Gulf Hypoxia 
Action Plan, which reaffirmed the goal of reducing the hypoxic zone and 
suggested 45 percent reductions of both total nitrogen and phosphorus.
    NOAA-funded research through the NGOMEX program has demonstrated 
that widespread reproductive impairment (reduced ovarian and testicular 
growth in adults, and decrease in hatching success and larval survival) 
occurs in a common marine fish, Atlantic croaker, in the hypoxic zone 
west of the Mississippi River. More recently, the actual molecular 
mechanism behind the reproductive impairments in fish was identified, 
adding to a growing body of evidence that non-lethal hypoxia impacts 
pose long-term threats to living resource populations in hypoxic zones. 
Other studies are determining the impacts of hypoxic zones on the 
economics of shrimp fisheries, and on populations of other ecologically 
and commercially valuable fisheries.
    NOAA-funded researchers are providing predictive modeling tools to 
resource and water quality managers in Narragansett Bay in Rhode Island 
to help mitigate hypoxia events, which have led to major fish kills and 
resulted in State nutrient reduction criteria \11\ for waste water 
treatment plants (WWTPs). These predictive modeling tools will provide 
alternative management options for WWTPs (such as relocation of outfall 
pipes to locations where outward currents would speed nutrients out of 
the ecosystem) and will generate ecological impact scenarios for 
various nutrient loading estimates, thereby helping to determine 
allowable nutrient loadings for WWTPs into local rivers that drain into 
Narragansett Bay.
---------------------------------------------------------------------------
    \11\  RIDEM. 2005. Plan for managing nutrient loadings to Rhode 
Island waters (http://www.dem.ri.gov/pubs/nutrient.pdf). 17 pp. and 
RIDEM. 2006. Water quality regulations. Office of Water Resources, 
Department of Environmental Management, State of Rhode Island and 
Providence Plantations. [http://www.dem.ri.gov/programs/benviron/water/
quality/surfwq/index.htm]

---------------------------------------------------------------------------
CONCLUSION

    Thank you for this opportunity to update you on NOAA's HAB and 
hypoxia programs. Over the last twelve years, we have made enormous 
progress in understanding the causes and consequences of HABs and 
hypoxia. This has led to direct and significant improvements in HAB and 
hypoxia management which have, in turn, protected public health and 
vital economic interests. The Administration supported reauthorization 
of HABHRCA in the last Congress and continues to support 
reauthorization in the 112th Congress. We just recently received the 
draft legislation. We will review it, along with other interested 
Departments and agencies. We would appreciate an opportunity to comment 
before the Subcommittee considers the legislation.

    Table 1. Major HAB organisms causing problems in U.S. marine 
systems, their major toxins (if characterized), their direct acute 
impacts to humans and ecosystem health, and regions of the U.S. that 
have been impacted by these HAB organisms. `Not characterized' 
indicates that toxins have been implicated but not characterized.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    *This table only captures the major acute human illnesses 
associated with these HAB species. Other, less severe acute health 
effects, such as skin irritation, may occur with some of these HAB 
groups. Chronic effects, such as tumor promotion, can also occur. A 
table of short- and long-term health effects is given in \12\.
---------------------------------------------------------------------------
    \12\  Ramsell, J.S., Anderson, D.M., and P.M. Glibert (eds.). 2005. 
Harmful Algal Research and Response: A National Envirionmental Science 
Strategy 2005-2015. Ecological Society of America, Washington, D.C., 96 
pp.
---------------------------------------------------------------------------
    <dagger>Some high biomass bloom formers may produce toxins.
    =Some macroalgae have been shown to produce bioactive compounds, 
such as dopamine and dimethylsulfoniopropionate (DMSP), which may have 
direct ecosystem effects (Van Alstyne et al. 2001)

    Chairman Harris. Thank you very much. I now recognize our 
second witness, Dr. Richard Greene, Chief of Ecosystems Dynamic 
and Effects Branch, Gulf Breeze Laboratory at the EPA. Dr. 
Greene?

       STATEMENT OF DR. RICHARD GREENE, CHIEF, ECOSYSTEMS

           DYNAMICS AND EFFECTS BRANCH, GULF ECOLOGY

         DIVISION, OFFICE OF RESEARCH AND DEVELOPMENT,

          U.S. ENVIRIONMENTAL PROTECTION AGENCY (EPA)

    Dr. Greene. Thank you, Mr. Chairman. Chairman Harris, 
Ranking Member Miller, and other Members of the Subcommittee. 
It is a pleasure to be here with you today to discuss EPA's 
research relating to HABs and hypoxia.
    As you know, I am Richard Greene, with EPA's Office of 
Research and Development. For the last 13 years, I have been 
the Chief at the Gulf Ecology Division. I have a Ph.D. in 
Oceanography, and for the last ten years have been the ORD lead 
for Gulf hypoxia and estuarine nutrient research. Although I 
serve in an ecology research division along the Gulf, this 
testimony addresses programs across EPA offices and 
laboratories relevant to the focus of this hearing.
    Toxic or otherwise harmful algal blooms, or HABs, and 
hypoxia, which is low dissolved oxygen, represent significant 
and continuing threats to freshwater, estuarine and coastal 
ecosystems, aquatic life, and to human health. Scientific 
understanding of the causes and impacts of HABs and hypoxia on 
aquatic resources and human health has progressed over the last 
five to ten years. However, there is still much to be learned 
to improve our ability to predict when and where those events 
will occur, the specific impacts they will have on human health 
and aquatic ecosystems and how best to prevent, control or 
mitigate those problems.
    We know that by and large many HAB and hypoxia events are 
inextricably linked to nitrogen and phosphorus pollution. We 
need to improve the science supporting the development of 
sustainable solutions for controlling and reducing nutrient 
pollution, HABs and hypoxia, to protect water resources and 
human health. EPA, working with NOAA and other federal, state 
and private-sector partners is committed to that goal.
    In the area of freshwater HABs, EPA's National Aquatic 
Resource Surveys are contributing important information 
necessary to evaluate the extent and impact of harmful algae, 
nutrients and other key indicators on ecological condition and 
potential human health risks.
    The 2009 report on the national lakes assessment included 
three indicators with respect to the condition and safety of 
recreational water use. The study reported the microcystin, a 
cyanotoxin, and one of the indicators measured was present in 
about 30 percent of lakes and at levels of concern in about one 
percent of lakes based on World Health Organization thresholds 
of risks.
    While the survey results are a good start in our 
understanding, much more needs to be learned about algal toxins 
in lakes. For example, it is currently unknown how microcystin 
occurrence correlates with the occurrence of other classes of 
cyanotoxins that were not measured or the associated human 
health risks. There are relatively few documented cases of 
severe human health effects in this country associated with 
exposure to cyanobacteria or their toxins. However, EPA is 
conducting research to assess human exposure and effects in 
drinking water systems in certain parts of the United States.
    EPA coordinates and collaborates with NOAA and other 
federal agencies, as well as state and academic institutions on 
research in the northern Gulf hypoxic zone. EPA has ongoing 
research in the northern Gulf to assess and predict the 
relationships between nutrient loads and hypoxia; the physical, 
chemical and biological processes regulating dissolved oxygen; 
and the effects of nutrient load reduction scenarios on 
hypoxia.
    The research and modeling efforts under way fill important 
research gaps identified in 2007 by EPA's Science Advisory 
Board, State of the Science Evaluation, regarding Gulf hypoxia 
and are critical to information needs and goals of the Gulf 
Hypoxia Task Force.
    HABHRCA identifies two interagency task groups, the HABs 
and Hypoxia Task Force which is chaired by NOAA, and the 
Mississippi River/Gulf of Mexico Watershed Nutrient Task Force, 
also known as the Gulf Hypoxia Task Force which is co-chaired 
by EPA.
    EPA is an active participant in the HABs and Hypoxia Task 
Force  which,  among  other  responsibilities,  implements 
HABHRCA's reporting requirements. The Gulf Hypoxia Task Force 
is comprised of 17 State and federal agencies. It provides a 
forum for State water quality and agriculture agencies to 
partner on the best means to prevent, control or--sorry, state, 
local and regional efforts to address nutrient loading, 
encouraging a holistic approach that takes into account 
upstream sources and downstream impacts. Its federal and State 
members, including EPA, have assisted in organizing and 
providing technical and funding support for two nutrient 
reduction strategy workshops, the second of which will occur in 
Columbus, Ohio, in mid-June.
    The Task Force Working Group is developing a proposed set 
of indicators of progress to measure progress towards 
addressing nitrogen and phosphorus pollution in the Mississippi 
River Basin and reducing the size of the hypoxic zone.
    In conclusion, EPA has made progress in understanding and 
addressing harmful algal blooms, hypoxia and the broader issues 
of nutrient pollution in the United States. However, there is 
much more to be done.
    Thank you for the opportunity to be here today, and I will 
be happy to answer questions.
    [The prepared statement of Dr. Greene follows:]
 Prepared Statement of Dr. Richard Greene, Chief, Ecosystems Dynamics 
   and Effects Branch, Gulf Ecology Division, Office of Research and 
        Development, U.S. Environmental Protection Agency (EPA).
    Good afternoon Chairman Harris, Ranking Member Miller, and other 
members of the Subcommittee. My name is Richard Greene, with EPA's 
Office of Research and Development (ORD). For the last 13 years, I've 
served as Chief of the Ecosystem Dynamics and Effects Branch at the 
Gulf Ecology Division, within the National Health and Environmental 
Effects Research Laboratory. I have a Ph.D. in Oceanography and over 
the last 10 years have been the ORD lead for Gulf of Mexico hypoxia 
research and estuarine nutrient research in the Gulf. Although I serve 
in an ecology research Division along the Gulf of Mexico, this 
testimony addresses programs across EPA offices and laboratories 
relevant to the focus of this hearing. It is a pleasure to be here with 
you today to discuss the EPA's research relating to harmful algal 
blooms and hypoxia.

HARMFUL ALGAL BLOOMS AND HYPOXIA--THREATS

TO HUMAN HEALTH AND ECOSYSTEMS

    Toxic or otherwise harmful algal blooms and hypoxia, or low 
dissolved oxygen, represent significant and continuing threats to 
freshwater, estuarine and coastal ecosystems, aquatic life and human 
health. Scientific understanding of the causes and impacts of harmful 
algal blooms and hypoxia on aquatic ecosystems and human health has 
progressed over the last 5-10 years. However, there is still much to be 
learned to improve our ability to predict when and where those events 
will occur, the specific impacts they will have on human health and 
aquatic ecosystems, and how best to prevent, control or mitigate those 
problems. We know that by-and-large many HAB and hypoxia events are 
inextricably linked to nitrogen and phosphorus pollution. However, we 
need to improve the science supporting the development of sustainable 
solutions for controlling and reducing nutrient pollution, HABs and 
hypoxia, and protecting water resources and human health. EPA, working 
with NOAA, and other federal, state, and private sector partners, is 
committed to that goal.
    Nationally, nitrogen and phosphorus pollution is one of the top 
causes of water quality impairments. EPA's National Aquatic Resource 
Surveys (NARS) show that of the stressors assessed, nitrogen and 
phosphorus are the most pervasive in the nation's wadeable streams, 
with more than 200,000 stream miles showing high concentrations (those 
greater than 95 percent of the regionally-relevant least-disturbed 
reference condition). \1\ The NARS also report that an estimated four 
million lake acres showed high concentrations of phosphorus, and 1.9 
million acres showed high concentrations of nitrogen. \2\ Streams and 
lakes with high levels of nitrogen and phosphorus were about two times 
more likely to have poor biological health. \3\ For streams, biological 
health was determined by evaluating the health of macroinvertebrate 
communities compared with least-disturbed, regionally-relevant, 
reference conditions. In lakes, biological condition was determined by 
analyzing the condition of zooplankton and phytoplankton communities 
using an observed/expected model. The ecological impacts of excess 
nutrients on our waters includes harmful algal blooms. The recent NARS 
lakes assessment found microcystin (an algal toxin that can harm 
humans, pets, and wildlife) present in about one-third of lakes and at 
levels of concern in one percent of lakes based on World Health 
Organization recreational exposure guidelines. \4\ Although there are 
relatively few documented cases of severe human health effects, 
exposure to cyanobacteria or their toxins may produce allergic 
reactions such as skin rashes, eye irritations, respiratory symptoms, 
and in some cases gastroenteritis, liver and kidney failure, or death. 
The most likely exposure route for humans is through accidental 
ingestion or inhalation during recreational activities, though 
cyanotoxins are also potentially a cause for concern in drinking water. 
\5\
---------------------------------------------------------------------------
    \1\  Wadeable Streams Assessment: A Collaborative Survey of the 
Nation's Streams EPA 841-B-06-002 December 2006. Chapter 2--see page 
35--http://water.epa.gov/type/rsl/monitoring/streamsurvey/upload/
2007_5_9_streamsurvey_05_chap2a_5-2-07.pdf
    \2\  Note--The NLA reported information as the number and/or 
percent of lakes. See--U.S. Environmental Protection Agency (USEPA). 
2009. National Lakes Assessment: A Collaborative Survey of the Nation's 
Lakes. EPA 841-R-09-001. U.S. Environmental Protection Agency, Office 
of Water and Office of Research and Development, Washington, D.C. See 
Chapter 3--http://water.epa.gov/type/lakes/upload/nla-newchapter3.pdf. 
To make the lake statement more consistent with the streams statement 
(e.g., using miles and acres rather than miles and percent of lakes), 
ORD-Corvallis calculated the area associated with the % of lakes 
presented in the NLA document on page 26. The area figures were emailed 
by Steve Paulsen, EPA-ORD to Sarah Lehmann, EPA-OW on 2-16-2011.
    \3\  Wadeable Streams Assessment: A Collaborative Survey of the 
Nation's Streams EPA 841u-06-002 December 2006. See Chapter 2--page 49. 
http://water.epa.gov/type/rsl/monitoring/streamsurvey/upload/
2007_5_14_streamsurvey_06_chap2b_5-2-07.pdf
    \4\  U.S. Environmental Protection Agency (USEPA). 2009. National 
Lakes Assessment: A Collaborative Survey of the Nation's Lakes. EPA 
841-R-09-001. U.S. Environmental Protection Agency, Office of Water and 
Office of Research and Development, Washington, D.C. See Chapter 4--
http://water.epa.gov/type/lakes/upload/nla_newchapter4.pdf
    \5\  IBID
---------------------------------------------------------------------------
    Under Section 303(d) of the Clean Water Act, states develop lists 
of impaired waters every two years and are then required to develop 
clean-up plans, also known as Total Maximum Daily Loads (TMDLs), for 
those waters. A TMDL is a calculation of the maximum amount of a 
pollutant that a waterbody can receive and still safely meet water 
quality standards. Currently, more than 15,800 waters have nitrogen- or 
phosphorus-related impairments. States or EPA has developed more than 
8,000 nitrogen- or phosphorus-related TMDLs for more than 5,000 of 
these waters.
    Grand Lake St. Marys stands out as one recent example of the 
potentially significant and far-reaching costs associated with the 
human health, economic, recreational and ecosystem impacts of nitrogen- 
and phosphorus-contaminated waters. Grand Lake St. Marys, Ohio's 
largest inland water body, has suffered from increasing nitrogen and 
phosphorus loading from farm runoff, failing septic systems, and 
fertilizer applied to lawns. As a result, the lake has experienced 
massive blooms of toxic cyanobacteria, which have led to the death of 
fish, birds, and dogs, and illnesses of at least seven people. The 
State of Ohio has issued fish consumption, recreational use, and health 
warnings, including ``no contact'' and ``algal bloom'' advisories. \6\
---------------------------------------------------------------------------
    \6\  Spencer Hunt, New Tests find Grand Lake St. Marys Safe, The 
Columbus Dispatch, 30 Oct. 2010. One Algal Toxin Advisory Removed; 
Others Continue, Ohio EPA. 29 Oct. 2010. Ohio EPA http://
www.epa.state.oh.us/pic/glsm_algae.aspx
---------------------------------------------------------------------------
    In addition to Grand Lake St. Marys, freshwater HABs or the 
cyanoHABs have now been documented in at least 35 states and at least 
18 states now have some type of CyanoHAB research or response program.
    EPA continues to evaluate the human health implications of 
cyanoHABs and the toxins they produce in drinking water. Cyanotoxins 
have been included in all three Candidate Contaminant Lists (CCL) 
published so far pursuant to the Safe Drinking Water Act. EPA must 
periodically publish this list of contaminants and decide whether to 
regulate at least five or more contaminants on the list. A drinking 
water CCL is the primary source of priority contaminants from which EPA 
makes decisions about whether regulations are needed. The contaminants 
on the list are known or suspected to occur in public water systems but 
are currently unregulated by existing drinking water standards. The 
Agency included cyanotoxins as a group in the most recent CCL (CCL 3, 
October 8, 2009) and focuses research and data collection on three 
algal toxins: Anatoxin-a; Microcystin-LR; and Cylindrospermopsin.

EPA RESEARCH

Freshwater HABs

    EPA's National Aquatic Resource Surveys are beginning to contribute 
significant information necessary to evaluate the extent and impact of 
harmful algae, nutrients, and other key indicators on ecological 
condition and potential human health risks. The 2009 report on the 
National Lakes Assessment included three indicators with respect to the 
condition and safety of recreational water use: 1) microcystin--a 
common algal toxin, 2) cyanobacteria--the group of unicellular or 
filamentous algae, some of which produce algal toxins, and 3) 
chlorophyll-a--a measure of all algae present. The study reported that 
microcystin was present in about 30% of lakes and at levels of concern 
in about 1% of lakes, based on World Health Organization thresholds of 
risk. While the survey results are a good start in our understanding, 
much more is to be learned about algal toxins in lakes. For example, it 
is currently unknown how well microcystin occurrence correlates with 
the occurrence of other classes of cyanotoxins that were not measured, 
or the associated human health risks. In addition, there are relatively 
few documented cases of severe human health effects associated with 
exposure to cyanobacteria or their toxins. In addition, ORD is 
conducting a pilot study to assess human exposure and effects, and 
potential developmental toxicity associated with the cyanotoxins 
microcystin, cylindrospermopsin and anatoxin-a in drinking water 
systems in the southeastern United States. The pilot study is to 
determine whether a new blood serum assay for microcystin exposure can 
reliably detect low levels of human exposure to the toxin. A second 
study of developmental toxicity uses human placenta cells in culture to 
determine whether microcystins disrupt normal placental formation for 
pregnancy maintenance.

Gulf of Mexico Hypoxia

    ORD coordinates and collaborates research in the northern Gulf 
hypoxia zone with NOAA and other federal, state and academic 
organizations. ORD has ongoing research and modeling efforts in the 
northern Gulf of Mexico to assess and predict: the relationships 
between nutrient loads and hypoxia; the physical, chemical, and 
biological processes regulating dissolved oxygen dynamics in the Gulf; 
and the effects of nutrient load reduction scenarios on hypoxia. ORD 
has partnered with Naval Research Laboratory modelers to develop 
integrated water quality simulation modeling tools that will improve 
our ability to evaluate the effectiveness of nutrient load reductions 
on Gulf hypoxia. The research and modeling efforts underway fill 
important research gaps identified in 2007 by EPA's Science Advisory 
Board state-of-the science evaluation regarding Gulf hypoxia and are 
critical to the information needs and goals of the Mississippi River/
Gulf of Mexico Watershed Nutrients Task Force (Gulf Hypoxia Task 
Force).
    In 2009, ORD published research on multiple regression models that 
described the size of the Gulf hypoxic zone based on river discharge 
and nitrogen and phosphorus concentrations. Those results supported the 
need for a dual nutrient management strategy--reductions in both 
nitrogen and phosphorus loads--to achieve the goal of reducing Gulf 
hypoxia. Equally significant were results of model predictions 
demonstrating that substantial and sustained nitrogen and phosphorus 
reductions will be needed before it will possible to discern 
statistically significant reductions in hypoxic area against the 
background of natural variability.
    ORD scientists, as well as NOAA and NOAA-funded academic groups are 
working on parallel efforts to develop multiple 3D numerical simulation 
models for the northern Gulf system that link nutrient inputs, physical 
circulation processes, and ecological and water quality responses. EPA, 
NOAA and the scientific community consider the development of multiple 
models and modeling approaches as offering many advantages compared to 
a single model or modeling approach for addressing complex problems 
like the Gulf of Mexico hypoxia. All the research groups met recently 
in Mississippi at a NOAA-sponsored workshop to report on progress of 
the modeling efforts. The groups are about a year or two away from 
being able to run 3D model simulations and examine the effects of 
nutrient load reduction scenarios on dissolved oxygen dynamics and 
ultimately, the size, frequency, and duration of hypoxia in the 
northern Gulf.

EPA PARTICIPATION IN INTERAGENCY TASK FORCES AND

WORKGROUPS

Harmful Algal Bloom and Hypoxia Task Force

    ORD is an active participant in the Interagency Working Group on 
HABs, Hypoxia, and Human Health (IWG-4H) within the National Ocean 
Council, which is led by NOAA and which, among other responsibilities, 
implements the reporting requirements of the Harmful Algal Bloom and 
Hypoxia Research and Control Act (HABHRCA) of 2004. In these efforts, 
ORD staff were co-authors on the Scientific Assessment of Hypoxia in 
U.S. Coastal Waters, released in 2010, and the Scientific Assessment of 
Freshwater Harmful Algal Blooms, released in 2008, through IWG-4H.
    EPA has had a long-standing collaboration with NOAA through the 
Interagency Ecology and Oceanography of Harmful Algal Blooms Program, 
authorized by HABHRCA in 1998 and 2004. A Memorandum of Understanding 
allowed the participating agencies, EPA, NOAA, NSF, NASA, and ONR, to 
fund competitive research on the causes and impacts of HABs and to 
develop methods of detection, prevention and control. EPA funded nearly 
30 projects between 1997 and 2006 several of them joint efforts with 
NOAA.
    Harmful algal blooms are of concern in the Great Lakes and other 
waters because of their toxicity and impact on human and ecosystem 
health. A particularly toxic species is present in Western Lake Erie 
and Saginaw Bay (Lake Huron)--two areas of the Great Lakes that 
typically have significant cyanobacterial blooms. These blooms cause 
fouling of the beaches and shoreline, economic and aesthetic losses, 
taste and odor problems in drinking water, and direct risks to human, 
fish and animal health. EPA's Great Lakes National Program Office funds 
research on harmful algal blooms research and coordinates with NOAA's 
Center of Excellence for Great Lakes and Human Health (CEGLHH). Grants 
associated with nutrient related controls, management, and restoration 
have been a significant area of emphasis in the Great Lakes Restoration 
Initiative. Restoration related activities are under way as part of 
grant-funded projects at several sites across the Great Lakes.

Mississippi River/Gulf of Mexico Watershed Nutrients Task Force

    In addition to EPA's participation in the Federal interagency Task 
Force on HABs and Hypoxia, EPA OW co-chairs the Mississippi River/Gulf 
of Mexico Watershed Nutrient Task Force (Gulf Hypoxia Task Force) which 
is comprised of 17 state and federal agencies. The Gulf Hypoxia Task 
Force provides a forum for state water quality and agriculture agencies 
to partner on local, state, and regional efforts to mitigate nutrient 
loading, encouraging a holistic approach that takes into account 
upstream sources and downstream impacts. The Task Force's goal of 
reducing the size of the Gulf hypoxic zone to a five-year running 
average of 5,000 km<SUP>2</SUP> is a very challenging commitment.
    In its most recent Gulf Hypoxia Action Plan (2008), the Gulf 
Hypoxia Task Force emphasized its commitment to work with states to 
develop nutrient reduction strategies and increase accountability, and 
both remain top priorities of the current Gulf Hypoxia Task Force 
leadership. To facilitate nutrient strategy development, the Gulf 
Hypoxia Task Force produced a State Nutrient Reduction Strategy Report 
in September 2010 that identifies essential strategy components and 
potential federal funding sources. As recommended in that report, Gulf 
Hypoxia Task Force federal and state members, including EPA, have 
assisted in organizing and providing technical and funding support for 
two nutrient reduction strategy workshops, the second of which is 
occurring in mid-June in Columbus, Ohio. A Gulf Hypoxia Task Force 
working group is developing a proposed set of ``indicators of 
progress'' to measure progress towards addressing nitrogen and 
phosphorus pollution in the Mississippi and Atchafalaya River Basin 
(MARB) and reducing the size of the Gulf hypoxic zone.
    More broadly, EPA has asked interested and willing states to join 
the Agency, other federal partners, and stakeholders and work 
collaboratively to achieve substantial near-term reductions of nitrogen 
and phosphorus pollution, using a transparent and accountable action 
framework, while some states continue to develop numeric criteria for 
nitrogen and phosphorus pollution to provide a clearly measureable and 
objective basis for longer-term reduction strategies.while some states 
continue to develop numeric criteria for nitrogen and phosphorus 
pollution to provide a clearly measureable and objective basis for 
longer-term reduction strategies.while some states continue to develop 
numeric criteria for nitrogen and phosphorus pollution to provide a 
clearly measureable and objective basis for longer-term reduction 
strategies. \7\
---------------------------------------------------------------------------
    \7\  N. Stoner, March 16, 2011. Working in Partnership with States 
to Address Phosphorus and Nitrogen Pollution through Use of a Framework 
for State Nutreint Reductions. U.S. Environmental Protection Agency, 
Washington D.C. See http://water.epa.gov/scitech/swguidance/standards/
criteria/nutrients/upload/memo_nitrogen_framework.pdf
---------------------------------------------------------------------------
    ORD provides technical support to OW for Gulf Hypoxia Task Force 
activities and also participates in the Task Force Coordinating 
Committee. ORD collaborates and coordinates with NOAA and other 
organizations thru the Gulf of Mexico Hypoxia Research Coordination 
Workshop series (sponsored by NOAA) which seeks to coordinate 
monitoring and modeling activities in the Gulf hypoxic zone.

CONCLUSION

    In conclusion, EPA has made progress in understanding and 
addressing harmful algal blooms, hypoxia, and the broader issues of 
nutrient pollution in the U.S., and there is much more to do. EPA 
programs are targeting the causes and their impacts, working with 
states and federal partners to identify and protect healthy watersheds 
and their receiving waters and restore impaired waters. These efforts 
will improve management of nutrients, HABs and hypoxia, and help create 
safe and sustainable water resources for the future generations. We 
look forward to working with the Committee in the future.
    Thank you for the opportunity to be here today, and I will be happy 
to answer your questions.

    Chairman Harris. Thank you, Dr. Greene. I now recognize our 
third witness, Dr. Don Anderson, Senior Scientist and Director 
at Woods Hole Oceanographic Institute. Dr. Anderson?

       STATEMENT OF DR. DONALD ANDERSON, SENIOR SCIENTIST

          AND DIRECTOR OF THE COASTAL OCEAN INSTITUTE,

              WOODS HOLE OCEANOGRAPHIC INSTITUTION

    Dr. Anderson. Mr. Chairman and Members of the Subcommittee, 
my name is Don Anderson, and I am a Senior Scientist at the 
Woods Hole Oceanographic Institution where I have studied 
harmful algal blooms, or HABs, for over 30 years. I have also 
been very actively involved in the formulation of the programs 
and legislation that we are talking about today.
    For the purposes of this discussion, it is important to 
emphasize that HABs occur in both marine and fresh waters as 
you are hearing. Marine HABs, as you can see here, sometimes 
discolor the water. They also then can cause illness and death 
of human consumers, of contaminated fish or shellfish, through 
mass mortalities of fish, sea birds, marine mammals and 
sometimes through irritating aerosols that drive tourists and 
residents from beaches. Seaweeds can also cause harm as seen in 
these extraordinary images from China just before the 2008 
Olympics.
    Now, freshwater HABs are primarily caused by cyanobacteria 
or blue-green algae. These create serious problems, first due 
to the reduction of light and oxygen in water, and second, 
through the production of some of the most potent natural 
toxins known to man. These affect humans through recreational 
exposure and drinking water and also affect fish, wildlife, and 
domestic animals.
    Marine HABs affect virtually every coastal State in the 
United States, and many of them must contend with multiple 
toxins or HAB impacts. For freshwater HABs, at least 36 States 
report human or animal poisonings, and a number of them have 
action plans or monitoring programs for HABs as well. Now, it 
is also worth mentioning that golden algae blooms as you see 
here are a different type of a freshwater HAB that have killed 
millions of fish in Texas year after year, also affecting 
Arizona, New Mexico, Colorado, Wyoming, North Carolina, South 
Carolina, Oklahoma, and Nebraska.
    Now, conservative estimates of the economic impact of 
marine HABs are nearly $100 million per year or over a billion 
dollars over the last decade. There is, however, no national 
estimate for freshwater HAB costs, but impacts of individual 
outbreaks can be in the same range or even higher than those 
for marine HABs.
    Now, turning to programmatic issues, our National Marine 
HAB Program, is viewed by many as a model program that has 
succeeded because of its organization, structure, and planning. 
We have two national plans that have guided program development 
and research activities for nearly 20 years. However, the 
breadth of the problem exceeded the mandated resources of any 
single agency, and thus we took the plan and divided it into a 
series of complementary programs. This led to ECOHAB, the 
Ecology and Oceanography of Harmful Algal Blooms, followed by 
MERHAB or Monitoring and Event Response of HABs, and then to 
two ocean and human health programs, or OHH programs, one 
within NOAA and one funded by NSF and NIEHS. With encouragement 
from Congress, the PCMHAB program was recently formulated to 
support research to prevent, control and mitigate HABs. 
Programs in event response and infrastructure were also 
encouraged and had been formulated and proposed.
    So this is a very strong and diverse program, but its 
coverage of HABs in fresh waters is limited. The 
reauthorization of HABHRCA in 2004 expanded the Act to include 
blooms in all U.S. fresh waters, but the Act did not include a 
mandate or funding authorization for the EPA which is the 
appropriate agency to establish and maintain such a program. 
NOAA's support for fresh water HABs only includes the Great 
Lakes, not inland lakes, ponds, rivers, and reservoirs.
    Now, given the foregoing comments and the details of the 
HABHRCA discussion draft, I offer the following 
recommendations. First, sustain support for ECOHAB, MERHAB and 
OHH programs, and authorize programs on the practical aspects 
of HAB prevention, control and mitigation, or PCMHAB and of 
that response and infrastructure.
    Second, EPA and freshwater HABs should be included in the 
HABHRCA legislation and clear direction provided to move that 
program element forward such as by requiring EPA to participate 
in established or anticipated NOAA programs like ECOHAB, 
MERHAB, PCMHAB and so forth.
    Third, there are significant benefits to have a formally 
recognized and congressionally mandated HABs and hypoxia 
program within NOAA. Currently this does not formally exist, 
and wording to create such a program should be included in the 
legislation.
    Fourth and finally, the schedule for reports for program 
implementation, status updates and regional research action 
plans is tight and demanding on NOAA's limited staff. This will 
also drain considerable resources from the research budget. The 
schedule I think should be relaxed, possibly reverting to the 
five-year cycle of status reports required in the original 
HABHRCA.
    Let me close by saying that it is vitally important to 
reauthorize HABHRCA so that we can maintain the momentum that 
we have built up for addressing HABs. We have a strong and 
highly respected program, and from the perspective of one that 
has worked in this field for over three decades, I can see a 
clear acceleration of benefits from that sustained research 
support. It is leading to many practical tools to assist State 
and federal managers and others on the front lines trying to 
protect public health, fisheries, tourism and other economic 
and social interests.
    That concludes my testimony, Mr. Chairman.
    [The prepared statement of Dr. Anderson follows:]
    Prepared Statement of Dr. Donald Anderson, Senior Scientist and 
   Director of the Coastal Ocean Institute, Woods Hole Oceanographic 
                              Institution
    Mr. Chairman and members of the Subcommittee. I am Donald M. 
Anderson, a Senior Scientist in the Biology Department of the Woods 
Hole Oceanographic Institution, where I have been active in the study 
of red tides and harmful algal blooms (HABs) for over 30 years. I am 
here to provide the perspective of an experienced scientist who has 
investigated many of the harmful algal bloom (HAB) phenomena that 
affect coastal waters of the United States and the world. I am also 
Director of the U.S. National Office for Harmful Algal Blooms, co-Chair 
of the National HAB Committee, and have been actively involved in 
formulating the scientific framework and agency partnerships that 
support and guide our national program on HABs. Today my testimony will 
briefly summarize HABs, their impacts and trends. I will also provide 
my perspective on the research, programmatic, and legislative needs for 
the reauthorization of the Harmful Algal Bloom and Hypoxia Research and 
Control Act (HABHRCA), and will offer some specific comments on the 
Discussion Draft of the bill.

BACKGROUND

    An excellent background on marine HABs has been provided by Rob 
Magnien in his written testimony for this hearing, so I will be brief 
and cover aspects that I feel need to be emphasized or included.

    Marine HABs. HABs are caused by algae--many of them microscopic. In 
the ocean, these species sometimes make their presence known through 
massive ``blooms'' of cells that discolor the water (hence the common 
use of the term ``red tide ''), sometimes through illness and death of 
humans who have consumed contaminated shellfish or fish, sometimes 
through mass mortalities of fish, seabirds, and marine mammals, and 
sometimes through irritating aerosolized toxins that drive tourists and 
coastal residents from beaches. Macroalgal or seaweed blooms also fall 
under the HAB umbrella. Excessive seaweed growth, often linked to 
pollution inputs, can displace natural underwater vegetation, cover 
coral reefs, and wash up on beaches, where the odor of masses of 
decaying material is a serious deterrent to tourism.
    With regard to human health, one major category of HAB impact 
occurs when toxic phytoplankton are filtered from the water as food by 
shellfish which then accumulate the algal toxins to levels that can be 
lethal or cause serious illness in humans and marine animals. These 
poisoning syndromes have been given the names paralytic, diarrhetic, 
neurotoxic, azaspiracid, and amnesic shellfish poisoning (PSP, DSP, 
NSP, AZP, and ASP). All have serious effects, and some can be fatal. A 
sixth human illness, ciguatera fish poisoning (CFP) is caused by 
biotoxins produced by dinoflagellates that grow on seaweeds and other 
surfaces in coral reef communities. Ciguatera toxins are transferred 
through the food chain from herbivorous reef fishes to larger 
carnivorous, commercially valuable finfish. Yet another human health 
impact from HABs occurs when a class of algal toxins called the 
brevetoxins becomes airborne in sea spray, causing respiratory 
irritation and asthma-like symptoms in beachgoers and coastal 
residents, typically along the Florida and Texas shores of the Gulf of 
Mexico.
    With the exception of AZP, all of the poisoning syndromes described 
above are known problems within the U.S. and its territories, affecting 
large expanses of coastline. PSP occurs in all coastal New England 
states as well as New York, extending to offshore areas in the 
northeast such as Georges Bank, and along much of the west coast from 
Alaska to northern California. Overall, PSP affects more U.S. coastline 
than any other algal bloom problem. NSP occurs annually along Gulf of 
Mexico coasts, with the most frequent outbreaks along western Florida 
and Texas. Louisiana, Mississippi, North Carolina and Alabama have also 
been affected intermittently, causing extensive losses to the oyster 
industry and killing birds and marine mammals. ASP has been a problem 
for all of the U.S. Pacific coast states. The ASP toxin has been 
detected in shellfish on the east coast as well, and in plankton from 
Gulf of Mexico waters. Until recently, DSP was virtually unknown in the 
U.S., but a major outbreak was recently reported along the Texas coast, 
resulting in an extensive closure of shellfish beds in that area. CFP 
is the most frequently reported non-bacterial illness associated with 
eating fish in the U.S. and its territories, but the number of cases is 
probably far higher, because reporting to the U.S. Center for Disease 
Control is voluntary and there is no confirmatory laboratory test. In 
the U.S. Virgin Islands, it is estimated that nearly 50% of the adults 
have been poisoned at least once, and some estimate that 20,000-40,000 
individuals are poisoned by ciguatera annually in Puerto Rico and the 
U.S. Virgin Islands alone. CFP occurs in virtually all sub-tropical to 
tropical U.S. waters (i.e., Florida, Texas, Hawaii, Guam, Virgin 
Islands, Puerto Rico, and many Pacific Territories). As tropical fish 
are increasingly exported to distant markets, ciguatera has become a 
problem for consumers far from the tropics. For example, poisonings of 
restaurant patrons in the Washington DC area and elsewhere were linked 
to fish caught in the Flower Garden Banks National Marine Sanctuary in 
the Gulf of Mexico south of Texas. The FDA subsequently issued a letter 
of guidance to seafood processors that recommends that certain fish 
species caught around that sanctuary should be avoided.

    Freshwater HABs. Freshwater HABs are primarily caused by 
cyanobacteria (blue-green algae), although other organisms such as 
golden algae also cause destructive and dangerous freshwater blooms in 
many midwestern states. Cyanobacteria are found in virtually all 
ecosystems, but are primarily a problem (termed cyanoHABs) in fresh to 
brackish waters. Their blooms generally consist of dense mats or 
aggregations of cells floating on the water surface or suspended in the 
water column. These huge masses of organic material create serious 
problems for humans and aquatic ecosystems in two ways. The first is 
that the biomass of the blooms reduces water transparency, resulting in 
light limitation that can inhibit the growth of suspended and bottom-
dwelling plants. As blooms collapse, decomposition processes deplete 
oxygen in the water column, killing fish and other organisms that are 
unable to escape to oxygenated waters. Repeated bloom cycles may 
irrevocably alter aquatic ecosystems, extinguishing biota that 
contribute to healthy ecosystems, while creating conditions for 
continued cyanoHAB bloom dominance.
    The second and more serious problem is that many cyanobacteria 
produce cyanotoxins, some of the most potent natural toxins known to 
man. Freshwater HABs thus pose serious risks for human and animal 
health, aquatic-ecosystem sustainability and economic vitality (Dodds 
et al., 2009; Falconer, 2008; Hudnell, 2008; Lopez et al., 2007; 
Stewart et al., 2008). From the public health perspective, an 
unquantified but significant amount of human morbidity and mortality 
result from exposure to high levels of cyanoHAB toxins during 
recreational activities and lower doses in drinking water. Health 
effects can be acute, as might occur after swallowing a mouth full of 
contaminated water, leading to serious illness or death due to 
respiratory arrest or organ failure. Lower level exposures cause a 
multi-system, flu-like illness. Every year there are multiple reports 
of animal deaths in the U.S. due to cyanotoxin exposure, and 
occasionally there are reports of human deaths. Most non-lethal cases 
of acute cyanotoxin poisoning recover within day or weeks. However, an 
unknown percentage of susceptible individuals continue to suffer 
neurological and other symptoms for many months or years. The 
scientific literature also contains reports of chronic illness 
following acute exposure or repeated, low-level exposure to 
cyanotoxins. Little is known about the effects of repeated, low-level 
exposures, but cancer and neurodegeneration are outcomes implicated in 
the scientific literature. For example, laboratory studies indicate 
that microcystins are a cause and promoter of liver, colon and other 
cancers. Microcystin levels in drinking water are potentially linked to 
liver cancer incidence in Chinese epidemiological studies. Other 
studies indicate that cylindrospermopsin and other cyanotoxins also may 
be carcinogenic.
    The toxins also affect freshwater ecosystems, where fish, 
zooplankton, macro-invertebrates, wading birds and aquatic vertebrates 
suffer further lethal and sub-lethal effects. For example, data from 
Florida show strong correlations between Cylindrospermopsis and 
cylindrospermopsin concentrations and alligator death rates.
    Another important freshwater HAB problem is caused by the ``golden 
algae'' Prymnesium parvum which blooms in reservoirs, rivers, and 
lakes, and causes extensive fish kills. These blooms have killed 
millions of fish in Texas year after year, and have also impacted 
Arizona, New Mexico, Colorado, Wyoming, North Carolina, South Carolina, 
Oklahoma, and Nebraska.

    Recent Trends. The nature of the HAB problem has changed 
considerably over the last three decades in the U.S. Virtually every 
coastal state is now threatened by harmful or toxic marine algal 
species, whereas 30-40 years ago, the problem was much more scattered 
and sporadic. In inland states, HABs in rivers, lakes, reservoirs, and 
other water freshwater bodies have increased as well. Overall, the 
number of toxic blooms, the economic losses from them, the types of 
resources affected, and the number of toxins and toxic species have all 
increased dramatically in recent years in the U.S. and around the world 
(Ramsdell et al., 2005).
    There are many reasons for this expansion, some of which involve 
human activities. Some new bloom events likely reflect indigenous 
populations that have been discovered because of better detection 
methods and more observers rather than new species introductions or 
dispersal events. Other ``spreading events'' are most easily attributed 
to dispersal via natural currents, while it is also clear that man may 
have contributed to the global HAB expansion by transporting toxic 
species in ship ballast water. The U.S. Coast Guard, EPA, and the 
International Maritime Organization are all working toward ballast 
water control and treatment regulations that will attempt to reduce the 
threat of HAB species introductions worldwide.
    Of considerable concern, particularly for coastal resource 
managers, is the potential relationship between the apparent increase 
in HABs and the accelerated eutrophication of coastal waters due to 
human activities (Anderson et al., 2002). Some HAB outbreaks occur in 
pristine U.S. coastal waters with no influence from pollution or other 
anthropogenic effects, but in other areas, linkages between marine HABs 
and eutrophication have been noted (Anderson et al., 2008). Coastal 
waters are receiving massive and increasing quantities of industrial, 
agricultural and sewage effluents through a variety of pathways. Just 
as the application of fertilizer to lawns can enhance grass growth, 
algae can grow in response to various types of nutrient inputs. Shallow 
and restricted coastal waters that are poorly flushed appear to be most 
susceptible to nutrient-related algal problems in marine systems. 
Nutrient enrichment of coastal waters often leads to eutrophication and 
increased frequencies and magnitudes of phytoplankton blooms, including 
HABs.
    The prevalence and duration of harmful algal blooms in freshwater 
is also rapidly expanding in the U.S. and the world. In part, this 
reflects rising temperatures, as some HAB species, notably the 
cyanobacteria, thrive under warmer temperatures. But the main stimulus 
has come from growing nutrient inputs into our water bodies. Recent 
assessments by the U.S. Environmental Protection Agency indicate that 
44% of river and stream miles and 64% of lake and reservoir acres are 
impaired pursuant to section 303(d) of the U.S. Clean Water Act (EPA, 
2009). Eutrophication, the processes through which the flux of growth-
limiting nutrients from watersheds to receiving waters stimulates 
freshwater HABs, continues to increase (Hudnell 2010). Analyses of data 
from EPA's first eutrophication survey in 1972 indicated that 10-20% of 
all U.S. lakes and reservoirs were eutrophic (Gakstatter and Maloney 
1975). The Agency recently reported that over 50% of all U.S. lakes and 
reservoirs are now eutrophic or hypereutrophic (EPA, 2009a). This 
alarming rate of increase supports my view that a national program on 
freshwater algal blooms is urgently needed and should be included in 
the HABHRCA legislation, as detailed below.

    Economic and Societal Impacts. HABs have a wide array of economic 
impacts, including the costs of conducting routine monitoring programs 
for shellfish and other affected resources, short-term and permanent 
closure of harvestable shellfish and fish stocks, reductions in seafood 
sales (including the avoidance of ``safe'' seafoods as a result of 
over-reaction to health advisories), mortalities of wild and farmed 
fish, shellfish, submerged aquatic vegetation and coral reefs, impacts 
on tourism and tourism-related businesses, and medical treatment of 
exposed populations. A conservative estimate of the average annual 
economic impact resulting from marine HABs in the U.S. is approximately 
$82 million (Hoagland and Scatasta, 2006). Cumulatively, the costs of 
HABs exceed a billion dollars over the last several decades. These 
estimates do not include the application of ``multipliers'' that are 
often used to account for the manner in which money transfers through a 
local economy. Furthermore, individual bloom events can approach the 
annual average, as occurred for example in 2005 when a massive bloom of 
Alexandrium species along the New England coast closed shellfish beds 
from Maine to southern Massachusetts. A recent study estimated the 
direct and indirect costs of the 2005 outbreak at nearly $50 million 
for Massachusetts and $23 million for Maine. Furthermore, a one-week 
state-wide closure in Maine (soft-shell clams, mahogany quahogs, and 
mussels) is estimated to cost the state $1.2 M in lost harvester sales 
and a total economic loss of $2.9 M. Typical duration of harvesting 
closures in Maine range from 4 to 16 weeks.
    There is no national estimate of the economic and social impact of 
freshwater HABs, but the impacts are certainly significant. For 
example, a single golden algae outbreak in Texas in 2001 caused an 
estimated $18 million loss to local economies; these blooms and their 
associated fish kills are near annual occurrences. Another example is 
the closure of Grand Lake St. Marys in Ohio last summer due to toxic 
cyanoHAB blooms. That cost the local community an estimated $200M in 
lost tourism income. In addition, countless fish, waterfowl, and pets 
were sickened and killed by the lake's toxic conditions, and the state 
of Ohio confirmed seven lake toxin-caused illnesses with 21 others 
possibly linked to lake exposure, including a case in which an 
individual was temporarily blinded.

HAB PROGRAM DEVELOPMENT

    In addition to providing background information on HABs, I was 
asked to provide my perspective on the research, programmatic, and 
legislative needs for the reauthorization of HABHRCA. To accomplish 
this, I will first provide some background on the development of the 
suite of activities, facilities, and funding programs that constitute 
our national strategy for dealing with this significant problem in both 
marine and fresh waters.
    Our national marine HAB ``program'' or strategy is viewed by many 
colleagues in other disciplines as a model program that has succeeded 
because of its organization, structure, and planning. As recently as 25 
years ago, this was not the case, however, as there was very little 
research on HABs, and that being conducted in the academic community 
was scattered and unfocused. To rectify this problem, we formulated a 
National Plan for Marine Biotoxins and Harmful Algae (Anderson et al., 
1993) that guided activities in this field for the next 10-15 years. 
The National Plan was broadly based, encompassing ecology, physiology, 
toxicology, human health, economics, ecosystem health, and many other 
topics. This breadth exceeded the mandate and resources of any single 
agency or program, however, and thus for implementation purposes, it 
was necessary to break the plan into a series of programs on 
complementary topics. The first thematic area was the ``Ecology and 
Oceanography of HABs'', which was addressed by the ECOHAB program. This 
was followed by MERHAB (Monitoring and Event Response of HABs), and 
then by Ocean and Human Health (OHH) programs. The latter began with a 
partnership between the National Institute of Environmental Health 
Sciences (NIEHS) and the National Science Foundation (NSF), who have 
supported four Centers for Oceans and Human Health that conduct 
significant HAB research and outreach activities. NOAA then created an 
Oceans and Human Health Initiative (OHHI) that supports extramural 
research and focused activities at three federal OHH centers.
    The 1993 National Plan provided the guidance and perspective that 
led to the creation of several multi-agency partnerships and individual 
agency initiatives on this topic. Together, ECOHAB and MERHAB have 
funded over $100 million in marine and freshwater (Great Lakes) HAB 
research since the programs began in 1996 and 2000, respectively. 
Significant funding has also been provided by the COHH and OHHI 
programs. After more than 10 years of strong program growth and diverse 
research activities, the 1993 National Plan became outdated, however, 
and thus was replaced by HARRNESS (Harmful Algal Research and Response: 
A National Environmental Science Strategy 2005-2015; Ramsdell et al., 
2005). Several hundred scientists and managers, from a wide array of 
fields, contributed to the knowledge base on which this new national 
science and management strategy is based. HARRNESS is the plan that 
will guide U.S. HAB research and monitoring well into the future, and 
is one that I enthusiastically support.
    At the conceptual level, HARRNESS is a framework of initiatives and 
funding programs that identify and address current and evolving needs 
associated with HABs and their impacts. In this context, the existing 
programs should continue to function, and new ones added to address 
important gaps. In the former category, ECOHAB is a critical, core 
program that is needed to address the fundamental processes underlying 
the impacts and dynamics of HABs. ECOHAB's research results have been 
brought into practical applications through MERHAB, a program 
formulated to transfer technologies and foster innovative monitoring 
programs and rapid response by public agencies and health departments. 
MERHAB should also continue under the future national plan.
    Two relatively new programs (the Centers for Oceans and Human 
Health (COHH) initiative of NIEHS and NSF and NOAA's OHHI) should also 
continue as we move forward. They fill an important niche by creating 
linkages between members of the ocean sciences and biomedical 
communities to help both groups address public health aspects of HABs. 
The COHH focus is on HABs, infectious diseases, and marine natural 
products, whereas the NOAA OHHI Centers and extramural funding include 
these subjects in addition to chemical pollutants, coastal water 
quality and beach safety, seafood quality, sentinel species as 
indicators of both potential human health risks and human impact on 
marine systems. The partnership between NIEHS, NSF, and NOAA clearly 
needs to be sustained and expanded in order to provide support to a 
network of sufficient size to address the significant problems under 
the OHH umbrella. This is best accomplished through additional funds to 
these agencies, as well as through the involvement of other agencies 
with interests in oceans and human health, including, for example, EPA, 
NASA, FDA, and CDC.
    A number of the recommendations of HARRNESS are not adequately 
addressed by existing programs, however. As a result, the HAB community 
needs to work with Congressional staff and agency program managers to 
create new programs, as well as to modify existing ones, where 
appropriate. Specific recommendations are given below in this regard.

    Freshwater HABs. With the exception of the Great Lakes, which fall 
under NOAA's jurisdiction, freshwater systems that are impacted by HABs 
have not been comprehensively addressed in ECOHAB, MERHAB, or the OHH 
HAB programs. This is because NOAA's mandate includes the Great Lakes 
and estuaries up to the freshwater interface, but does not include the 
many rivers, ponds, lakes, and reservoirs that are subject to 
freshwater HAB problems.
    The reauthorization of HABHRCA in 2004 expanded the Act to include 
blooms in all U.S. freshwaters. The Act mandated an assessment of 
freshwater HABs (Lopez et al., 2008), leading to an interagency 
monograph that described science and research needs (Hudnell, 2008). 
This effort to address freshwater HABs at the national level was 
hampered because the Act did not contain a mandate or funding 
authorization for the EPA, which is the appropriate Agency to establish 
and maintain such a plan. All U.S. freshwaters are within the purview 
of the EPA, as defined in the Clean Water Act (2002) and the Safe 
Drinking Water Act (2002). The Agency acknowledges its mandate for safe 
and clean water in Goal 2 of the 2006-2011 EPA Strategic Plan (EPA, 
2008), ``Ensure drinking water is safe. Restore and maintain oceans, 
watersheds, and their aquatic ecosystems to protect human health, 
support economic and recreational activities, and provide healthy 
habitat for fish, plants, and wildlife''. Although the EPA recognizes 
the need for a National Research and Control Plan for Freshwater HABs 
(Lopez et al., 2008), the Agency has not begun development of a plan 
primarily due to the lack of clear Congressional direction and funding.
    I believe it is imperative that the reauthorization of HABHRCA 
contain an EPA mandate and funding authorization for freshwater HABs. I 
make specific recommendations on this below.

    Prevention, Control, and Mitigation of HABs. The 2004 HABHRCA 
Reauthorization authorized the establishment of three national programs 
on HABs. Of these, two existed (ECOHAB, MERHAB), but the third did not. 
This was to be ``a peer-reviewed research project on management 
measures that can be taken to prevent, reduce, control, and mitigate 
HABs.'' (HABHRCA Sec. 605 (3)). In response, NOAA has since established 
the Prevention, Control, and Mitigation of Harmful Algal Blooms 
(PCMHAB) Program.
    Guidelines for the PCMHAB are given in the Congressionally 
requested National Scientific Research, Development, Demonstration, and 
Technology Transfer Plan on Reducing Impacts from Harmful Algal Blooms 
(RDDTT Plan; Dortch et al., 2008). This plan includes PCMHAB, but has 
two other essential components as well. These are: 1) a comprehensive 
national HAB Event Response program: and 2) a Core Infrastructure 
program. Together with the PCMHAB component, these are interdependent 
and critical for improving future HAB research and management, and I 
therefore urge the Committee to include these as specific, named 
programs in the legislation. Justification for this programmatic 
emphasis is as follows.
    Prevention, control, and mitigation (PCM) of HABs has always been a 
priority within Congress. PCM issues were included in the original 
HABHRCA in 1998, and were included in the 2004 reauthorization. Further 
rationale for this program is that much of the focus of past HAB 
research has been on fundamental aspects of organism physiology, 
ecology, and toxicology, so less effort has been directed towards 
practical issues such as resource management strategies, or even direct 
bloom suppression or control (Anderson, 1997). Progress in the area of 
bloom suppression or control has been slow, but is now increasing due 
to the new PCMHAB program. Among the impediments to progress is that 
scientists often choose to focus more on less controversial, and 
therefore more easily funded lines of work. Societal concern about 
bloom control strategies that might involve the use of chemicals or 
engineered or non-indigenous organisms is significant, and therefore it 
has been difficult to move research from the laboratory to the field. 
In the case of my own laboratory's work on the use of clay dispersal to 
control blooms, we have seen that a few vocal opponents can raise 
environmental concerns that delay or stop field applications, even 
though this method is environmentally benign in comparison to the 
damage from the HAB itself, and that this same bloom control strategy 
is used routinely elsewhere in the world to protect fish farms (e.g., 
Korea).
    Yet another impediment is that for many years, there was no 
specific funding specified for PCM research. As a result, PCM proposals 
competed with ECOHAB and MERHAB submissions for funds. Given the 
controversial nature of many PCM strategies, it is not surprising that 
peer reviews of the proposals were variable and sometimes negative, and 
that more conservative projects on bloom dynamics, toxin chemistry, or 
other topics were selected. I therefore strongly recommend that 
specific wording be inserted in the draft HABHRCA legislation to 
sustain a national program on Prevention, Control and Mitigation of 
HABs, and that specific funds be authorized for that program.
    In this context, Congressional oversight may be needed to establish 
an agency mandate for control of marine and freshwater nuisance 
species. Unlike the Agricultural Research Service of the USDA, which 
has a mandate for control of terrestrial plant pests, there is no 
federal agency with this responsibility for marine waters. This is an 
area where the growing concern about invasive species could be of great 
help to the HAB field, as technologies, regulations, policies, and 
environmental concerns are common to both fields. I can see a great 
deal of value in the convening of a meeting to in which HAB 
investigators would meet with those working on control strategies for 
invasive species, insects, aquatic vegetation, other pest infestations, 
as well as with those working on bioremediation strategies used for oil 
spill and pollution events.

    Event Response. A major HAB outbreak in the Gulf of Maine in 2009 
highlighted the need for an Event Response program as part of the 
national HAB program. During this event, virtually the entire coastline 
of the state of Maine was closed to shellfish harvesting due to 
dangerous levels of toxicity. The same was true for New Hampshire, and 
for portions of Massachusetts. Government officials, resource managers, 
and the general public were anxious for information on the offshore 
extent of the bloom, and it's potential duration, yet there were no 
research programs ongoing to provide such information. Senator Snowe 
made a direct request to NOAA to provide this type of information, 
resulting in a scramble to find funding for ships and research 
personnel on short notice. Had there been a national HAB Event Response 
Program, as described in the RDDTT report (Dortch et al., 2008), the 
response would have been significantly more comprehensive, rapid, and 
efficient.
    This is but one example of the need for rapid response to HABs that 
occur throughout the U.S. In some cases, local resources are 
sufficient, but in unexpected events, or those that are more 
significant and dangerous than normal, additional resources are needed 
that can be rapidly mobilized and used to protect the public health and 
fisheries resources. It is therefore my recommendation that specific 
wording for a national HAB Event Response program be included in the 
HABHRCA legislation, and that specific funds be authorized for that 
program.

    Infrastructure. Researching and implementing new PCM strategies and 
improving event response will not be possible without certain types of 
infrastructure, including chemical analytical facilities, reference and 
research materials, toxin standards, HAB culture collections, tissue 
banks, technical training centers, and databases. At the present time, 
many of these facilities or resources are maintained by individual 
investigators or laboratories, with no centralized coordination or 
support. Personally, I maintain a culture collection of HAB species 
that exceeds 400 strains, yet I do not receive targeted funding for its 
expenses. This has become a significant financial burden that has made 
me begin culling cultures from the collection. For other infrastructure 
needs, the necessary resources to not exist, and therefore funds are 
needed to provide these to the HAB community. For example, analytical 
standards for some HAB toxins are not available, severely restricting 
research and management progress. Likewise, molecular probes that allow 
the accurate and rapid identification of HAB species are also not 
universally available.
    The RDDTT report (Dortch et al., 2008) identifies and prioritizes 
infrastructure needs for the national HAB program. What is needed is 
the Congressional recognition of the need for such a program, and 
therefore I recommend that specific wording for a national HAB 
infrastructure program be included in the HABHRCA legislation, and that 
funds be authorized for this specific program.
    The support provided to HAB research through ECOHAB, MERHAB, Sea 
Grant, and other national programs has had a tremendous impact on our 
understanding of HAB phenomena, and on the development of management 
tools and strategies. Since HAB problems facing the U.S. are diverse 
with respect to the causative species, the affected resources, the 
toxins involved, and the oceanographic systems and habitats in which 
the blooms occur, we need multiple teams of skilled researchers and 
managers distributed throughout the country. This argues against 
funding that ebbs and floods with the sporadic pattern of HAB outbreaks 
or that focuses resources in one region while others go begging. I 
cannot emphasize too strongly the need for an equitable distribution of 
resources that is consistent with the scale and extent of the national 
problem, and that is sustained through time. This is the only way to 
keep research teams intact, forming the core of expertise and knowledge 
that leads to scientific progress. To achieve this balance, we need a 
scientifically based allocation of resources, not one based on 
political jurisdictions. This is possible if we work within the 
guidelines of HARRNESS and with the inter-agency effort that has been 
guiding its implementation. It is also critical that appropriations be 
increased to include these new areas of effort. The current programs 
are effective, and the new ones (PCMHAB, Event Response, and 
Infrastructure) are needed to complete the coverage of this diverse and 
widespread problem.

COMMENTS ON THE DRAFT LEGISLATION

    I offer the following comments on specific aspects of the HABHRCA 
Discussion Draft.

    Freshwater HAB program. HABHRCA, as enacted and re-authorized, did 
not contain a mandate or funding authorization for freshwater HABs, 
other than those covered by NOAA's mandate, which includes the Great 
Lakes. The freshwater HAB problem is huge, and includes every inland 
state, as well as those on the coast, which are also faced with marine 
HAB problems. The EPA is the appropriate Agency to establish such a 
plan. The 2010 bill to reauthorize HABHRCA contained the EPA mandate, a 
modest funding authorization, and direction for the Agency to use those 
funds to support research and control projects for freshwater HABs by 
becoming a partner with NOAA in the three existing NOAA grant programs 
(ECOHAB, MERHAB, and PCMHAB). That bill passed in the House with 
bipartisan support, but did not come up for a vote in the Senate. I 
urge this Committee to include the EPA mandate, funding authorization, 
and direction to participate in existing national HAB funding programs 
in the current effort to reauthorize HABHRCA. A National Research and 
Control Plan for Freshwater HABs will protect our citizens and 
industries, and ensure that they have a sustainable supply of usable 
freshwater into the future.

    National HAB Program within NOAA. In Section 4, the Discussion 
draft states that ``. . . the Undersecretary, through the Task Force 
established under section 603(a), shall maintain a National Harmful 
algal Bloom and Hypoxia Program pursuant to this section''. The 
implication of this sentence is that a formal HABs and Hypoxia Program 
exists within NOAA, but this is not the case. The program exists as a 
competitive research activity under the National Center for Coastal 
Ocean Science (NCCOS). The wording should be changed to ``. . . shall 
establish and maintain . . . .'' There are significant benefits to 
having a formally recognized and congressionally mandated HABS and 
Hypoxia program within NOAA. This simple wording change will make a 
huge difference to the way our program is viewed, supported, and 
managed within NOAA.

    Named Programs and Authorizations. In Section 7 of the Discussion 
draft, the authorization details are not provided. As I stated earlier, 
Congress has requested that the national HAB research and monitoring 
effort be expanded to include several new program areas such as 
prevention, control, and mitigation of blooms, event response, and 
infrastructure. These enhanced responsibilities and needs will require 
modest increases to authorization levels.
    I have been told very clearly by managers within NOAA that the 
congressional mandate for HABs and hypoxia provided through HABHRCA is 
a critical factor in deciding priorities for funding, staffing, and 
other resource allocations within NOAA. The same holds for individual 
programs--if they are congressionally recognized and mandated, their 
longevity and support are assured.Accordingly, I recommend that the 
individual programs (e.g., ECOHAB, MERHAB, PCMHAB, Event Response, 
Infrastructure) be named specifically in the bill.

    Regional Research Action Plans. As emphasized above, HAB phenomena 
are diverse throughout the U.S., and therefore impacts and research 
needs will vary across regions. I therefore support the congressional 
directive to create regional research action plans through a series of 
meetings involving managers, scientists, government officials, 
industry, and other stakeholders. My concerns here are the timescale 
and costs for these meetings. Having participated in a very successful 
meeting of this type in Florida, I know that a significant cost is 
involved (at least $250 -300K), and that considerable time is needed to 
plan, convene, and then report on the results of such a meeting. Given 
the inclusion of ``freshwater'' regions involving inland states, of 
which there may be many, I can envision NOAA HAB program officials 
struggling to organize and run a large number of meetings in a short 
period of time, and having to commit significant funds that would 
otherwise be directed to research. I would thus recommend a more 
gradual approach to the regionalization.

SUMMARY AND RECOMMENDATIONS

    The diverse nature of HAB phenomena and the hydrodynamic and 
geographic variability associated with different outbreaks throughout 
the U.S. pose a significant constraint to the development of a 
coordinated national HAB program. Nevertheless, the combination of 
planning, coordination, and a highly compelling topic with great 
societal importance has initiated close cooperation between officials, 
government scientists and academics in a sustained attack on the HAB 
problem. Progress thus far has been excellent, as the U.S. HAB program 
is seen as a model for other scientific disciplines in the U.S. and the 
world. The rate and extent of progress from here will depend upon how 
well federal agencies work together, and on how effectively the skills 
and expertise of government and academic scientists can be targeted on 
priority topics that have not been well represented in the national HAB 
strategy. The opportunity for cooperation is clear, since as stated in 
the ECOHAB science plan (Anderson, 1995), ``Nowhere else do the 
missions and goals of so many government agencies intersect and 
interact as in the coastal zone where HAB phenomena are prominent.'' 
The HAB community in the U.S. has matured scientifically and 
politically, and is fully capable of undertaking the new challenges 
inherent in an expanded national program. This will be successful only 
if a coordinated interagency effort can be implemented to focus 
research personnel, facilities, and financial resources to the common 
goals of a comprehensive national strategy.
    Mr. Chairman, that concludes my testimony. Thank you for the 
opportunity to offer information that is based on my own research and 
policy activities, as well as on the collective wisdom and creativity 
of numerous colleagues in the HAB field. I would be pleased to answer 
any questions that you or other members may have.
    Donald M. Anderson, PhD Senior Scientist Woods Hole Oceanographic 
Institution

Summary points and recommendations

    Marine HABs are a serious and growing problem in the U.S., 
affecting every coastal state; freshwater HABS are an equally 
significant problem in inland states. HABs impact public health, 
fisheries, aquaculture, tourism, and coastal aesthetics. HAB problems 
will not go away and will likely increase in severity.
    HABs have a wide array of economic impacts, including the costs of 
conducting routine monitoring programs for shellfish and other affected 
resources, short-term and permanent closure of harvestable shellfish 
and fish stocks, reductions in seafood sales (including the avoidance 
of ``safe'' seafoods as a result of over-reaction to health 
advisories), mortalities of wild and farmed fish, shellfish, submerged 
aquatic vegetation and coral reefs, impacts on tourism and tourism-
related businesses, and medical treatment of exposed populations. 
Cumulatively, the costs of marine HABs exceed a billion dollars over 
the last several decades. There is no national estimate of the economic 
and social impact of freshwater HABs, but the impacts are truly 
significant. For example, the closure of Grand Lake St. Marys in Ohio 
last summer due to toxic cyanoHAB blooms cost the local community an 
estimated $200M in lost tourism income.
    A coordinated national HAB Program was created over 15 years ago 
and partially implemented. That National Plan has been updated with a 
new plan called HARRNESS that can guide the next decade or more of 
activities in HAB research and management. Research and management 
programs such as ECOHAB, MERHAB, and the Oceans and Human Health 
initiatives have been highly successful and productive, but new 
programs are needed to cover gaps such as prevention, control and 
mitigation of blooms, event response, and core infrastructure.

Recommendations:

    Sustain and enhance support for the national HAB plan called 
HARRNESS.
    Sustain and enhance support for the ECOHAB, MERHAB and OHH 
programs, and authorize new programs. In the latter context, a separate 
program on the practical aspects of HAB prevention, control and 
mitigation (PCMHAB) needs to be authorized, as it was in past HABHRCA 
legislation, and two new programs (HAB Event Response and HAB 
Infrastructure) should be authorized as well, each with specific 
funding lines to insure that resources are indeed directed to these 
programs by NOAA and EPA.
    Recognize that NOAA will require funds for operations in support of 
HAB management, such as HAB forecasting; authorize these activities 
with specific language, and specific funding allocations. This could 
fall under the Event Response or Infrastructure programs.
    Encourage interagency partnerships, as the HAB problem transcends 
the resources or mandate of any single agency.
    Freshwater HABs are an important focus but are generally not 
comprehensively addressed in ECOHAB, MERHAB, or the OHH HAB programs. 
EPA should therefore be included in the HABHRCA legislation. Clear 
direction should be provided so that EPA and NOAA move this program 
forward in a productive and efficient manner. One way to accomplish 
this is to require EPA to participate in the established or anticipated 
NOAA programs like ECOHAB, MERHAB, PCMHAB, Event Response, and 
Infrastructure.
    The ECOHAB, MERHAB, PCMHAB, HAB Event Response, and HAB 
Infrastructure programs should be named in the HABHRCA legislation.
    The wording in Section 4 of the Discussion draft should be changed 
to read that ``. . . the Undersecretary, through the Task Force 
established under section 603(a), shall establish and maintain a 
National Harmful Algal Bloom and Hypoxia Program pursuant to this 
section''. There are significant benefits to having a formally 
recognized and congressionally mandated HABS and Hypoxia program within 
NOAA. Currently, this does not exist.
    The schedule for reports for program implementation, status 
updates, and multiple regional research action plans is very tight and 
demanding on NOAA's limited staff. This will also drain considerable 
resources from the research budget unless separate appropriations are 
made explicitly for these reports. The schedule could be relaxed, 
possibly reverting to the 5-year cycle of status reports that was 
required by the original HABHRCA
    Recommend appropriations that are commensurate with the scale of 
the HAB problem in both marine and fresh waters. The national HAB 
program is well established and productive, but it needs additional 
resources as new topics, responsibilities and tasks are added through 
new legislation. Research should be peer-reviewed and competitive, and 
should take full advantage of the extensive capabilities of the 
extramural research community.

    Literature citations:

    Anderson, D.M. 1997. Turning back the harmful red tide. Nature 388: 
513-514.
    Anderson, D.M. (Ed.). 1995. ECOHAB: The ecology and oceanography of 
harmful algal blooms
    A research agenda. Woods Hole Oceanographic Institution. 66 pp.
    Anderson, D.M., J.M. Burkholder, W.P. Cochlan, P.M. Glibert, C.J. 
Gobler, C.A. Heil, R. Kudela, M.L. Parsons, J.E. Rensel, D.W. Townsend, 
V.L. Trainer, and G.A. Vargo. 2008. Harmful algal blooms and 
eutrophication: Examining linkages from selected coastal regions of the 
United States. Harmful Algae 8: 39-53.
    Anderson, D.M., S.B. Galloway, and J.D. Joseph. 1993. Marine 
Biotoxins and Harmful Algae: A National Plan. Woods Hole Oceanographic 
Institution Tech. Report, WHOI 93-02. Woods Hole, MA. 59pp.
    Anderson, D.M., P.M. Glibert, and J.M. Burkholder. 2002. Harmful 
algal blooms and eutrophication: Nutrient sources, composition, and 
consequences. Estuaries 25(4b): 704-726.
    Dodds W.K., W.W. Bouska, J.L. Eitzmann, T.J. Pilger, K.L. Pitts, 
A.J. Riley, J.T. Schloesser,
    D.J. Thornbrugh. 2009. Eutrophication of U.S. Freshwaters: Analysis 
of Potential Economic Damages. Environ. Sci. Technol. 43: 12-19.
    Dortch, Q., D. Anderson, D. Ayres, and P. Glibert (Eds.). 2008. 
Harmful Algal Bloom Research, Development, Demonstration and Technology 
Transfer: A National Workshop Report. Woods Hole Oceanographic 
Institution, Woods Hole, MA. http://www.whoi.edu/
fileserver.do?id=43464&pt=10&p=19132
    EPA. 2008. 2006-2011 EPA Strategic Plan, EPA-190-R-06-001. http://
www.epa.gov/ocfo/plan/plan.htm accessed January 28, 2009.
    EPA. 2009. National water quality inventory: report to Congress, 
2004 reporting cycle. U.S. Environmental Protection Agency, EPA 841-R-
08-001, Washington, D. C., pp. 37.
    EPA. 2009a. National Lakes Assessment: A Collaborative Survey of 
the Nation's Lakes. U.S. Environmental Protection Agency, EPA 841-R-09-
001, Washington, D. C., pp. 101.
    Falconer, I.R. 2008. Health effects associated with controlled 
exposures to cyanobacterial toxins. In: Hudnell, H.K., (Ed.), 
Cyanobacterial Harmful Algal Blooms: State of the Science and Research 
Needs, Adv Exp Med Biol, 619, Chapter 27. Springer Press, New York, pp. 
607-612. http://www.epa.gov/cyano_habs_symposium/ accessed January 28, 
2009.
    Gakstatter, J.H. and T.E. Maloney. 1975. Potential impact of a 
detergent phosphorus ban on eutrophication in selected American lakes 
and streams. U.S. Environmental Protection Agency, Corvallis, OR, pp. 
19.
    Hoagland, P. and S. Scatasta. 2006. The economic effects of harmful 
algal blooms. In: E. Graneli and J. Turner, eds., Ecology of Harmful 
Algae. Ecology Studies Series. Dordrecht, The Netherlands: Springer-
Verlag.
    Hudnell, H.K. (Ed.). 2008. Cyanobacterial Harmful Algal Blooms: 
State of the Science and Research Needs, Advances in Experimental 
Medicine and Biology, Vol. 619, Springer Press. http://
www.springer.com/biomed/neuroscience/book/978-0-387-75864-0
    Hudnell, H.K. 2010. Within water-body management: a needed but 
neglected complement to watershed management. Clean Technology and 
Environmental Policy 12: 205-207.
    Lopez, C.B., E.B. Jewett, Q. Dortch, B.T. Walton, and K. Hudnell. 
2007. Scientific Assessment of Freshwater Harmful Algal Blooms. 
Interagency Working Group on Harmful Algal Blooms, Hypoxia, and Human 
Health of the Joint Subcommittee on Ocean Science and Technology. 
Washington, DC.
    Ramsdell, J.S., D.M. Anderson, and P.M. Glibert (Eds.). 2005. 
HARRNESS. Harmful Algal Research and Response: A National Environmental 
Science Strategy 2005-2015. Ecological Society of America, Washington, 
DC, 96 pp.
    Stewart I., A.A. Seawright, and G.R. Shaw. 2008. Cyanobacterial 
poisoning in livestock, wild mammals and birds--an overview. In: 
Hudnell H.K., (Ed.), Cyanobacterial Harmful Algal Blooms: State of the 
Science and Research Needs, Adv Exp Med Biol, 619, Chapter 28. Springer 
Press, New York, pp. 613-638. http://www.epa.gov/cyano_habs_symposium/ 
accessed January 28, 2009.

    Chairman Harris. Thank you very much, Dr. Anderson. I now 
recognize our fourth witness, Dr. Kevin Sellner, the Executive 
Director of the Chesapeake Research Consortium. Dr. Sellner?

      STATEMENT OF DR. KEVIN SELLNER, EXECUTIVE DIRECTOR,

                 CHESAPEAKE RESEARCH CONSORTIUM

    Dr. Sellner. Thank you. I extend my appreciation to the 
Subcommittee Chair and Subcommittee Members and staff for this 
invitation to discuss the importance of HABHRCA--I will get 
used to that acronym in a while--re-authorization to mitigating 
the frequent and reoccurring blooms of harmful algae that now 
typify many of our Nation's waters.
    As my colleagues have just summarized, harmful algal blooms 
are a serious and recurring threat to human and domestic animal 
health, living resource viability, ambient dissolved oxygen 
levels in our eutrophic lakes, reservoirs, and coastal systems 
and a substantial economic drain on our already stretched 
fiscal resources for local governments, states, and agencies 
responsible for safeguarding our Nation's waters and its 
citizens.
    I will focus my comments on techniques and approaches to 
mitigate these algal accumulations, removing them from surface 
waters and thereby reducing exposures to our citizens and their 
domesticated animals.
    Just as on the extremely productive U.S. farmlands, the 
supply of nutrients to U.S. waters governs all algal 
production, and thus reducing these inputs will have the 
greatest impact at limiting these events. However, that focus 
area is not integral to HABHRCA but addressed in other 
legislation and existing federal programs and agencies.
    For bloom removal, direct intervention in dense algal 
accumulations is fairly routine in small enclosed systems using 
chemical additives, such as copper sulfate or potassium 
permanganate, chemicals we have in our labs. However, these are 
problematic for open systems with subsequent copper toxicity, 
an issue for the other ecosystem processes, while permanganate 
dosing is critical to prevent mortalities of all organisms, not 
just the bloom algae.
    Other techniques that move or mix the water can be 
effective using paddle wheel devices or aerators and bubblers. 
These generally are most effective in systems without large, 
shallow areas where the blooms in the shallows can persist 
outside of these mixed areas.
    Biological controls using viruses, parasites and grazers of 
the blooms have also been proposed, but the expense in 
producing the numbers of these bloom-controlling organisms 
prohibits this technique for large, open systems.
    Finally, harvest of bloom biomass for biofuels has been 
proposed, but the technology is hardware rich and labor 
intensive, so impractical for large blooms at this time. And 
there are more details in my written testimony.
    Of great promise is the application of sediments to bind 
with and remove the bloom to bottom waters. This approach is 
common to Asian countries and used in agriculture areas as 
blooms approach. We have recently adapted this technique for 
Maryland waters, identifying mixtures of local sediments and a 
byproduct of our crab shells to effectively remove laboratory 
strains and field blooms of a globally common toxin-producing 
algae Microcystis aeruginosa from the water--it was the billion 
green example that Don just showed in his slides.
    These results are now the foundation for a field 
demonstration effort in a lake outside Denton, Maryland, and 
possibly in Frederick, Maryland, at Fountain Rock Park, where 
natural blooms will be treated with local sediments and the 
crab shell byproduct to assess efficacy for routine mitigation 
in the lake and then ideally as a routine tool for state 
intervention throughout the waters of Maryland's borders.
    Three other points need to be made for continued technique 
development and routine implementation in U.S. waters. First, 
continued research into social sciences should be imbedded in 
any future bloom research or mitigation as citizen awareness 
breeds understanding and acceptance of intervention. Without an 
ability to assess public and other stakeholder reservations and 
developing strategies to overcome those perceptions, future 
mitigation will likely fail. Social scientists are critical to 
future success, and a reauthorized HABHRCA should include this 
commitment.
    Second, integration and coordination at the national level 
is absolutely necessary such that workshops to identify 
management needs, research priorities to meet those needs and 
coordination across the suite of agencies, scientists and 
citizens occurs frequently to address the mandated requirements 
from Congress and from the executive branch. This has been 
fulfilled through NOAA staffing in the past, but appropriations 
for NOAA staffing have steadily declined over the last several 
years, severely limiting the agency's ability to meet those 
requirements.
    Finally, in past HABHRCA legislation, EPA had been 
identified as a leader in freshwater bloom ecology, monitoring 
and control in this role for the agency needs to be 
reinstituted as freshwater issues are beyond NOAA's mandate. 
EPA leadership in freshwater bloom activities is critical.
    Thank you for this opportunity, and my colleagues and I 
look forward to HABHRCA's reauthorization so we might continue 
to expand our ability to limit bloom events in U.S. waters.
    [The prepared statement of Dr. Sellner follows:]
Prepared Statement of Dr. Kevin Sellner, Executive Director, Chesapeake 
                          Research Consortium

Introduction

    I extend my appreciation to the Subcommittee Chair, Subcommittee 
members and staff, and agency administrators for this invitation to 
discuss the importance of HBHRCA re-authorization to mitigating the 
frequent and reoccurring blooms of harmful algae that now typify many 
of our nation's waters.
    As my colleagues have just summarized, harmful algal blooms are a 
serious and recurring threat to human and domestic animal health, 
living resource viability, ambient dissolved oxygen levels in our 
eutrophic lakes, reservoirs, and coastal systems, and a substantial 
economic drain on our already stretched fiscal resources for local 
governments, states, and agencies responsible for safeguarding or 
nation's waters and its citizens.
    I have prepared comments to outline the spectrum of mitigation 
options now or soon available for mitigating these recurrent algal 
proliferations and accumulations. There are some techniques that show 
high potential for reducing blooms in many systems and in some areas 
and other nations, are applied more frequently than we do in the U.S. 
Just as on the extremely productive US farmlands, the supply of 
nutrients to US waters governs all algal production, and thus reducing 
these inputs will have the greatest impact at limiting these `events'. 
However, that focus area is not integral to HABHRCA but addressed in 
other legislation and existing Federal programs and agencies. HABHRCA 
IS critical to exploring the reasons for these recurring blooms, and 
most importantly 3 critical factors for reducing these recurring 
aquatic stresses locally to nationally.

Mitigation and Prevention of Harmful Algal Blooms

    First, HABHRCA authorizes support for expanding prevention, 
control, and mitigation research for harmful algae, a recent US 
commitment long after a report from the community requested such a 
program more than a decade ago. Through HABHRCA, NOAA's Center for 
Sponsored Coastal Ocean Research now administers a Prevention, Control, 
and Mitigation competitive research program which funds research 
projects designed to develop and apply technologies to reduce harmful 
blooms in US waters. Based on research in freshwaters from China and 
saline waters from Korea, Japan, the Philippines, and Florida's western 
shelf in the Gulf of Mexico, an inexpensive but very efficient bloom 
mitigation technique employing sediment to bind with and remove bloom 
algae from the water column looks very promising as an operational 
technology for bloom removal. I am part of a recent award, focusing on 
removing blooms of toxic, dense surface scum algae Microcystis 
aeruginosa, common throughout the world. This bloom-former can produce 
the toxins known as microcystins, lethal to domesticated animals 
drinking from lakes, ponds, and tributaries containing M. aeruginosa 
blooms and induce liver tumors in humans and other animals through 
continuous lower level exposures over time. Our laboratory work over 
the past 3 years with an honors undergraduate research team at the 
University of Maryland indicates that laboratory grown and field 
collected blooms are rapidly removed from the water column on additions 
of mixtures of local sediments and a crab shell by-product (chitosan). 
We are now expanding that work to field blooms in a lake outside 
Denton, MD where blooms of the algae will be trapped in large 
containers and treated with sediment-chitosan mixtures to determine 
removal efficiencies for these field conditions and importantly fate of 
the settled bloom and its toxin. We believe that the technique will 
work very well, freeing the water from the cells and the toxin and 
thereby reducing toxin impacts on domestic animals drinking from the 
lake as well as citizens (such as Girl Scouts in the Girl Scouts of 
America camp surrounding the lake) using the lake for swimming, 
boating, and fishing. From these results, we anticipate moving to open 
water applications for eventual technique application as a standard 
protocol for state staffs deployed to remove blooms from Maryland's 
fresh and bay waters. HABHRCA enabled program initiation, selection of 
the project for support, and most likely use of this inexpensive 
procedure as a standard tool in protecting state waters in the next 5-
10 years.
    Authorization enables exploration of other mitigation procedures 
used in other systems and nations. For example, in freshwater systems 
with rapidly increasing depths from shores, aeration through bubbling 
or mixing of the water column has proven effective in reducing blooms 
of these dense surface `scums' so common globally. Some chemical 
additives have also been used to remove developed blooms, such as 
copper sulfate or permanganate additions. The former is a concern, 
however, due to ancillary copper toxicity issues while permanganate 
additions must be used cautiously due to the bursting of bloom cells 
and release of internal toxins into the surrounding water or living 
resource mortalities if too much of the permanganate is added. In 
systems with higher salinity such as estuaries or coastal ocean areas, 
sediments can be added for removing cells as discussed above, using 
compounds other than chitosan to bind the sediments and algae. These 
approaches appear very promising but not without substantial effective 
outreach and education of local residents to the benefits of the 
additions versus the impacts of non-intervention (see social science 
needs below).
    Other techniques propose to harvest the bloom biomass from bloom 
areas and concentrate the algal cells for harvest and biofuel/compost 
production. Large filtration devices or multiple screens can be 
deployed in the water, concentrating bloom biomass for removal and 
processing. This technique, however, is expensive and can be used in 
small bloom areas only, or if implemented in very large blooms, is 
hardware and labor intensive and therefore requires very large fiscal 
commitments. Preventative technologies can also be used to create 
chemical conditions in receiving waters that favor beneficial algae 
rather than the harmful species. One alternative is to divert waters 
known to support algal blooms across fine meshes on gently sloped land 
and allow the natural flora to colonize the mesh and remove nutrients 
supporting expected recurring blooms, yielding attached algae for 
harvest, processing, and biofuel production. These `algal turf 
scrubbers' (ATS) have been used effectively in multi-acre systems in 
Florida and Texas and been used in demonstration projects in the 
Chesapeake Bay watershed. Similarly, filling large translucent floating 
`bags' with bloom-supporting water followed by enrichment with rapidly 
growing high lipid-containing algae can result in high nutrient uptake 
by the `preferred alga', reducing the likelihood for growth of the 
harmful species. Harvest of the lipid-rich algae can, in turn, yield 
biofuels. A third option is the introduction of materials that bind 
available nutrients, with one commercial product Phoslockr very 
effective at binding available phosphorus in the water as well as in 
loads entering waters treated with the compound. It will continue to 
bind phosphorus, the nutrient that favors the proliferation of 
freshwater cyanobacteria generally, as long as the binding sites of the 
Phoslock remain available. All three of these preventative measures, 
however, are costly. ATS systems require land and initial construction 
across several acres but continuous algae harvest and returns from the 
production of butanol, omega-3 fatty acids, compost, and carbon and 
nutrient credits make long-term profit probable; additionally nutrients 
in river discharges are also continuous, insuring a likely permanent 
source of nitrogen and phosphorus to produce the algae in the ATS and 
reduce the likelihood for harmful algae production in natural waters.

The Importance of Social Sciences from HABHRCA

    Outreach and education are critical to future application of 
research results to societal problems in US waters and hence social 
science outlined in HABHRCA insures effective and continuous dialog 
with citizens and stakeholders directly or indirectly tied to harmful 
algal bloom impacts or intervention. It is currently a required 
component of the Prevention, Control, and Mitigation Program 
administered by NOAA, a direct result of HABHRCA. The public is deeply 
concerned about the proliferation of blooms in local waters, and 
informing the community on the detrimental aspects of blooms versus the 
benefits to local health, healthy ecosystems, and local livelihoods on 
bloom removal is now integral to NOAA's research commitment. In the 
program, researchers on the blooms, their fate, and aspects of toxin 
removal now actively collaborate with social scientists to work with 
citizens and other stakeholders to outline the bloom problem, potential 
impacts on the local community and the waters they use, and modes of 
intervening in reducing these threats to local-to-regional citizens and 
user groups. An example of this interaction of science and citizens is 
embedded in our current Denton, MD project where natural and social 
scientists will meet with citizens next month to encourage discussion, 
communication, and cooperation in reducing the bloom effects in the 
local lake. Without this comraderie and understanding, no matter how 
efficient the technique is in removing a local bloom, citizen anxiety 
of `interfering with mother nature' could prevent any routine 
mitigation in state waters, effectively preventing protection of 
citizens and their animals and health, perpetuating the status quo of 
dying animals and threats to citizen health from toxin exposure. Social 
science research and subsequent citizen-scientist cooperation arising 
from HABHRCA are critical to future success in routinely mitigating 
blooms in our very productive national waters.

National Integration, Coordination, and Reporting of Harmful Algal 
                    Bloom

Management, Research, and Prevention, Control, and Mitigation

    An effective collaboration of scientists and non-scientists must be 
informed and facilitated by strong Federal leadership, so I encourage 
continued support of intramural NOAA staffing to meet this national 
need. National workshops must be held to collect needed expert opinion 
of on-going and emerging harmful algal issues, draft reports required 
by Congress and agency leaders, and provide career opportunities for 
students entering the field to protect future citizens from these 
expanding blooms and toxins. NOAA's Center for Sponsored Coastal Ocean 
Research staff have provided this excellence in the past 15 years, but 
excellence requires support so HABHRCA re-authorization and subsequent 
agency appropriations for intramural coordination, integration, and 
reporting in NOAA and would insure continued national leadership for 
the excellent research needed (supported in NOAA-administered 
competitive peer-reviewed extramural research for the Ecology and 
Oceanography of Harmful Algal Blooms (ECOHAB), Monitoring and Event 
Response of Harmful Algal Blooms (MERHAB), and Prevention, Control, and 
Mitigation of Harmful Algal Blooms (PCM HAB)), communication with 
scientists and users of that science, and implementation of mitigation 
procedures most effective at reducing threats to our citizens and 
ecosystems.

Re-Institution of EPA Leadership for Freshwater Harmful Algal Bloom

Research, Response, and Prevention, Control, and Mitigation

    One more point needs to be made: previous HABHRCA language 
identified EPA as a leader in Freshwater Harmful Algal Bloom research 
and the language is missing in this year's re-authorization. 
Freshwaters are beyond NOAA's mandate and hence it is important to re-
institute the EPA lead role in Freshwater Bloom Research as EPA has a 
strong and historic commitment to freshwater health, so EPA is a 
natural lead for specific harmful algae research and mitigation. This 
is beyond its identified role in water pollution and nutrients, and re-
authorization should re-install the requirement for EPA leadership in 
specific algal bloom research efforts.

Concluding Remarks

    I appreciate the opportunity to the subcommittee of the importance 
of re-authorizing HABHRCA for safe-guarding our nation's waters from 
toxins and bloom-induced losses to our economies and health of our 
citizens, their animals, and our important and productive aquatic 
ecosystems.

    Chairman Harris. Thank you very much, Dr. Sellner. They 
called us to vote, but I think if Dr. Smith and Dr. McGee, if 
you stick to those five minutes, we want to get through your 
testimony and then break and come back for questions.
    I now recognize our fifth witness, Dr. Stephanie Smith, 
Chief Scientist for Algaeventure Systems. Dr. Smith?

               STATEMENT OF DR. STEPHANIE SMITH,

             CHIEF SCIENTIST, ALGAEVENTURE SYSTEMS

    Dr. Smith. Thank you, sir, for the opportunity to come 
before your Committee and speak today. I am Stephanie Smith, 
Chief Scientist at Algaeventure Systems in Marysville, Ohio, 
and it is my privilege to bring you our unique perspective on 
harmful algal blooms and also our support for this legislation.
    There are five key points that I want to make sure you get 
from what I have to tell you today. First, addressing 
freshwater HABs is going to require a suite of multiple 
technologies that have to be developed both at the fundamental 
and at the applied levels. Second, far less appears to be known 
about freshwater HABs than marine, and strategies for 
addressing HABs in marine systems, as we have come to find, do 
not translate to success for freshwater systems.
    It is our opinion through our past experiences over this 
last year that there is insufficient assessment of HAB 
prevalence in inland lakes to truly understand the magnitude of 
the problem or the damage to the economies of those 
communities.
    It appears that more is known about monitoring and 
prevention of HABs than about control and mitigation. We 
believe more needs to be done to address an ongoing HAB, 
especially in a freshwater environment, and those writing in 
the scientific literature have also pointed to the need for 
more to be done in the area of remediation.
    The current level of funding which we understand to be on 
the order of $36 million is of course insufficient to meet all 
of the needs that we are pointing out today, especially when 
one considers that most of that will be spent in marine 
environments and the cost of developing mitigation or 
remediation strategies is very high. The funding level also 
doesn't match the magnitude of the damages assessed, even as 
the single example I am going to tell you about is going to 
demonstrate.
    Probably as demonstrated by the length of my introduction 
and apparently the size of the font on my testimony page, we 
are newcomers to freshwater HABs. We arrived at this as an area 
of interest, not through years of scholarship but through the 
recognition that freshwater HABs are a devastating problem for 
inland lake communities and economies, and it is in need of 
very creative solutions and technologies.
    AVS was founded on the belief that algal products are going 
to be one of the strongest grown industries over the next 1,000 
years, and we have invented some transformational technologies 
for dewatering algal biomass to overcome a major energy and 
cost barrier in our industry.
    The first is the solid/liquid separation system, or the 
SLS, and the second is the rapid accumulation and concentration 
system, or RAC. The RAC pre-concentrates algal biomass over 30-
fold so it can be more efficiently dewatered and then dried 
with the SLS. These technologies exemplify our inventive spirit 
but frankly blue-green algae was not part of our original plan. 
That changed in the summer of 2010 when freshwater harmful 
algal blooms all over Ohio and the most devastating one at the 
Grand Lakes-St. Mary's Reservoir in the city of Celina. This 
algal bloom contained a dangerous cocktail of toxins that 
included microcystins, anatoxins, cylindrospermopsin and 
saxitoxins, and it is estimated that this bloom cost this 
community between $60 and $80 million in lost revenue. Of 
course, there were also health consequences. There were eight 
confirmed human illnesses and four dog illnesses. The Grand 
Lakes-St. Mary's residents and as we were to come to find, most 
residents that experience a bloom, were desperately asking who 
is in charge of a situation like this? Are there actually any 
remediation strategies or solutions? Of course, a surprising 
number of solutions were proposed and some were tested, 
including our own which aim to stimulate the growth of non-
harmful algae, or diatoms, in the lake. None of these 
approaches were successful in reversing this bloom.
    So going forward, we plan to develop our SLS and RAC 
technologies in a way that would allow them to be deployed in 
lakes for the recovery of biomass, but as with our diatom 
approach, these technologies must undergo additional research 
and development.
    We also have a novel concept in development for diverting 
nutrient-laden waters of these eutrophic lakes into a 
controlled algal growth system wherein the biomass could be 
dewatered for biofuels or other algal products. We do not yet 
know whether any of our technologies will have a significant 
impact heading off a freshwater HAB, especially the one the 
magnitude experienced by GLSM last year. But we are confident 
that freshwater HABs can be approached with our technologies in 
combination with those of others toward a positive outcome.
    The summer of 2010 at Grand Lakes-St. Mary's and our 
monitoring and experimentation since then support the five key 
points that I want to leave you with, and I will be happy to 
entertain any questions.
    [The prepared statement of Dr. Smith follows:]
      Prepared Statement of Dr. Stephanie Smith, Chief Scientist, 
                          Algaeventure Systems
    Chairman Harris, Ranking Member Miller, thank you for the 
opportunity to come before the Science, Space and Technology 
Subcommittee on Energy and the Environment. My name is Dr. Stephanie A. 
Smith, Chief Scientist at Algaeventure Systems (AVS) located in 
Marysville, Ohio, and I am here to offer proponent testimony on the 
Harmful Algal Bloom and Hypoxia Research and Control Act (HR 3650), 
which aims to develop and coordinate a comprehensive and integrated 
strategy to address harmful algal blooms and hypoxia, and to provide 
for the development and implementation of comprehensive regional action 
plans to reduce harmful algal blooms and hypoxia.
    It is my great privilege to bring to you the unique perspective our 
company has acquired regarding freshwater harmful algal blooms (FHABs), 
and to describe the technologies that have been developed by our 
company and which we would like to adapt for FHAB remediation. We 
further envision novel remediation approaches, and the legislation at 
hand could greatly influence the development of such technologies by us 
or other creative people. So perhaps this is the time to make one of 
the most important points I hope to communicate to you: addressing 
FHABs will require a suite of technologies that come together to attack 
the problem, and which must be developed at both the fundamental and 
applied levels. Our company is certainly on the applied end of the 
spectrum, but we fully expect to engage other scientists, inventors, 
entrepreneurs, and engineers to improve our own technologies so that 
they work in concert with those developed by others, resulting in 
tailored solutions for FHAB sites.
    I wish to point out that compared with those we hope to engage, and 
to the distinguished panel you have assembled today and in years past, 
we are newcomers to FHABs. I am a microbiologist with broad experience 
in photosynthetic microbiology and microbial processes, and 
professional experience at both Wright State University in Dayton, OH, 
and the Battelle Memorial Institute in Columbus, OH. As a 
microbiologist I have over the years learned about HABs, the organisms, 
toxins, and conditions involved, while my own research focus has always 
been in the enzymology of bacterial carbon fixation, and bioremediation 
strategies and technologies that leverage natural microbial processes. 
I very recently joined Algaeventure Systems, which was formed in 2008 
under the leadership CEO Ross Youngs. Univenture, a plastics technology 
and manufacturing company founded by Mr. Youngs, sought alternatives to 
making their products from petroleum. After intensive research 
exploring the opportunities presented by terrestrial-based crops 
including corn, soy and palm, it was revealed that only algae held the 
potential to sustainably yield bioplastics with the same, or better, 
performance characteristics than petroleum-based plastics.
    Algaeventure Systems, Inc. was thus founded on the belief that 
algal products will be one of the strongest growth industries over the 
next 100 years, and that taking carbon dioxide from the air, nutrients 
and water from waste streams, and turning these things into useful 
products is absolutely necessary for a growing world population with 
shrinking resources. But shortly after starting this business, Mr. 
Youngs and his team recognized that dewatering algal biomass as part of 
the product cycle threatened to be an industry-crushing expense that 
would make algal products unaffordable in today's marketplace. 
Algaeventure Systems thus invented a key technology that has been 
selected & called ``transformational'' by the US Department of Energy's 
Advanced Research Project Agency (ARPA-E).
    Termed the solid-liquid-separation system, or the SLS, this low-
energy, unbelievably simple yet inarguably effective machine is one of 
our key technologies that we feel can be applied for recovering biomass 
from freshwater systems, including those which are laden with 
cyanobacterial biomass.
    Mr. Youngs and his team more recently invented a second key 
technology that will operate in concert with the SLS, called the Rapid 
Accumulation and Concentration system, or RAC. Again, low-energy 
consuming and remarkably inexpensive, this machine was conceptualized 
because of the search for materials to which algae might attach for 
growth. Looking to nature, the team sought to mimic the passive 
capturing of planktonic microbes by the ``feather duster'' worm's 
appendages. Those research efforts led to a material that is almost 
like an algae-magnet; in our own test systems and others it grabs algae 
out of the water and with a simple mechanical squeezing action releases 
the algae such that the biomass is concentrated over 30-fold. When this 
pre-concentrated algal biomass is introduced onto the belt of our SLS 
system, a flaky mass that resembles fish food is produced. The biomass 
is then manageable, cheap to transport because it is lighter, and can 
be used for processing into various products.
    These technologies exemplify the inventive and entrepreneurial 
spirit of this company, but with that said, ``blue-green algae,'' as 
cyanobacteria are often called, were not part of the original plan for 
this algae company. Then, Summer 2010 brought several toxic FHABs to 
our state, and the most devastating may have been the one that hit the 
Grand Lakes-St. Mary's (GLSM) reservoir in the City of Celina. GLSM 
enjoys approximately $150-200 million in revenue as a consequence of 
recreational lake activities and tourists that are drawn to this 
13,000-acre reservoir, which also happens to be the primary source of 
potable water for the city of Celina. The shutdown of Ohio's largest 
inland lake due to dangerous levels of a cocktail of cyanobacterial 
toxins (microcystin, anatoxin, cylindrospermopsin, saxitoxins) has been 
estimated to have cost the community $60-80 million in lost revenue. 
And of course there were health consequences. Numbers vary according to 
reports, but the Ohio EPA reported 8 confirmed human illnesses and 4 
dog illnesses, including 3 deaths of dogs believed to have directly 
ingested the lake water. A ``no contact'' recommendation was placed on 
the lake in July, which ended the tourist season early, and created 
numerous and unbearable hazards for the property owners and residents.
    The GLSM residents, and as we were to find, most communities that 
experience FHABs, seemed to be desperately asking, ``Can anyone help us 
with this? Who's in charge of solving problems like this? Is there not 
a solution for this problem?'' For those first questions, bear in mind 
that when it comes to inland lakes, excepting the Great Lakes, NOAA is 
not the agency that responds. Agencies of note that were assisting in 
the situation included the Ohio EPA, the Ohio Department of Natural 
Resources, Ohio Department of Agriculture, the USDA and the USGS. But 
perhaps the most impressive efforts came from the community itself, 
which formed a Lake Improvement Association (LIA), and had the 
leadership of key city personnel, most notably the tireless Planning 
and Community Development Director, Kent Bryan. It was through these 
community leaders that AVS was able to fully engage and become rapidly 
educated about HABs, and began to formulate options that might have an 
impact. The ODA provided financial resources to test some ideas, and 
due to the urgency of the situation by August of that year, the 
permitting process was accelerated by the EPA, the City of Celina, and 
the ODNR to facilitate testing of approaches. Under normal 
circumstances, such as where we find ourselves today in trying to 
implement and test new approaches, permitting can take 60 days to 6 
months.
    To the question of whether there was a solution to this problem, a 
surprising number of solutions were proposed, and many tested, but none 
successful. These ideas were tested at the peak of the FHAB, a nonideal 
time, and a demonstration that actual remediation of FHABs is something 
for which technologies do not presently exist. Among the ideas that 
were explored, AVS derived one from the scientific literature on marine 
HABs, in which addition of silica to ocean or estuarine environments 
was shown to stimulate growth of marine diatoms, a type of silica-
requiring algae that could out-compete the toxic algae and thereby 
possibly stave off a HAB. \1\ As early as 1971 the hypothesis had been 
put forth that in eutrophic freshwater systems seasonal succession of 
diatoms was closely linked to available silica, and that as they 
consumed nutrients in the water, including silica, the latter would 
become limiting and lead to diatom decline through the warmer months. 
\2\ \3\ \4\ If the diatoms became limited for silica while other 
nutrients were still available, it could create an advantageous 
situation for toxic cyanobacteria. If this phenomenon were occurring at 
GLSM, Mr. Youngs deduced that adding silica to the lake could possibly 
stimulate the growth of diatoms, and give them a competitive edge over 
the cyanobacteria. With the time short for trying to remediate this 
bloom, in collaboration with Bowling Green State University (Bowling 
Green, OH), the City of Celina, the US and Ohio EPA, the ODNR and the 
Ohio Department of Agriculture, AVS led the testing of a silica 
amendment in a small marina in the lake. While the treatment was 
clearly non-harmful to the environment (one reason it was readily 
permitted under the rushed circumstances), it had no effect on the 
bloom that was in progress. When I officially joined AVS in April 2011, 
and our team reexamined the many factors that were stacked against this 
approach working (e.g., the late stage of the bloom, the high 
temperatures, and the fact that water samples taken much later 
indicated that silica might not be limiting), we agreed that AVS needed 
better data than was currently available to design a well-thought out 
approach going forward.
---------------------------------------------------------------------------
    \1\  Egge and Aksnes. (1992) Mar. Ecol. Prog. Ser. 83:281-289.
    \2\  Kilham, P. (1971) Limnol. Ocean. 16(1):10-19.
    \3\  Gibson et al. (2000) Freshwater Biol. 45:285-293.
    \4\  Kristov et al. (2000) Hydrolog. Processes. 14:283-295.
---------------------------------------------------------------------------
    AVS has thus initiated our own monitoring of water quality and 
algal diversity, to supplement what was already ongoing by the Ohio EPA 
at GLSM. We have added two other lakes to our monitoring program, one 
which has frequently experienced FHABs over the years, and a HAB-free 
small pond on our own property. Our assessments have already taught us 
that the concentrations of soluble silica in these lakes is quite high, 
but it remains to be seen whether the concentrations remain that high 
throughout the year, or what the correlation might be with relative 
diatom biomass in the water column samples. In fact we have also 
learned that the toxic cyanobacterial species dominate the biomass in 
the water columns of the two lakes that have previously experienced 
HABs, even in the months of March, April, and May when we know silica 
concentrations should not limit diatoms from flourishing. This means 
that some mitigation strategies could possibly be implemented early 
relative to the late summer HAB to limit the growth of these 
cyanobacteria before they get out of hand. Likewise, perhaps a 
comprehensive strategy would combine early-season approaches with bloom 
remediation in July-August, so that technologies applied in the latter 
have a greater probability of success when applied on a less severe 
bloom. We do not yet know whether a condition could be created wherein 
diatoms, or some other algal species, could be stimulated to outcompete 
cyanobacteria. We plan to continue our monitoring for a full year to 
cover a complete seasonal cycle, and if we can find the funding we will 
add other lakes and analyses to our program. Our resources are 
currently too limited to have a full sampling regimen that yields a 
thorough scientific analysis of these lakes, but our observations are 
nonetheless enlightening and we look forward to sharing them with 
others as we process the data.
    As for new technologies to combat FHABs, our company now plans to 
develop our SLS and RAC in a way that would allow them to be deployed 
in lakes for the recovery of biomass, and we want to explore the 
possibility that the biomass could in fact be put to good use, turning 
a potentially disastrous scenario into a positive, and possibly even 
revenue-generating scenario. Both technologies were developed with 
eukaryotic algae that are approximately 5-10 times larger than typical 
cyanobacterial cells. In addition to having smaller cells, 
cyanobacteria can be filamentous, forming fibrous mats on the surface 
of the water or adhered to rocks and sediments. These properties 
require that our technologies undergo some additional research and 
development to efficiently capture this type of biomass. The City of 
Celina is allowing us to do some testing at their lake to see how the 
RAC in particular will operate with cyanobacterial biomass, which we 
all anticipate will reappear in force this summer. This work is in part 
is being funded by the Air Force/Air Force Research Laboratories.
    We also have a novel concept in development for diverting the 
nutrient-laden waters of these eutrophic lakes into a controlled algal 
growth system, wherein the biomass generated could be used for biofuels 
or other algal products. Nutrient removal and recovery is an intense 
area of interest in the scientific community and is viewed as an 
important long-term strategy to reducing HABs, \5\ and we believe that 
deliberate culturing of useful algal species can be one of many 
successful approaches to that. We do not yet know whether our own 
approaches of utilizing the SLS, RAC, and our algal culturing system 
can have a significant impact upon heading off or remediating a FHAB, 
especially one of the magnitude experienced by GLSM last year. But we 
are confident that FHABs can be approached with our technologies in 
combination with those developed by others towards a positive outcome.
---------------------------------------------------------------------------
    \5\  Paerl, H. (2008) Chapter 10 in Cyanobacterial Harmful Algal 
Blooms: State of the Science and Research Needs. Editor K. Hudnell. 
Springer Science + Business Media, LLC. New York, NY.
---------------------------------------------------------------------------
    Finally, I would be remiss if I did not point out that we are a 
small business, and in order for us to pursue solutions to FHABs with 
the same inventiveness and intensity we bring to all of our pursuits, 
we must be able to finance it. We are reaching the end of the funds we 
had available to develop some of our technologies directed at FHABs, 
and that is in no small part why we believe this legislation is so 
important. Applying creative solutions in a way that positively impacts 
our world and communities, while still supporting a successful business 
model that will create jobs and products, is a core mission of our 
organization, and we would like FHAB remediation to be part of our 
business model.
    In closing, our organization arrived at FHABs as an area of 
interest not through years of scholarship directed at this specific 
topic, but rather through the recognition that FHABs are a devastating 
problem for inland lake communities and economies, in need of creative 
solutions and technologies. The Summer of 2010 at GLSM, and the 
monitoring and experiments we have conducted since then, not only 
support the point made at the beginning of this treatise regarding 
collaborative technology development, but also bring out several others 
that are directly relevant to the legislation at hand, and which I want 
to leave you with:

    1. As stated earlier, addressing FHABs will require a suite of 
technologies that come together to attack the problem, and which must 
be applied at both the fundamental and applied levels.

    2. Far less appears to be known about FHABs than about marine HABs 
and how they might be addressed, and strategies for addressing HABs in 
marine systems will not necessarily translate to freshwater systems.

    3. It is our opinion, through this past year's experiences, that 
there is currently insufficient assessment of HAB prevalence in inland 
lakes to truly understand the magnitude of the problem or the damaged 
economies. \6\
---------------------------------------------------------------------------
    \6\  Dodds et al. (2009) Env. Sci. Technol. 43:12-19.

    4. It appears that more is known about monitoring and prevention of 
HABs (both marine and freshwater), than about control and mitigation. 
We believe that more needs to be done to address ongoing HABs, 
especially in freshwater environments, and those writing in the 
scientific literature have also pointed to the need for more to be done 
---------------------------------------------------------------------------
in the area of remediation.

    5. The current level of funding, which we understand to be on the 
order of $36M may be insufficient for addressing the needs we point out 
in this testimony, when one considers that most of those funds may be 
spent on marine environments, and the cost of developing mitigation or 
remediation strategies. The funding level also does not appear to match 
the magnitude of the damages assessed, even as the single example 
(GLSM) provided in this testimony demonstrates.

    Chairman Harris, Ranking Member Miller, thank you once again for 
the opportunity to testify before you today, and at this time, I 
welcome any questions from members of the subcommittee.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Harris. Thank you very much, Dr. Smith, and I now 
recognize our final witness, Dr. Beth McGee, Senior Water 
Quality Scientist at the Chesapeake Bay Foundation. Dr. McGee?

           STATEMENT OF DR. BETH McGEE, SENIOR WATER

          QUALITY SCIENTIST, CHESAPEAKE BAY FOUNDATION

    Dr. McGee. Thank you, Chairman Harris, Mr. Miller and other 
Members of the Subcommittee, I really appreciate the 
opportunity to speak with you today. Again, my name is Beth 
McGee. I am a Senior Water Quality Scientist with the 
Chesapeake Bay Foundation.
    You have my written testimony which highlights some of our 
recommendations for research needs in the Chesapeake Bay, so I 
would just like to take my time here to highlight just a few 
points.
    Probably the most notorious HAB species in the Bay was 
pfiesteria. You may recall back in the summer of 1997 this 
microbe, which was actually first identified in North Carolina 
waters, drew a fury of media attention and public concern 
because it was blamed for numerous fish kills and even human 
health concerns in the Chesapeake Bay, specifically in the 
Pocomoke River on the Eastern Shore.
    Since that time, fortunately we have not seen any 
reoccurrences of pfiesteria at least in the Chesapeake Bay, but 
the events were certainly a wakeup call nationally to the 
problems associated with harmful algal blooms. And I think 
actually it was one of the reasons that triggered the original 
1998 legislation that we are talking about today.
    Certainly the Chesapeake Bay has other problems with 
harmful algal blooms, things like mahogany tides will cause 
fish kills, we have the cyanobacteria, blue-green algae that 
have also been talked about that have caused human health 
concerns, but probably the most systemic problem in the 
Chesapeake Bay is problems with anatoxin and hypoxia. On 
average, about 75 percent of the Chesapeake Bay has 
insufficient levels of dissolved oxygen. What that translates 
into is a huge amount of the Bay, every year that is basically 
off limits for the aquatic life that live in the Bay.
    Ultimately the solution to both of these problems, that is 
anoxia, hypoxia and harmful algal blooms, is reducing excess 
nutrients. In the Chesapeake Bay we in fact have a very 
detailed nutrient reduction strategy that has just been 
developed by the States in collaboration by the Federal 
Government. It is mandated under the Clean Water Act, and while 
the Chesapeake Bay Foundation is certainly supportive of the 
research and monitoring needs that have been identified by some 
of the other panelists, we believe that the strategy, this 
nutrient reduction strategy that we have in the Chesapeake Bay, 
needs to be the principal means by which local, State and 
Federal Governments solve the problems associated with anoxia 
and HABs in the Chesapeake.
    With that, I thank you again for the opportunity to be here 
today, and I will be happy to answer any questions after your 
break.
    [The prepared statement of Dr. McGee follows:]
 Prepared Statement of Dr. Beth McGee, Senior Water Quality Scientist, 
                       Chesapeake Bay Foundation
    Chairman Harris, Mr. Miller and members of the subcommittee, we 
appreciate today's invitation and your interest in this important 
topic.
    For more than 40 years, the Chesapeake Bay Foundation has been 
working to protect and restore the Chesapeake Bay. The Chesapeake Bay 
is the nation's largest estuary, and its 64,000 square mile watershed--
from Cooperstown, New York to Cape Henry, Virginia and westward to the 
Allegheny Mountains--is a large part of the Mid-Atlantic region. More 
than 17 million people live in the Chesapeake Bay watershed, a number 
that is increasing by roughly 150,000 each year.
    Starting in 1998, the Chesapeake Bay Foundation has issued a State 
of the Bay report that grades the health of the bay on a scale from 1 
to 100. Last year, the numeric score was ``31''--a D+. The score was an 
improvement from the previous report card, but still indicates a Bay 
that is dangerously out of balance. The most systemic problem continues 
to be an overload of nitrogen and phosphorus pollution that fuel algae 
blooms that ultimately, lead to a lack of dissolved oxygen--that is, 
hypoxia and anoxia--in many parts of the Bay and its rivers. On 
average, over the last 10 years, more than 75% of the Chesapeake Bay 
and its tidal rivers have had insufficient levels of dissolved oxygen.
    These poor water quality conditions can result in mortality or 
stress to aquatic animals like crabs, oysters, and rockfish. In turn, 
these impacts have economic consequences.
    For example, low oxygen levels can drive blue crabs from their 
preferred habitat and kill many of the small bottom organisms on which 
the blue crabs feed. A study by the University of Maryland demonstrated 
that decreases in dissolved oxygen can reduce crab harvests and revenue 
to watermen.
    Another critical Bay species, commercially, recreationally, and as 
an important part of the Bay ecosystem, is the oyster. Unfortunately, a 
combination of overharvesting, disease, and poor water quality has 
decimated the oyster populations in the Chesapeake Bay. Extended 
periods of zero oxygen conditions can be fatal to oysters and recent 
studies have indicated that low oxygen levels can stress the immune 
systems of oysters, making them more susceptible to disease. The 
decline of the Bay oyster over the last 30 years has meant a loss of 
more than $4 billion for Maryland and Virginia.
    The rockfish (striped bass) has been, and remains, the most popular 
commercial and recreational fish in the Bay, generating roughly $500 
million of economic activity related to fishing expenditures, travel, 
lodging, gear and so on. Faced with a catastrophic collapse in the 
fishery, commercial and recreational fishing were banned in the 
Maryland portion of the Bay from 1985-89 and in Virginia during 1989. 
The dramatic decline of the population was due to several factors 
including overfishing and low dissolved oxygen in deeper parts of the 
Bay. Today, the rockfish population is at its highest in decades. 
However, scientists are concerned about the high prevalence of disease 
which has been attributed to poor water quality and limited 
availability of its preferred prey.
    Although arguably the Chesapeake Bay's most pervasive problem is 
anoxia and hypoxia, like many other coastal and estuarine systems, it 
also suffers from the effects of harmful algal blooms (HABs.) 
Scientists estimate there are more than 1,400 species of algae in the 
Chesapeake Bay and its tidal rivers; 34 are potentially harmful. HABs 
represent a significant threat to aquatic life, human health, and 
regional economies.
    Probably the most notorious HAB species in the Bay is Pfiesteria. 
During the summer of 1997, this microbe, first found in North Carolina 
waters, drew a fury of media attention and public concern when it was 
blamed for fish kills and human health problems in the Chesapeake Bay, 
specifically the Pocomoke River in Maryland. This led to closures of 
public waterways to commercial and recreational use, resulting in 
substantial economic losses to the local seafood and tourism 
industries. Since that time, there have been no reported Pfiesteria 
outbreaks in the Chesapeake and the role that Pfiesteria played in the 
observed effects is still being debated in the scientific community. 
Nonetheless, the events triggered intense research into all types of 
toxic algae and, since then, state health officials in Maryland have 
set up surveillance systems and tried to be more vigilant about warning 
the public about HABs through websites (http://www.dnr.state.md.us/bay/
hab/) and swimming beach notices--a model that other tidal Bay states 
would be well-served to emulate.
    Other harmful algae in the bay include species that produce 
reddish-brown ``Mahogany Tides,'' including Prorocentrum minimum, 
Karlodinium veneficum, and Cochlodinium polykrikoides. Blooms of these 
algae can cause dissolved oxygen problems, in addition to being 
directly toxic to fish and shellfish. In particular, Karlodinium is 
thought to be responsible for numerous recent fish kills in Maryland. 
In addition, recent studies have demonstrated that some species produce 
a toxin that is highly toxic to oyster larvae. As a result, several 
researchers have speculated that the increase in the distribution and 
magnitude of blooms of some toxic species in the Bay may be negatively 
impacting native oyster restoration efforts in Virginia and Maryland--
an activity in which the Chesapeake Bay Foundation is heavily invested.
    Blooms of blue-green algae, also known as cyanobacteria probably 
represent the most significant HAB-related risk to human health in the 
Chesapeake Bay. In particular, cyanobacteria produce toxins that have 
been associated with liver and kidney disease, vomiting, fevers, and 
skin rashes in people. A recent Chesapeake Bay study reported that 
between 2000 and 2006, 31 percent of the waters tested for 
cyanobacteria blooms had enough toxins to make them unsafe for children 
to swim in. The toxins can also cause fish kills, bird, pet, and 
livestock deaths. Typically associated with freshwater systems, 
cyanobacteria blooms have been causing problems in the Potomac River 
and other waterways at least since the 1930s. The first confirmed 
presence of toxins in the Chesapeake Bay's tidal waters came in 2000 in 
the Sassafras River on Maryland's Eastern Shore. Since then, state 
officials have issued no-swimming advisories or beach closures due to 
blooms on the Sassafrass, Potomac, and Transquaking rivers.

Research, Monitoring and Communication Needs

    In our view, additional research is needed to understand factors 
involved in, among other things, bloom initiation and the effects of 
climate variability and change. Additional monitoring and communication 
is also important.

    Understanding factors involved in bloom initiation. We know that 
nutrients certainly play a role in bloom formation, but the timing of 
nutrient input and the flow pathways are also critically important to 
bloom initiation and subsequent transport to adjacent waterways. From 
the management perspective, for example, understanding this 
relationship may help identify geographic areas and stormwater 
management approaches that should be targeted. Better understanding of 
bloom formation will also improve scientists' ability to predict the 
formation of blooms, thereby increasing the ability to protect humans 
from exposure.

    Understanding the effects of climate variability and change. Warmer 
water temperatures appear to be expanding the range of HABs into the 
Chesapeake Bay and causing others to bloom earlier. For example, a 
toxic alga normally associated with Florida and the Gulf Coast, 
Alexandrium monilatum, in 2007 was believed to have been responsible 
for killing whelks (a species of sea snail) in the York River in 
Virginia. It was the first known bloom in this area. Increasing 
temperatures will also select for different species in the normal 
successional pattern in the Bay, with unknown consequences on the 
living resources. Better understanding of these likely effects will 
help the Bay region better adapt to the ecosystem changes caused by 
climate change.

    Improved monitoring and communication. Probably because of their 
experience with ``Pfiesteria hysteria'', Maryland does a fairly good 
job of regular monitoring for common HABs, posting that information in 
``real time'' on a web page where it is visible to the public, and 
providing a HAB hotline--accessible via the web and by phone--where the 
public can report unusual events such as HAB or fish kills. Virginia's 
program, while providing some periodic monitoring, a public hotline, 
and state agency response to reported HAB events, does not report real-
time information to the public. Due to the apparent increase in the 
frequency and extent of HABs in Virginia's tidal rivers, particularly 
the James, we believe timely release of this information is critically 
important to inform and protect the public.

Draft Bill

    The letter of invitation that I received from Chairman Harris asked 
me to comment on the subcommittee's draft legislation for the 
reauthorization of the Harmful Algal Bloom and Hypoxia Research and 
Control Act.
    First, there is much that is good in the draft that was shared with 
us. It is virtually impossible to dispute the need for additional 
federally supported research, development and implementation of action 
plans for certain unaddressed aspects of the hypoxia/HAB challenge, and 
coordination of federal, State, and local government activities. As a 
general matter, the Chesapeake Bay Foundation supports reauthorization 
of the Harmful Algal Bloom and Hypoxia Research and Control Act.
    Second, no one should be surprised that we believe that the Act 
deserves a special Chesapeake Bay section, parallel but not identical 
to the Northern Gulf of Mexico section. We have been on the front lines 
of the Chesapeake Bay hypoxia and HAB questions for more than a 
generation. Scientists worldwide have recognized for decades that 
nutrient over-enrichment and hypoxia are the principal systemic water 
quality problems of the Chesapeake Bay. A better understanding of the 
underlying processes by which HABs are initiated will lead to better 
management strategies. That said, it is also time to address the 
underlying cause of these problems: excessive levels of nutrients.
    We have one overwhelming concern with this draft legislation: its 
failure to acknowledge, or in any way support, the widely accepted 
strategy to get nutrients under control under the authority of the 
Federal Water Pollution Control Act (the Clean Water Act.) There is a 
detailed action strategy in place that has been developed and agreed to 
by the federal government and the Chesapeake Bay jurisdictions--New 
York, Pennsylvania, West Virginia, Virginia, Maryland, Delaware, and 
DC. It has been reinforced by the federal courts and by the Congress. 
It needs to be acknowledged and supported by this subcommittee. In a 
time of such concern about the federal deficit, we simply cannot afford 
to have some federal agencies, six states and the District of Columbia 
working on one part of the problem, and other federal agencies on 
another.
    Expanding on that point, Section 8 of the draft bill is 
particularly problematic. ``Nothing in this Act, or the amendments made 
by this Act, shall be construed to require a State, tribal, or local 
government to take any action that may result in an increased financial 
burden to such government.'' We want to be very clear: successfully 
addressing the nutrient over-enrichment of the Chesapeake Bay in order 
to address the widespread hypoxia problem is going to require changes 
at the individual, local, and State levels that will impose costs. 
Unless the federal government is prepared to fund every penny of every 
necessary change-a prospect far beyond rational consideration-there 
will be costs to individuals and governments. We believe that such 
costs are manageable and will create jobs and spur local economies, and 
that it is an appropriate role for the federal government to assist in 
supporting some of the costs of necessary pollution reduction 
activities. However, pollution from all sources must be reduced. 
Individuals, businesses, and units of government cannot expect to 
perpetually ``externalize'' their costs by polluting the public's 
commonwealth.
    In sum, it is the view of the Chesapeake Bay Foundation that 
harmful algal blooms are a serious threat to ecological and human 
health in estuaries and coastal areas in North America and much of the 
rest of the world. Current policies that allow for externalization of 
the costs of pollution are at least in part to blame. While there is a 
need for more research, monitoring and communication, there is also a 
pressing need to reverse the policies that are substantially 
contributing to the harmful algal blooms in this country and abroad. In 
the Chesapeake Bay watershed, we have a strategy in place; it needs to 
be the principal means through which the federal, state and locals 
governments bring the Chesapeake Bay back into balance.
    Thank you for the opportunity to address the subcommittee today. I 
look forward to the discussion.

    Chairman Harris. Thank you very much, Dr. McGee. The 
Subcommittee will recess until 10 minutes after the last vote 
begins. We will resume the hearing for Member questioning at 
that time, and I want to thank the panel and look forward to 
seeing you, again, 10 minutes after our last vote begins. The 
Committee stands in recess.
    [Recess.]

    Chairman Harris. The Committee is now back in session, and 
again, I want to thank the panel for their testimony, and I 
will first recognize myself for five minutes.
    Dr. McGee, thank you very much for being here. You state in 
your written testimony that the Chesapeake Bay should have a 
separate provision in the bill. Given the issues to be 
addressed in the regional research and action plans, what areas 
of research do you recommend that could be specific to the Bay 
that would need to be identified in a separate section?
    Dr. McGee. Thank you again for the opportunity to be here. 
In particular, one of the notions, and this is actually more 
related to sort of public notification rather than research, is 
we believe Maryland does a really good job of doing some 
routine monitoring for harmful algal blooms, for posting 
information related to blooms on their web page sort of in real 
time. Unfortunately, in Virginia, the information is a little 
less readily available. There is no real-time access for the 
public to be notified of when blooms are occurring and 
therefore can protect themselves. So that would be, I think, 
one example around the sort of monitoring public notification 
that I believe this legislation could address that could be 
specific to the Bay to sort of up the bar for both Maryland and 
Virginia and other coastal states within the Bay region.
    Chairman Harris. And that would be regarding notification. 
But with regards to research, because again, you know, the 
focus of this Committee really is the research aspects. Are 
there aspects of that research that would be particular to the 
Bay?
    Dr. McGee. I guess,specific to the Bay but issues that I 
have heard from scientific colleagues include the effects of 
climate change, for example. We are seeing blooms of algal 
species that are from more southern regions that we are now 
starting to see show up in the Bay on a regular basis. So 
having a better understanding, being able to better predict 
what species may be affecting the Chesapeake Bay waters, and 
therefore, the residents of the Chesapeake Bay are important.
    As I mentioned, we do have problems with mahogany tides, in 
particular, which are responsible for fish kills, et cetera. 
There is an unclear understanding of what triggers those, the 
initiation of those blooms, so better understanding those. You 
know, those are not necessarily problems that are unique to the 
Chesapeake Bay. I think the species are perhaps unique to the 
Bay and other areas, but they would probably be applicable 
nationwide.
    Chairman Harris. Thank you. Let me just ask, I will ask you 
and other Committee Members my comment because in your 
testimony you mentioned that, you know, we should concentrate 
on kind of what I will call the upstream effect of nutrients, 
adding nutrients that promote the growth of the algae that 
could result in hypoxia or harmful algal blooms. But downstream 
you could also remove some of the algae by for instance 
increasing the population of Menhaden, for instance. Is that 
something we should be looking at, looking at the effect, the 
cost benefit effect of increasing the population of Menhaden to 
in fact remove some of the algae so for instance our dead zones 
are smaller?
    Dr. McGee. The Chesapeake Bay Foundation has thought a lot 
about that. I mean, oysters are another example of a really 
good in-stream filter that is removing algae, and we actually 
do a lot of oyster restoration because of that important 
ecological role. But ultimately, our sense is that you really 
need to stop pollution at the source because there are no doubt 
going to be effects from the nutrients as they travel 
downstream to where you might have the Menhaden or the oyster 
bar. And so there are going to be effects that we are going to 
miss, and so ultimately the solution we think needs to be both 
of those. It needs to be protecting and restoring our in-stream 
filters but also reducing the sources of nitrogen and 
phosphorous pollution coming into the Bay.
    Chairman Harris. Any other panel would comment on the use 
of the natural eaters of the algae? Yeah, Dr. Anderson?
    Dr. Anderson. I would make the comment that there is old 
law of unexpected consequences, and we see it an awful lot with 
some of these systems. The amazing pictures that I showed you 
from China are a perfect example of where they have started a 
huge aquaculture industry down near Shanghai and porifera, the 
algae you get in sushi, and the green algae that you saw in 
huge masses is a contaminant that grows on those racks for 
porifera, and they just get thrown in the water and it grows. 
And that is a situation where an effort to help clean up the 
nutrients with this huge aquaculture site that is removing 
nutrients, did a good job there, but produce a problem 
elsewhere.
    So yes, it can be a great idea, but I think without very 
careful and thorough research of all possible outcomes of these 
things, we have to be careful with that kind of manipulation. I 
am totally for trying those things. I have been arguing forever 
we need to try to mitigate these HABs, but we have to do it in 
a very careful and scientific way.
    Chairman Harris. Thank you very much. Mr. Miller?
    Mr. Miller. Thank you. Dr. Anderson, or I think several of 
you, spoke in your testimony of the need for mitigation. I 
understand the concern that some of what Mr. Harris just asked 
you about kind of creates other complications, and we might 
need to find a way to deal with Menhaden and on and on.
    What are some of the other ways that we may mitigate the 
effects of HABs? Yes, sir. Dr. Sellner?
    Dr. Sellner. Well, as I said in my testimony and I maybe 
spoke a little bit too rapidly, there are a number of other 
ways that are routinely used, particularly in Asia. In Asia 
there is a routine application of a mixture of local sediments 
and some type of flocculating agent. In our case, it is blue 
crab shells, or a byproduct of those shells. And those are used 
around the aquaculture pens like Don was referring to, and they 
are usually addressing planktonic organisms that are floating 
in or are growing in response to the nutrients that are being 
excreted by the animals in the pens. So you can apply those 
types of sediments to remove the phytoplankton, thereby not 
allowing the organisms in the pens to be exposed either to the 
low dissolved oxygen from the bloom, and it will also remove 
any toxin associated with the algae to the bottom.
    The nice thing about those waters generally is that they 
have a strong bottom current, so you don't transfer the problem 
from the surface to remain at the bottom and exacerbate a low 
dissolved oxygen situation or transfer the toxin down to 
shellfish or fish that are living on the bottom.
    So, that is a very viable technique that is used throughout 
mostly in China, Korea and Japan at regular intervals. Other 
ways in very small systems, we have ways to mix water in 
freshwater enclosed systems, destratifying the water. That 
means if you notice when you go swimming you can often be 
floating on the surface and you extend your feet down and they 
are freezing because the water is stratified, warm at the top 
and denser, colder water at the bottom. Well, that is 
stratification actually favors the growth of many of our HAB 
species. So if we can destratify the water, we can produce the 
diatoms like my colleague was referring to, and the diatoms are 
generally indicative of healthy waters and support those 
organisms that we would harvest. It reduces the harmful algal 
blooms so that there are no toxins, et cetera.
    The issue again, you get too many diatoms is that, like in 
the Chesapeake, if you get too many diatoms and it goes below 
that stratification, then you have perpetuation of the low-
dissolved oxygen problem. So that is the Chesapeake's problem, 
but if you mix the water--we are not going to mix the 
Chesapeake. We have already tried to do that about 20 years ago 
under a former DNR director, and that wasn't a wise move. But 
in small lakes, that mixing process can work and does work 
effectively.
    Mr. Miller. Actually, that has used up almost all my time. 
It certainly sounds like all the efforts to mitigate create 
more potential problems and are more complicated which means 
more things can go wrong than simply producing fewer of the 
nutrients that create the algal blooms.
    Dr. Greene and Dr. Magnien, quickly, I know that every 
president, whether it is kind of censor what government 
officials are saying in a sinister way or just to know what 
they are saying, wants to see a testimony. This Administration 
has been no exception, and it is a somewhat cumbersome process 
which did not make it possible for you to review the draft 
legislation in a way to comment, in your written testimony. But 
do you have any comment now. Dr. Magnien, you appeared to want 
to answer the last question. Do you want to try to do both 
quickly?
    Dr. Magnien. Yeah, if I have a little bit of time, on the 
mitigation, we typically look at that as not necessarily 
controlling the bloom as much as dealing with it like we do 
with hurricanes or tornados. And one of the best ways to deal 
with that for harmful algal blooms is to be able to forecast 
and detect it early and stay out of harm's way essentially, 
either move aquaculture resources or alert public health 
officials that something is offshore and about to come in. So I 
wanted to put that on the table in terms of an important 
mitigation tool, and I mentioned that and I have more examples 
in my written testimony.
    As regards to the draft legislation, yes, we did receive it 
recently, but I am prepared to give some comments on that 
legislation today. We are very supportive of the 
reauthorization, have been for a number of years. It is really 
important that we maintain the momentum that we have built. 
Many years are often required to get to the point of actually 
providing a forecast or a tool to a manager. We have had some 
good success. We are seeing an acceleration of these benefits 
as a result of our research, and reauthorization would 
certainly help us continue on that path and bring these things 
to fruition that we have been able to support so far.
    We are very pleased that the HABHRCA draft includes the 
establishment of an overarching HABs and hypoxia program within 
NOAA. This will enhance the visibility of these issues as a 
national priority and improve the coordination within NOAA with 
other federal agencies and the affected user community.
    In addition, we are pleased that the legislation includes 
both event response activities and improvements in 
infrastructure under the NOAA list of responsibilities. One of 
the HABHRCA reports that we presented to Congress that I had 
mentioned earlier had management and response and assessment 
plan recommends in fact that progress would be enhanced if 
event response and infrastructure programs were added in this 
legislation.
    And finally, we note however that all mention of specific 
programs and their associated funding levels are no longer in 
the draft bill as they were in the prior version. NOAA has 
found that the specification of these programs and the funding 
amounts to go with them helps to clarify the intent of Congress 
when implementing this legislation, and much of the progress we 
have made is because of that specificity and working closely 
with this Committee and your staff and ensuring we are on 
track.
    So those are a summary of NOAA's comments on the 
legislation. We would be happy to continue to work with staff 
to go over any other additional questions as this legislation 
moves forward.
    Mr. Miller. Mr. Chairman, it is up to you whether to 
allow--I mean, obviously, I am over time, but Dr. Greene? Okay.
    Chairman Harris. Thank you very much. My colleague from 
Maryland, Mr. Bartlett?
    Mr. Bartlett. I have a farm pond surrounded by a pasture 
that drains into it. Obviously it has a huge nutrient load, and 
for probably 30 years I struggled with filamentis algae. If I 
didn't use copper sulfate, it covered the pond so that it 
looked like I could walk on it and by fall--I hate to use 
copper sulfate because amphibians are exquisitely sensitive to 
that. It just kills them all. So I usually just suffered with 
filamentis algae.
    And four years ago I put a pair of mute swans, pinioned, so 
they will not become feral and they won't leave, put a pair of 
mute swans on the pond. It is the most environmentally correct 
way to control filamentis algae. They ate it all. It is 
incredible. For four years now I have had a pond that is 
crystal clear. So this is, at least for a small farm pond, a 
great environmental way to control filamentis algae. I don't 
know how many grazers there are that could control other 
places, but at least for my farm pond, it worked very well.
    I gather that one of the nutrient loads in the bay is from 
septic systems. I don't know what percents of the nutrients are 
septic systems, but I know the governor is concerned about it 
and would like to ban further development on well and septic. 
You know, when you look at our septic systems, by regulation 
you have to eject the effluent from septic tank into the soil 
below the root zone of most of our plants, and then we are 
surprised when it ends up in our aquifers and ends up in the 
bay. We clearly have a disposal system rather than a recycling 
system. If you would inject the effluent from the septic tank 
at the root zone, most of those nutrients--what is poison to 
the bay is golden for your crops. It is exactly the nutrients 
that the farmer pays a lot of money for to put on his crops, 
and it poisons the bay. It is golden on the crops.
    I have worked for a number of years now trying to get some 
change in the regulations for septic systems. They will not 
permit composting toilets, which of course you have no effluent 
running into the bay. They will not permit composting toilets. 
They force you to put the effluent under the root zone and then 
express great surprise when it ends up in the bay. Is there any 
way we can bring sanity to this process?
    Dr. McGee. I appreciate your comments, Congressman. With 
respect to the loads from septic systems, watershed wide, it is 
somewhere around six to seven percent, but that is expected to 
grow as our region continues to grow. So it is concerning 
because it is obviously a source and a growing one.
    I am not an environmental engineer, but I am wondering one 
reason why there is a depth requirement is because septic 
systems are primarily really designed to take bacteria out, and 
if you would inject the effluent from the septic system at too 
shallow a level, you could be I think potentially exposing 
humans to bacteria. So I think that could be one regulatory 
reason why the switch isn't occurring.
    Mr. Bartlett. As far as I know, all pathogens are 
exquisitely sensitive to ultraviolet light. I think there is 
just a modest exposure to light, and they are all dead. Am I 
wrong?
    Dr. McGee. I think----
    Mr. Bartlett. I just think this is a disposal system, out 
of sight out of mind. You don't need to worry about it because 
you can't see it anymore.
    Dr. Smith. Yeah, I am actually a microbiologist, and yeah, 
coliform bacteria, I mean the USGS has done a lot of really 
good source studies. You know, you can trace, for example, a 
lot of coliforms that come from cattle and so forth to the site 
even of those cattle because those coliforms can persist in 
streams and waterways all the way down to the tap. So as Dr. 
McGee pointed out, those bacteria are the primary reason, and 
just transient exposure to UV light, I mean, it has to be 
pretty intense UV light, far more intense than what they would 
typically get when they are floating around in murky waters. So 
that is not sufficient to kill those bacteria in those systems.
    Mr. Bartlett. Well, you know, if you injected the root zone 
of the plant, it doesn't get to the surface. The plants absorb 
it. I know a scientist who does this, and he does it very 
successfully. He has a gray water system, and all of the 
nutrients go into a bed that is a growing thing.
    I went to Pennsylvania, and I saw a system, a constructed 
wetland, that handled the waste from I think a dozen homes, and 
it was really pretty small. And there was no effluent from 
that. There are a lot of things we can do if they would simply 
change the regulations so that they were legal to do.
    My time is up. I thank you very much.
    Chairman Harris. Thank you, and we are going to have a 
second round of questions.
    Dr. Sellner, let me ask you a question. In your statement 
you included a description of the techniques you are using I 
think at that lake outside of Denton, Maryland, is that right?
    Dr. Sellner. Um-hum.
    Chairman Harris. Will that technology be transferrable to--
I take it it is a totally freshwater environment--to the marine 
environment of the bay or the estuarial environment of the bay, 
and if it is, when do you anticipate you can move some of that 
research to that environment?
    Dr. Sellner. Yes, it is transferrable. Actually Don and his 
student have done some very nice work on the Florida red tide 
using a similar approach with sediments and flocculation.
    It can be done very readily because the process is similar. 
We actually had a high-school student take our method that we 
are using at Wollaston Lake outside of Denton and try it with 
prorocentrum, one of the mahogany tides that Dr. McGee was 
talking about, and they took it out just as effectively as the 
cyanobacteria that we are studying in the lake, Wollaston.
    So it looks very effective. One of the lessons we have 
learned from our colleagues, both Don and our Asian colleagues 
is that you must change the flocculating agent, just because of 
the salt effect. But the sediment, combined with the 
flocculent, works very well.
    The limitation though about going to the open water, and I 
should say the method we are using at Lake Wollaston will be 
used, can be used in tidal freshwaters, so Upper Potomac, 
Mattawoman Creek, you know, Sassafras, Bud's Creek, 
Transquaking, Higginsmill Pond which drains into the 
Transquaking, it can be used in those flowing waters. So it is 
not just limited to a basin of a lake.
    So yes, the technique is quite applicable in terms of 
timeframe. As I was talking with your staff member just at 
break, one of the limitations is permitting and liability that 
we have to address in terms of federal and state concerns of 
unexpected consequences. Right now we are doing work to suggest 
that following the toxin to make sure that we don't move it to 
the bottom, and if it does go to the bottom, does it impact 
oysters or swimming Menhaden for example? We believe that the 
bacterial process that Dr. Smith knows about will actually 
degrade the toxin through time so that it would be a temporary 
pulse to the bottom, but it would through bacterial activity, 
natural bacterial activity, would actually disappear through 
time.
    But it is important to consider open systems that as long 
as the water is moving, you don't take substrate and allow it 
just to accumulate in one area, substrate meaning the algal 
biomass.
    Chairman Harris. And if that were a successful 
technological solution, do you think that there would be 
private sector interests? I mean, do you see it eventually that 
technology migrates into the private sector to actually do some 
of the mitigation and control?
    Dr. Sellner. It certainly can be done that way. Right now 
the State of Maryland, as you likely know, DNR has some very 
good event response capacities. They routinely send out SWAT 
teams. Our approach right now has been that it would become a 
tool in the State's toolbox, and this technique is inexpensive 
relative to many other techniques that are out there, 
commercial products that are available. Crab shells are local.
    So it could be done by a private firm. I think a cost 
benefit analysis would need to be done because no offense to 
Dr. Smith and her company, but overhead rates in businesses are 
higher than, you know, the state rates for their teams that are 
normally out in the field.
    So as long as that cost benefit analysis was done, I think 
any way to get the technique routinely used should be explored.
    Chairman Harris. And Dr. Smith, are there some other 
solutions that you can think of or discuss with us about 
something that could be available for when an HAB is predicted 
to occur, something that might make it less likely to occur, to 
mitigate it, other solutions out on the horizon?
    Dr. Smith. Yeah, we had looked at the possibility. I didn't 
get to talk much about it, of whether you could add silica to a 
system and potentially promote the growth of diatoms, but the 
way to do that would probably have to be very early in the 
spring because when it is really warm--and it also points to 
the fact that climate change is going to be a huge issue here--
when it is really warm, speaking as a microbiologist, nothing 
is going to grow faster than a cyano. I mean, they are going to 
outgrow anything, no matter how much silica you can put into a 
system or anything else.
    So there is potential for an amendment like that to work. I 
think that would probably work even more in some marine systems 
than in freshwater systems. What we are learning now is that a 
lot of our freshwater systems don't appear to be that limited 
for silica actually, so that might not be the factor that is 
holding back the growth of beneficial algae. So that would be 
another area for very fundamental research. If you wanted to 
promote the growth of something that you like better than a 
cyano, how are you going to do that? And there could be some 
very good basic research done in that area because I think 
there have been some examples in the past where, you know, just 
getting a bunch of diatoms might not necessarily be a good 
thing, either.
    So there really has to be some fundamental work there. I 
think more on the applied end, especially with these filamentis 
cyanos, as Mr. Bartlett pointed out, it does look like you can 
walk across a pad of these. I don't know if I would do that on 
a 13,000 acre lake like Great Lakes-St. Mary's, but I think 
there are also almost what I would call more brute-force 
technologies that I think could be looked into for just 
harvesting that biomass. I mean, it almost looks like you could 
just rake it off of the surface.
    With that said, those technologies have to be very low-
energy technologies, and they have to be done in a way that 
won't lice that biomass and release more toxins. So that is 
something we are considering very strongly. You have to have 
sort of a passive harvesting technology to try to get your 
hands on that biomass so that you don't create a bigger 
problem.
    Chairman Harris. Thank you very much. Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman. Dr. Greene, comments 
on the legislation?
    Dr. Greene. Yes, thank you, Mr. Miller. We are encouraged 
by the legislation in that it recognizes the continuing needs 
for further research and management tools to address harmful 
algae and hypoxia. We are a little unclear at the moment what 
the omission of the freshwater piece may have and how that may 
impact EPA's role in the future. We are certainly looking 
forward to providing written comments once we see the next 
draft legislation.
    Mr. Miller. Thank you, Dr. Greene. Dr. McGee, in your 
testimony you discuss the importance of understanding what led 
to bloom initiation, bloom formation, the importance of 
scientists understanding that. Who is now doing research into 
bloom formation?
    Dr. McGee. Actually, the scientist who made the 
recommendation to me because I queried some of my colleagues 
prior to testifying here today, was a researcher down at Old 
Dominion University. Her name is Margie Mulholland. I am sure 
there are others. Dr. Sellner probably knows some as well. But 
that was one suggestion that came to me.
    Mr. Miller. Is that research going on now or is that . . .
    Dr. McGee. There was some preliminary--yes, there is 
research going on right now, but clearly more--I think it seems 
the little I know about harmful algae blooms that the more you 
dig into it, the harder they are to understand. So I am sure 
that one question was answered and many more came up.
    Mr. Miller. Dr. Sellner, Dr. McGee said this is an area you 
are more familiar with as well.
    Dr. Sellner. Yes, I am going to actually defer to Don 
because he is very familiar with all of the initiation that is 
going on. I could say some things, but I think Don has them at 
the tip of his fingers.
    Mr. Miller. Dr. Anderson, are you going defer to Dr. Green?
    Dr. Anderson. No, I am very happy to handle, Mr. Miller. We 
actually, in the Gulf of Maine, New England area, are heavily 
invested in studies of the initiation of blooms of an organism 
that cause paralytic shellfish poisoning, and that organism has 
actually a resting stage or a cyst. It is in bottom sediments. 
It is all through the Gulf of Maine, billions and billions of 
them are down there. And we have studied them. We now know what 
time of year they come up, that they have got a little internal 
clock that regulates that emergence, just like we have a daily 
rhythm that wakes us up. They have got a yearly rhythm. We have 
got that all parameterized, we have got it modeled, and that is 
now the basis of the forecast that Rob Magnien has been 
mentioning that we are now issuing every year for how big our 
blooms are going to be and when they are gong to occur and so 
forth. All based on the size of the sea bed of these cells that 
have been dropped by the preceding blooms that we go out and 
map every year, and we have been working with these NOAA 
programs with the methods to both map these out and to just try 
to make that a much more efficient and less expensive procedure 
because we are finding through year after year of mapping these 
features, that there are common aspects of the distributions 
that we can then start to have a much more efficient sampling 
program to sample just a few locations and extrapolate and know 
how many are out there.
    So bloom initiation is extraordinarily important, and this 
is a good example of where sustained research has led to a 
predictive tool and a forecasting tool that is soon to become 
operational within NOAA.
    Mr. Miller. Okay. I know that Dr. McGee talked about the 
role of nutrients as being obviously central, and our own Dr. 
Bartlett did as well. How big a role do nutrients play in bloom 
formation, Dr. McGee or Dr. Anderson or Dr. Sellner?
    Dr. Anderson. I think I will just take a quick shot at 
them. I am sure Kevin would like to say something. I wrote a 
paper very recently about the U.S. HABs and nitrification, and 
we walked around the country with experts from each area and 
for each one said with these big outbreaks, in New England and 
the Chesapeake and the Gulf of Mexico, how critical are 
nutrients from land in these outbreaks. And the answer is in 
some, it is extraordinarily important, in some areas. But in 
other areas, in the Gulf of Maine for example, along the West 
Coast in California, in Alaska and some parts of Washington, it 
is natural nutrient sources that are driving these. So it is a 
very important point for the Committee to realize that simple 
nutrient reductions are not going to eliminate the HAB problem. 
It will only affect some of them.
    Mr. Miller. My time is expired.
    Chairman Harris. Dr. Sellner, did you want to say something 
about that?
    Dr. Sellner. Yeah, just a little bit. Don hit on the Gulf 
of Maine example, but resting stage that he was talking about 
is actually characteristic of many of the HABs. So for example, 
Denton Lake or actually in your case, Mr. Bartlett, the 
filamentis forms, they actually have overwintering stages. They 
are not necessarily cued to an internal clock like Alexandria 
is in the Gulf of Maine. But when the waters begin to warm, you 
know, as Dr. Smith alluded to, for most microbes, warming in a 
lake, normal seasonal increase in spring, it is, oh, yes, it is 
time to get out of my winter doldrums. A little bit of light 
hits the bottom, if they are sitting in nutrients, bang. They 
have a competitive advantage.
    So there are many overwintering or resistant stages for 
many of the HABs out there. So that is one of the processes 
that we have to imbed into all of our basic research but also 
our mitigation. So there are aspects of this initiation that a 
number of groups are studying. Margie Mulholland who Dr. McGee 
referred to down at Old Dominion is investigating 
accocladinium, a very large dinaflagalant that occurs down 
there and it initiates not far from the Norfolk Naval Base, not 
attributing it to the naval base, but it is to Elizabeth River 
and there is a source there in the sediments that essentially 
acts as a seed bed for the rest.
    In the York River, there is a bloom former there, 
Alexandrium monilatum, that now has come in from the coastal 
ocean during a drought, forms a cyst and actually resides in 
the sediments. And so now it is there, waiting for that warming 
period or those optimal conditions, and then when those optimal 
conditions occur, nutrients are around because nutrients are 
very plentiful, and the blooms take off.
    So nutrients are essential to all plant growth, and the 
HABs generally have a life stage that permits use of that under 
optimal conditions as well as relatively rapid growth rates or 
competitive advantages where they bash their competitors, I 
will put it simply.
    Chairman Harris. Thank you very much, Dr. Sellner. Mr. 
Bartlett?
    Mr. Bartlett. Thank you. I have been interested in two 
things, one is trying to save our farmland because right now 
the only development you can do with well and septic is on 
farmland because it can't slope more than 25 percent or they 
won't perk it, and it has got to perk and of course that is by 
definition farmland. So I have been trying to encourage 
development that doesn't chew up farmland and reduces the 
nutrient load.
    So I have been trying to promote the composting toilets 
which really work very well. They have worked very well for a 
couple of hundred years in Scandinavia. There is no question 
that they work. And I wanted to use rainwater, and we have 
prohibitions against using cistern water, so I said, gee, let 
me see if I understand this. The rain falls on the hog lot, and 
then it flows out of the hog lot into the stream. Then it goes 
into the stream, into the reservoir, and you pull it out of the 
reservoir and treat it and tell me it is drinking water. I say 
can I please have it before it goes through the hog lot? That 
seems to be a rational request to make. Enough water falls on 
the roof of the average home to meet all of your water needs 
for the year if you separate your composting toilet from your 
gray water.
    We are about the only major country in the world that 
flushes their toilets and washes its streets and puts out its 
fires with drinking water. So gee, you know, you might be 
washing the car and drink from the hose, so you couldn't use 
gray water. I said, you don't drink from your toilet, do you? 
You know, you learn what you can drink from and where you can't 
drink from. I didn't see that as a reasonable objection to 
using cistern water.
    You know, you could go out on an abandoned freeway and with 
a Clivus Multrum, any composting toilet, Clivus Multrum is the 
granddaddy of them, and it absolutely works, and with a gray 
water system and just, you know, build a bed out there and put 
your gray water in that bed and catch water from the roof of 
your house, and that would meet all of your water needs for the 
year. It is going to be a race from any community, whether they 
are brought to their knees due to lack of energy from oil or 
lack of water. So we certainly need to conserve water. This 
also would markedly reduce nutrients in the Bay. There would be 
no nutrients escape that house built out on the center of the 
abandoned freeway, would there?
    What can we do to get the regulation changed so you can do 
that? You know, the only time they will let you use these 
alternative systems is when you don't need to use them? Yes?
    Dr. McGee. If I could respond, what you have described is 
exactly what we have at the Chesapeake Bay Foundation 
headquarters.
    Mr. Bartlett. I have been there. You do a great job.
    Dr. McGee. So we have composting toilets, we have cisterns 
on our roof. We use the water so we don't have flush toilets. 
We use the water from the roof as fire suppression and for hand 
washing, the only potable water. And as a result, we use about 
ten percent of the water of an office building of our size. And 
we did run into trouble as you noted with the county in terms 
of reusing our cistern water and also where our gray water 
goes. And we actually sent a little bit of our water to the 
sewage treatment plant because they wouldn't let us manage it 
on site.
    So we share your concerns. I am not sure it is a federal 
issue or a state issue or a county issue. I suspect it is 
perhaps a combination of all three. But one of the reasons why 
we did what we did at the Chesapeake Bay Foundation building is 
to show people what is possible, to demonstrate that it is 
possible that the toilets don't have to smell, et cetera. So I 
appreciate your comments.
    Mr. Bartlett. I am very familiar with composting toilets. 
Clivus Multrum was one of the first ones. It really works very 
well. That is an anaerobic system. There are aerobic systems 
that work very well and compost very quickly. You end up at the 
end of a year with like a water bucket of humus from the waste 
from a whole household. It really is a very effective system.
    There are a lot of people that get a lot of satisfaction on 
resting lightly on the environment. They would really like to 
do that. You can't do it today. How can you all help us to 
bring some sanity to these regulations so that you can do that 
if you want to?
    Dr. Sellner. As I pointed out in the testimony, HABHRCA in 
the past has had a very strong commitment to social science 
aspects of research, and that social science research leads to 
very effective, developing effective communication strategies 
with our public and with other stakeholders out there.
    So I do believe, and as we found in the Florida red tide 
situation, that if we can effectively and routinely communicate 
across our citizens, and unfortunately many of us my age and 
perhaps a little bit older aren't reachable anymore but the 
students are, so what we have found is when we have a very 
effective communication and education programs with school 
districts, the kids are the major influence at their homes. So 
they go home and embarrass you into using, you know, don't 
leave the water running while you are brushing your teeth, you 
know, why do you take, and this is a tough one, showers. They 
love showers. They are going to be in there forever, but they 
are the ones who actually come home and embarrass us older 
folks into doing the right thing.
    So I think our focus, and HABHRCA actually emphasizes that 
social science, is to continue to embed funding down the road 
in that outreach and effective communication, whether it be 
HABs, whether it be nutrients, whether it be any other issue is 
we find we can only do our job at application if we can talk 
routinely and constantly with our citizens and stakeholders. So 
investment in that social science is a critical area.
    Chairman Harris. Thank you very much, Dr. Sellner, and you 
are right, you know, sometimes we have to think outside the 
box, and of course, the purview of this Committee is research, 
and some of the best research comes from outside-the-box 
thinking, especially on complex topics like this.
    Anyway, I want to thank all the witnesses for your valuable 
testimony and the Members for their questions. The Members of 
the Subcommittee may have additional questions for the 
witnesses, and we will ask you to respond to those in writing. 
The record will remain open for two weeks for additional 
comments from Members. The witnesses are excused, and the 
hearing is adjourned. Thank you.
    [Whereupon, at 4:20 p.m. the Subcommittee was adjourned.]

                                   

</pre></body></html>
